<html>
<title> - S. 414, DIGITAL DIVIDE AND MINORITY SERVING INSTITUTIONS</title>
<body><pre>[Senate Hearing 107-1097]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1097



        S. 414, DIGITAL DIVIDE AND MINORITY SERVING INSTITUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
89-640                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                              ----------                              

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                      RON WYDEN, Oregon, Chairman

JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida

                            C O N T E N T S

                              ----------                              

                                                                   Page


Statement of Senator Allen.......................................     8
Statement of Senator Cleland.....................................     5
    Prepared statement...........................................     7
Statement of Senator Dorgan......................................     1
Statement of Senator Wyden.......................................     2
    Article dated February 27, 2002, from The Wall Street 
      Journal, entitled White House Spurns Tech Programs Left 
      Over from Clinton Presidency...............................     2

                               Witnesses

Flores, Dr. Antonio, President and CEO, Hispanic Association of 
  Colleges and Universities......................................    19
    Prepared statement...........................................    20
Garcia, Dr. Juliet V., President, University of Texas-Brownsville    54
    Prepared statement...........................................    58
Gray III, Hon. William H., President and CEO, United Negro 
  College Fund, Inc..............................................    11
    Prepared statement...........................................    12
    Testimony to the Web Based Education Commission submitted on 
      behalf of United Negro College Fund (UNCF).................    15
Humphries, Dr. Frederick S., President and CEO, National 
  Association for Equal Opportunity in Higher Education..........    24
    Prepared statement...........................................    27
McDemmond, Dr. Marie V., President, Norfolk State University.....    60
    Prepared statement...........................................    62
Monette, Dr. Gerald ``Carty'', President, Turtle Mountain 
  Community College, Chairman, Committee on Technology 
  Development, American Indian 
  Higher Education Consortium....................................    31
    Prepared statement...........................................    35
Sandoval, George, Network Administrator, Dine College............    67
    Prepared statement...........................................    69
Sullivan, Honorable Louis W., M.D., President, Morehouse School 
  of 
  Medicine; Immediate Past Chairman, Atlanta University Center 
  Council of Presidents..........................................    49
    Prepared statement...........................................    51

                                Appendix

The NSF Advanced Networking With Minority-Serving Institutions 
  Project, prepared statement....................................    73

 
        S. 414, DIGITAL DIVIDE AND MINORITY SERVING INSTITUTIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2002

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m. in room 

SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.
    Senator Wyden. The Subcommittee on Science, Technology, and 
Space will come to order. I will have an opening statement in 
just a moment. But first, I want to recognize our friend from 
North 
Dakota for any comments that he would like to make.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I am 
pleased to be here today. I just had a chance to see my former 
colleague Bill Gray. When I served in the House of 
Representatives he was a member of the leadership in the House. 
It's nice to see former Congressman Gray with us today.
    I am not able to stay because I have another hearing, but I 
wanted to tell you that Dr. Monette is with us today. I call 
him Carty. He has been a friend of mine for many years. He is 
the President of Turtle Mountain Community College. He is here 
with David Gipp, who is President of United Tribes Technical 
College, a wonderful institution in Bismarck, North Dakota 
serving tribes. They are going to be talking about Native 
Americans and Technology, a program that I am very interested 
in helping develop.
    I think Senator Cleland's bill, the NTIA Digital Network 
Technology Program Act is a good step in providing tribal 
colleges and other minority-serving colleges with some 
resources, and I am really pleased by the work that Senator 
Cleland has done.
    But I did especially--just because Carty is with us today--
want to stop by and say that I have valued my friendship with 
him for many years. He is President of a wonderful institution 
on the Turtle Mountain Indian Reservation, and I know that you 
will pay great attention to his testimony and will continue to 
work with him on these important issues.
    So, Mr. Chairman, thank you for recognizing me before I 
have to leave.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, my colleague. And let me begin 
this hearing of the Subcommittee on Science, Technology, and 
Space by thanking our friend and colleague, Senator Cleland, 
for all of his leadership. He has really been the champion of 
this Subcommittee on these vital issues.
    I have got to be two places at once; I am going to try and 
stay for a little bit, but we are happy to have Senator Cleland 
here to chair this important hearing. This hearing is being 
held because of Senator Cleland's effort and at his request. We 
want to thank him for all of his efforts and his signing that 
bill, which we strongly support.
    The debate about the digital divide is ultimately a 
question of whether or not this country is going to tolerate an 
information aristocracy. Certainly, as a result of today's 
technologies, it is possible for the affluent to have 
technologies that no one could have dreamed about even 8, 10, 
12 years ago. The question is are all Americans going to have 
access to those technologies, or, in fact, are we going to 
leave millions of Americans, people in rural areas, minorities, 
people in the inner city, behind, and deny them the opportunity 
to enjoy the fruits of the technological revolution?
    It is critically important that all Americans have access 
to these technologies and that we work on it, in the tradition 
that I especially have felt strongly about as chair of this 
Subcommittee, and that is to work in a bipartisan way. There is 
absolutely nothing about these issues, in my view, that ought 
to be partisan.
    He is not here at this time, but Senator Allen, the Ranking 
Republican on this Subcommittee, has met me more than halfway 
in terms of working on these issues. I am very appreciative of 
it. His State of Virginia, and mine of Oregon both have made 
substantial investments in technology and see these issues as 
critically important. We have tried to have something of a 
bipartisan bulwark in terms of working on these issues.
    That is why I bring up this morning's article in The Wall 
Street Journal, because I hope it does not reflect some of the 
thinking of others on this issue. I am going to put into the 
record at this time the article in this morning's Wall Street 
Journal entitled: ``White House Spurns Tech Programs Left Over 
From Clinton Presidency.'' It talks about the opposition by, it 
seems, a number of influential people in the Administration to 
initiatives to try to close the digital divide. If that is the 
case, I think it is very unfortunate.
    [The information referred to follows:]


                                    THE WALL STREET JOURNAL

                                                  February 27, 2002
White House Spurns Tech Programs
Left Over from Clinton Presidency
By Yochi J. Dreazen
    WASHINGTON--Only those with ``an unreal understanding'' of U.S. 
capitalism would expect the poor, minorities and rural residents to 
immediately have the same access to the Internet as other Americans, 
the nation's top telecommunications regulator has said. Government 
efforts to bridge the divide, he added, veer toward ``socialization.''
    The skepticism expressed last year by Michael Powell, the Bush 
appointee who is chairman of the Federal Communications Commission, 
plainly seems to be shared by the rest of the administration. Breaking 
with Clinton administration policy, the Bush team has set about quietly 
dismantling many programs devoted to ending the so-called digital 
divide. The latest casualty: the Technology Opportunities Program--or 
TOP--one of Mr. Clinton's favorites.
    Bush officials, including chief economic adviser Lawrence Lindsey, 
also oppose Democratic proposals for tax incentives for companies that 
bring broadband Internet access to poor and rural areas. And the 
administration may take aim again at the FCC's popular ``e-rate'' 
program, widely credited with helping to wire thousands of inner-city 
schools and libraries.
    Democrats, in turn, are firing back. They blast the White House for 
trying to overhaul or drop the programs amid a recession that leaves 
the least-educated Americans most vulnerable. Critics note that half 
the new jobs for workers without college degrees require daily use of 
computers, often including use of the Internet, and the income gap 
between those who use computers on the job and those who don't 
continues to widen.
    ``You don't even hear the Bush people pay lip service to the 
digital divide,'' says Greg Simon, who was a longtime top adviser to 
Vice President Al Gore and a Clinton administration adviser on 
telecommunications issues. ``Why are they so quick to get rid of these 
little programs that help the poor? It's not like the digital divide 
has suddenly gone away.''
    Maybe not suddenly, but it is going away, Bush officials maintain. 
Looking at the same data as their critics, administration officials see 
a digital divide closing--if slowly--where their foes see a growing 
chasm. Meanwhile, they reject any suggestion the administration is 
ignoring the gap. Officials say they simply are trying to streamline 
government efforts, to be more efficient and up-to-date, while 
encouraging the private sector to take more responsibility for 
spreading digital skills.
    ``We haven't declared victory on the digital divide, but there's 
been tremendous growth across the board, and we are clearly moving in 
the right direction,'' says Nancy Victory, who runs the Commerce 
Department's National Telecommunications and Information Agency, the 
government's technology-policy arm. ``The changes we want to make don't 
show a lack of commitment--they show that we're trying to move ahead in 
different and more targeted ways.''
    Earlier this month, an NTIA report showed the growth in Internet 
usage among poor and minority Americans far exceeded that for wealthy, 
white or Asian Americans. Web use among blacks and Hispanics, for 
instance, grew by 33 percent and 30 percent, respectively, between 
August 2000 and September 2001, while the growth rate for whites and 
Asians was 20 percent. To the administration, this is evidence of a 
narrowing digital divide, undercutting the argument for more Federal 
help.
    Some Democrats drew a different conclusion. While growth rates for 
Web use are indeed higher for those on the wrong side of the divide, 
those groups started from so far down that the gap is wider than ever. 
For instance, the report found that in 1997, 10 percent of Americans 
earning less that $25,000 a year used the Web, compared with 45 percent 
of those earning more than $75,000--a gap of 35 percentage points. By 
2001, despite the progress in both groups, the gap was 50 percentage 
points.
    ``The same people who said during the 1990's that there was no 
digital divide are now saying there was one, but it's been cured,'' 
says Larry Irving, who ran the NTIA during the Clinton administration. 
``But how can we declare victory when 75 percent of our poorest people 
and 60 percent of our blacks and Hispanics have no Internet access of 
any kind?''
    For the administration, Ms. Victory says the growth rates offer a 
better picture of the status of the digital divide. ``They're the best 
indicator of future trends and where things are heading,'' she says.
    The two sides are just as far apart on policies, a difference that 
dates to the Bush-Gore Presidential contest. Shortly after taking 
office, Bush officials said they would fulfill a campaign promise 
effectively eliminating the FCC's popular e-rate program, which Mr. 
Gore had promoted and which reimbursed schools and libraries for as 
much as 90 percent of the cost of Internet access. Instead, the 
administration proposed block grants for the states from the Education 
Department, combining funds that otherwise would have gone for the e-
rate program with those for other education-technology programs.
    The proposal alarmed many educators, who feared that some state 
governments would use the money for other purposes. Opponents, 
including several Republicans such as Maine Sen. Olympia Snowe, also 
worried about putting the program under the control of a cabinet 
department, where it would be subject to normal budget politics, 
instead of the independent FCC. The administration dropped the proposal 
in 2001, but now White House officials privately have told some 
Republican lawmakers they may revive it this year.
    The administration's most controversial move is its proposal to 
eliminate the small TOP program of grants to state and local-government 
agencies and nonprofit groups. Last year, the Bush administration had 
proposed slashing its funding, once as much as $45 million, to $15 
million.
    The TOP program was designed to provide matching grant money for 
technology projects at schools, libraries, health agencies, police 
departments and nonprofits. The Maya Angelou Public Charter School, in 
the capital's poor inner city, used its money to buy laptops so 
students can learn e-mail and other computer skills, and in turn teach 
senior citizens in the area. Another project linked doctors at the 
University of Kansas Medical Center with nurses in nearby schools.
    ``TOP was at bottom a laboratory for good ideas about how to use 
computers and the Internet to benefit communities,'' Ms. Victory says. 
``But,'' she adds, ``now it's time to build on some of those lessons.''
    Ms. Victory cites other proposals in the Bush budget for fiscal 
2003--among them, technology grants of as much as $1 billion for the 
Education Department, $1 billion for law enforcement at the Justice 
Department, and $100 million for rural telecommunications through the 
Agriculture Department. She concedes that most programs that have 
received TOP funds could be bypassed by the new block grants, since 
local and State officials would be largely free to use the money as 
they like.
    For administration critics, the acknowledgment of TOP's success 
makes its proposed demise even more baffling. ``If it's not broken and 
the need is still there, `` says Greg Rohde, a former Clinton telecom 
official, ``why get rid of it?''

    Senator Wyden. I hope that we can bring back, starting in 
this Subcommittee, a bipartisan effort to deal with these 
questions. As certainly Senator Cleland knows, there is some 
new data on this issue, and I think it is possible to have a 
debate about the ramifications of this new data. Certainly, 
there are some favorable blips, so to speak, in terms of 
certain aspects of the data, but any way you cut it, there is 
still a long, long way to go in terms of this issue.
    I will tell you that I certainly do not see closing the gap 
between technology haves and have-nots as some kind of step 
toward socialization. To me, this is not a matter of political 
philosophy. This is a matter of equal opportunity, a principle 
on which this country was founded. The fact of the matter is 
that these critical programs--these critical programs that 
Senator Cleland has championed--are a matter of preparation for 
today's free enterprise system, for people to participate in 
the modern workplace. It is a matter of empowering people to 
participate in today's free enterprise system for communities 
that might otherwise be left behind in those private markets.
    So, this is a particularly important hearing. In my view, 
without the kind of initiatives that Senator Cleland and others 
are championing, we would see whole communities, rural 
communities, minority communities, inner cities, bypassed, in 
effect, turning those communities into what amounts to economic 
sacrifice zones. And, I think that is wholly unacceptable.
    Today, we are going to focus on a particular aspect of the 
digital divide, the technology gap facing colleges and 
universities serving largely minority populations. My view is 
these institutions play an extremely important role in the 
educational framework of this country, and they face unique 
challenges. I hope to stay for a bit of this morning's 
testimony before we turn it over to Senator Cleland, but he 
continues to be the spark behind the Subcommittee's effort to 
address these issues and brings a remarkable mix of 
determination and devotion to the public interest and just a 
whole lot of what I call ``Cleland common sense.''
    So, we are going to recognize him for his opening 
statement, then we will have the witnesses. I'm going to stay 
as long as I can and then turn it over to Senator Cleland.
    Senator Cleland, you can proceed with your opening 
statement any way you choose.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Well, thank you very much, Mr. Chairman. 
And may I just say Harry Truman once described leadership as 
``getting people to do what they ought to do anyway,'' which 
means that most of us need good leaders. And you are one of the 
best leaders in this great body, and thank you for leading this 
effort.
    Thank you for realizing that there is such a thing called a 
digital divide, or that we could leave a lot of people in 
America behind, especially a whole generation of youngsters, if 
they do not have the proper technology, proper equipment, if 
they are not wired to their future. And that is what this is 
all about today, Mr. Chairman. Thank you for your leadership 
and for your support. I know your time is short, but thank you 
for staying as long as you can.
    Dr. Benjamin Mays, the celebrated African American educator 
and valued presidential adviser, who hailed from Atlanta, 
Georgia, once said, ``Every man is born into the world to do 
something unique and something distinctive. And if he or she 
does not do it, it will never be done.''
    Increasingly, the ability to do anything in America is 
based on access to information and technology. For more 
Americans, more and more Americans, that access is increasingly 
limited. Mr. Chairman, I noticed that the Wall Street Journal 
article you referred to indicates that new data shows that 
although web usage, or access to the World Wide Web and usage 
has grown fastest among poor and minority citizens, the gaps 
actually have widened. So we have our challenge before us.
    And additionally, the latest census reveals that more than 
three-fourths of white and non-Hispanic households have access 
to a computer at home. By comparison, less than one-half of 
black households, some 44 percent, and just over a third of the 
Hispanic households, 38 percent, have computers in their homes. 
These figures offer compelling evidence that a significant 
technology gap, the so-called ``digital divide,'' still exists 
for many Americans, which left unchecked, can prevent them from 
accomplishing that unique and distinctive thing which Dr. Mays 
says each man is born into this world to do.
    Just this month, the Commerce Department released its 
latest report on America's access to the Internet and World 
Wide Web. That study, ``A Nation Online, How Americans Are 
Expanding Their Use of the Internet,'' found that K through 12 
schools play a major role in reducing the digital divide. To 
repeat, ``A Nation Online'' found that solely because of the 
availability of school computers, schools significantly help to 
equalize the disparity that would otherwise exist in computer 
and Internet use among children, ages 10 to 17, who are of 
different racial, ethnic and income backgrounds. The task 
before us today, the reason for today's hearing, is to insure 
that the opportunity to close the economic and racial divide in 
the access of Americans to computers and the Internet continues 
in our institutions of higher education.
    President Bush has continually and movingly stated that it 
is his Administration's mission to leave no child behind. For 
many of American's neediest children, those who because of 
income and race are caught on the wrong side of the digital 
divide, our minority-serving institutions are the last best 
chance they have of gaining the skills and tools they need to 
become competitive in today's high-tech, information-based 
workforce.
    It is all the more critical then that America's minority-
serving institutions, many with limited resources, be at the 
cutting edge of our information technology.
    Toward this end, I am joined by 12 of my Senate colleagues 
in sponsoring S. 414, the NTIA Digital Network Technology 
Program Act. This legislation would create a new grant program 
within the Department of Commerce--under the Department of 
Commerce, not Education, but under the Department of Commerce, 
which is the center of technological expertise and innovation 
in the Federal Government.
    Our bill would provide up to $250 million to help 
historically black colleges and universities, Hispanic-serving 
institutions, and tribal colleges and universities bridge the 
digital divide. Funds provided under this legislation could be 
used for such activities as campus wiring, equipment upgrade, 
technology training, and hardware and software acquisition. A 
minority-serving institution, for example, could use funds 
provided under S. 414 to offer its students universal access to 
campus networks, or recipients might choose to use the grant 
money to dramatically increase their connectivity speed rates.
    This hearing has been called today to publicly pose some 
crucial questions. What are the technology needs of our HBCUs, 
tribal colleges, and Hispanic-serving institutions? What are 
the specific barriers to MSIs in accessing state-of-the-art 
technology? How will technology advances at MSIs benefit our 
communities? What can Congress and the Nation do to help these 
institutions become fully competitive with other institutions 
of higher learning in the information age?
    These are some of the questions that will be asked at 
today's hearing and I am looking forward to hearing our 
panelists' answers and recommendations. In the ever-expanding 
and always exciting world of the information highway, it should 
be our mandate to work to insure that no one in this country is 
left behind, least of all our leaders of tomorrow.
    Now, Mr. Chairman, I would like to, if there's no 
objection, call the first panelist. Although I see Senator 
Allen is coming up.
    Senator Wyden. With your indulgence just for a moment, Mr. 
Cleland, Senator Allen has joined us. And as he makes his 
opening statement, I also want to let him know, because he was 
not here in the hearing room while I made mine, that while I 
have some concerns about this Wall Street Journal editorial, I 
want to make it clear, as we have on a number of occasions, 
that we are going to be working in this Subcommittee on a 
bipartisan basis to address these issues. That is what we did 
with the Internet tax moratorium renewal; that is what we are 
doing in terms of bio-terrorism and mobilizing the scientific 
community to deal with the terrorist threat. That is what we 
are going to do on the digital divide issue as well, a lot of 
approaches that I think can bring people together, bring 
together many who have been disenfranchised in terms of 
communications and get support across the political spectrum.
    I want my colleague to know that we are going to be working 
together, and I hope we can provide an alternative to some of 
those who try to hold people apart on this issue. I am going to 
recognize you for your statement.
    [The prepared statement of Senator Cleland follows:]

   Prepared Statement of Hon. Max Cleland, U.S. Senator from Georgia

    Mr. Chairman, I want to thank you for holding this important 
hearing. Dr. 
Benjamin Mays, the celebrated African-American educator and valued 
presidential advisor, who just happened to hail from Atlanta, Georgia 
once said, ``Every man is born into the world to do something unique 
and something distinctive, and if he or she does not do it, it will 
never be done.'' Increasingly the ability to do anything in America is 
based on access to information and technology. For many Americans, that 
access is limited. The latest Census revealed that more than three-
fourths of white and non-Hispanic households have access to a computer 
at home. By comparison, less than half of black households, 44 percent, 
and just over a third of Hispanic households, 38 percent, have 
computers in their home. These figures offer compelling evidence that a 
significant technology gap, the so-called digital divide, still exists 
for many Americans which, left unchecked, can prevent them from 
accomplishing that unique and distinctive thing which Dr. Mays says 
each man is born into this world to do.
    Now just this month the Commerce Department released its latest 
report on Americans' access to the Internet and World Wide Web. That 
study, A Nation Online: How Americans Are Expanding Their Use of the 
Internet, reported an amazing finding that should give us all reason to 
hope. That report found that K-12 schools play a major role in reducing 
the digital divide. To repeat: A Nation Online found that solely 
because of the availability of school computers, schools significantly 
help to equalize the disparity that would otherwise exist in computer 
and Internet use among children, ages 10 to 17, who are of different 
racial, ethnic, and income backgrounds. The task before us--and the 
reason for today's hearing--is to ensure that the opportunity to close 
the economic and racial divide in the access of Americans to computers 
and the Internet continues in our institutions of higher education.
    President Bush has continually and movingly stated that it is his 
Administration's mission to leave no child behind. For many of 
America's neediest children--those who because of income and race are 
caught on the wrong side of the digital divide--our Minority-Serving 
Institutions are the last, best chance they have of gaining the skills 
and tools they need to become competitive in today's high-tech, 
information-based workforce. It is all the more critical, then, that 
America's Minority-Serving Institutions, many with limited resources, 
be at the cutting edge of our information technology.
    Toward this end, I am joined by 12 of my Senate colleagues in 
sponsoring S. 414, the NTIA Digital Network Technology Program Act. 
This legislation would create a new grant program within the Department 
of Commerce, the center of technological expertise and innovation in 
the Federal Government. Our bill would provide up to $250 million to 
help Historically Black Colleges and Universities, Hispanic-Serving 
Institutions, and Tribal Colleges and Universities bridge the digital 
divide. Funds provided under this legislation could be used for such 
activities as campus wiring, equipment upgrade, technology training, 
and hardware and software acquisition. A Minority-Serving Institution, 
for example, could use funds provided under S. 414 to offer its 
students universal access to campus networks, or recipients might 
choose to use their grant money to dramatically increase their 
connectivity speed rates.
    This hearing has been called today to publicly pose some crucial 
questions. What are the technology needs of our HBCUs, Tribal Colleges, 
and Hispanic-Serving Institutions? What are the specific barriers to 
MSIs in accessing state-of-the art technology? How will technology 
advances at MSIs benefit our communities? What can Congress and the 
Nation do to help these institutions become fully competitive with 
other institutions of higher learning in the Information Age? These are 
some of the questions which will be asked in today's hearing, and I am 
looking forward to hearing our panelists' answers and recommendations. 
In the ever-expanding and always exciting world of the Information 
Highway, it should be our mandate to work to ensure that no one in this 
country is left behind--least of all our leaders of tomorrow.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I thank you for 
your introductory remarks and I agree with you completely.
    The issue of access to opportunity is not an issue that 
should be a partisan issue. Every single human being in this 
country, regardless of their race, ethnic origin, their 
religious belief or gender, ought to have an equal opportunity 
to succeed in life. There are many things that do matter in 
whether somebody is going to succeed or not. Obviously, having 
good policies at the Federal and State and local level as far 
as taxes and regulations and permitting and infrastructure 
matter, but clearly the future will be determined more by--
much, if not more--certainly more in the future than in the 
past, knowledge and education and access to the tools of 
opportunity.
    The Internet clearly is an individually empowering tool, 
and we should not have people, to the extent that we can help 
it, who want to be productive and want to have access to 
information and education, be harmed or hurt in their ability 
to achieve it because of what we call the ``Digital Divide.''
    I would like to thank you, Mr. Chairman, for having this 
hearing. The sentiments expressed by you and by Senator Cleland 
are, I think, sentiments of every--I would hope, everyone in 
the Senate regardless of party. We may have differences once in 
the while on what is the best way to get to the goal, but our 
goals need to be parallel.
    I especially want to recognize and say I appreciate having 
Dr. Marie McDemmond, President of Norfolk State University, 
here with us today and look forward to hearing her. And 
hopefully others can learn and we can learn how you are working 
at Norfolk State University in addressing this important 
concern, and maybe others can as well learn from you.
    The issue of the digital divide is a question of access to 
the telecommunications technologies, and the difference between 
those who have access to it and those who do not. I share the 
concerns about the disparity between, to the extent we look at 
people based on ethnicity or race. President Clinton's 
Information Technology Advisory Committee in 2000 pointed out 
that African Americans, Hispanics and Native Americans, or 
Indians, do not comprise a significant portion of the 
information based network.
    Now just recently a report was issued last month by the 
Secretary of Commerce. And it is logical that Commerce would be 
on it. I think Secretary Evans is actually someone who 
recognizes the importance of technology for our economy. I was 
with him as he revealed that report earlier this month. And it 
is called ``The Nation Online, How Americans Are Expanding 
Their Use of the Internet.''
    But according to this report, more than half the households 
in this country, about 54 million homes--or 50 percent of all 
the households, had Internet connections. This is a significant 
increase. And it shows some progress being made here. It is a 
significant increase over the 18.6 percent of households that 
had Internet access in 1998. So in other words, it has gone 
from about 19 percent to 50 percent in the last 4 years.
    The report also found that 143 million Americans, which is 
about 54 percent of the population, use the Internet. The 
report said that in, quote, ``every income bracket, at every 
level of education, in every age group, for people of every 
race and among people of Hispanic origin, among both men and 
women, many more people use computers and the Internet now than 
in the recent past.''
    The report also had findings on minority computer use, 
which also showed signs of improvement. Between August of 2000 
and September of 2001, in other words, 1 year, 13 months, 
Internet use among African Americans and Hispanics increased at 
an annual growth of 33 percent and 30 percent respectively. 
White and Asian American and Pacific Islanders experienced 
annual rate increases of 20 percent.
    Now, yes, so that is one thing. Let us tell the whole story 
though, and still you have to put it in a context. And I think 
that Secretary Evans recognized it, that whites and Asian 
Americans continued to have higher rates of computer and 
Internet use than African Americans and Hispanics, that in 
September of 2001, 71 percent of Asian American and Pacific 
Islanders and 70 percent of whites were computer users, while 
about 56 percent of African Americans and about 49 percent of 
Hispanics were computer users.
    The point, though, on all of this, and I would like to look 
at people not by their race or their religion; I would like to 
do it as Martin Luther King calls for in his ``I Have a Dream'' 
speech, that people be looked upon not by their race but by the 
``content of their character.'' The big distinguishing feature 
is not so much race. It is a question of income. And the report 
shows that the family income remains the key indicator of 
whether a person uses the Internet. Households with less than 
$15,000 in annual income have a 25 percent rate of Internet 
use, while families with incomes over $75,000 a year have 
almost 80 percent Internet use rates, and almost 90 percent of 
households with an income of $75,000 use computers while less 
than 40 percent of households with less than $15,000 in annual 
income use computers.
    Some of this is just intuitive and logical. When you think 
of what its costs to buy a computer, what it is going to cost 
to get Internet access on top of whatever other bills one has, 
the lower the income, the less discretionary income one has to 
buy computers, peripherals, Internet access, screens, modems 
and so forth. So, that is one reason I think it is important 
for us to look at this as a digital divide which, while people 
do not like to see ethnic or racial disparities, we recognize 
what we need to do is make sure that--those especially in our 
schools and in education and in communities have access to the 
Internet and computers, because the reality is that it is such 
an empowering tool for the future. You look at the reality that 
a youngster, regardless of what their income is in their homes, 
if they have a computer at home, they are going to do better in 
school. I am focusing here on K through 12th grade before they 
even get to colleges and universities. If they have a computer 
at home they are going to do better. They are going to have 
access to information. To the extent the children can do 
reports on a computer as a word processor or researching a 
subject in doing their homework, it would be nice to do their 
homework on a computer at home rather than a school library. 
While it is important to have computers in our schools, and 
there are some great programs that AOL is doing with Powerup 
and Intel is doing with their computer clubhouses, all of those 
are very good, but the goal should really--in my view--be to 
make sure our youngsters have greater access to computers at 
home.
    One of the issues I ran on and I am still working on and am 
glad to see the President put in part of his tax measure, is to 
give a income tax credit, refundable tax credit in this bill. I 
introduced a bill on this last year in March. Senator Boxer is 
a co-sponsor of it. It is a bipartisan effort, and that is to 
provide parents of children in grades kindergarden through 
twelfth a $1,000 per-child tax credit for the purchase of 
computers, educational software, peripherals, tutoring or 
Internet access. Now the President's idea goes a little further 
and limits it to kids who are in failing schools; I would like 
to see it for all kids. But I think that would very much help 
ease the digital divide, and would like to hear any comments on 
that.
    We also have a concern on the digital divide and the 
effects of it on historically black colleges. I am not sure how 
much somebody has gone through some of these statistics, but 
access to basic Internet services at historically black 
colleges and universities along the T-1 lines are about 88 
percent, but they do not have access at the same rate and it is 
about half that rate to the ATM (Asynchronous Transfer Mode) 
technologies for the faster, better streaming, that other 
universities have. So there is a digital divide just at our 
universities and colleges. As Governor, I tried to address a 
lot of this with ``Network Virginia'' and tried to make sure 
all of our colleges and universities and community colleges and 
State agencies were connected on the broadband. And there are 
some good consortiums going in Virginia with the community 
colleges and other universities to provide distance learning or 
online learning.
    But again, there is much more to be done. CISCO, obviously 
we will hear about CISCO and what CISCO is doing at Norfolk 
State; that is an example that we ought to encourage. And the 
reality, folks, though, is that if youngsters are not getting a 
good quality education, they are less likely to avail 
themselves of the best-paying jobs, the good-paying jobs in the 
future, which are in the technology sector. They need a good 
solid, basic education in primary and secondary schools as a 
foundation for higher education, higher learning and colleges.
    And the reality is, what we are going to hear today, and I 
very much look forward to hearing from our witnesses, is how we 
are able to adapt to this current situation and what 
recommendations you all have for how we can resolve this 
challenge. Because the reality is, this is a challenge we have 
to face. And if we do it properly, what we are in effect 
providing is more students in our United States--all students, 
more students--with a greater opportunity, not just for a job, 
but greater opportunities in life. And I look forward to 
working with you all to achieve that very worthwhile and 
necessary goal.
    Senator Wyden. I thank my colleague. Let us get right to 
our witnesses, because I think your comments at the end really 
summed it up. Much more needs to be done, and we are going to 
work together to get about the task. We will have a panel now 
of Dr. Antonio Flores; the Hon. William Gray; Dr. Frederick 
Humphries; and Dr. Gerald ``Carty'' Monette. And if all of you 
will come forward.
    As you are coming forward, gentlemen, I am on the 
Intelligence Committee, and I am going to be ducking out in 
just a couple of moments and turning it over to the very able 
leadership of Senator Cleland. As you all get seated, and get 
comfortable, I do want to begin with our friend Bill Gray. Bill 
Gray and I were neighbors for a number of years there in the 
Rayburn Building, and we are so pleased that you continue to 
serve this country with such distinction and such ability. It 
is great to see my old office mate here.
    Mr. Gray, with your indulgence, we will let you begin. I 
understand you have a tight time schedule. Do you have to leave 
after you have made your presentation?
    Mr. Gray. No, I will stay.
    Senator Wyden. All right. Let us begin with you. And, 
apologies to other witnesses, because I am going to have to 
duck out here in a moment. We will make your prepared remarks a 
part of the record, and we will still call you Chairman Gray.

   STATEMENT OF HON. WILLIAM H. GRAY III, PRESIDENT AND CEO, 
                   UNITED NEGRO COLLEGE FUND

    Mr. Gray. Thank you, Mr. Chairman, and to the Members of 
this distinguished Subcommittee. I am Bill Gray, President of 
the United Negro College Fund. And I am pleased to join my 
colleagues to present UNCF's views and recommendations on S. 
414. I want to thank Chairman Hollings for his strong support, 
Chairman Wyden for calling this hearing, Senator George Allen, 
who represents the State where UNCF's national headquarters is 
located, and finally, I want to applaud the leadership that 
Senators Cleland and Stevens have given to this important 
issue, especially Senator Cleland for his willingness to listen 
to the concerns of UNCF's members and to this vital need.
    I have submitted my testimony for the record. I will try to 
just give a quick summary.
    While we have not yet conquered the chasm that separates 
the college aspirations and opportunities for all Americans, 
minority youth from their majority counterparts, we are faced 
with a simultaneous and equally daunting challenge. The digital 
divide threatens to deny minority students, our professors, our 
institutions, the competitiveness they need to overcome the 
remaining vestiges imposed by race and economic segregation in 
America.
    America's colleges and universities represent the last 
bulwark of the Nation's defense against technological 
illiteracy. We can ill afford to produce graduates who enter 
the workforce without mastering the basic computer skills and 
understanding how technology applies to their professions.
    S. 414 is important at the outset because UNCF and other 
HBCUs enroll large numbers of poor students. Fifty percent of 
all of our students come from families with less than $35,000 
gross adjusted income, and over 90 percent of our students 
receive some form of Federal assistance. It is clear that these 
demographic factors make it virtually certain that many UNCF 
students will have their first exposure to computers and 
technology and the Internet when they arrive on the college 
campus.
    Second, for many institutions that enroll large numbers of 
minorities, their inability to finance the acquisition of 
needed technology infrastructure creates another digital 
divide. Private black colleges have very small endowments and 
cannot fall back on sizable numbers of wealthy alumni, compared 
with well-financed institutions with greater access to funding 
necessary to purchase technology.
    HBCUs, then, face a dual digital challenge. They enroll 
large numbers of students who are admitted to college with 
limited exposure to technology, and second, the institutions 
that admit them have fewer resources in overcoming these 
digital deficits.
    Even with the UNCF Technology Enhancement Capital Campaign, 
which we use to close the digital divide on our campuses, and 
despite the progress that we have made in the last 2 or 3 
years, there is still much to be done. And based on the UNCF 
experience, what our institutions need more than anything else 
is funding, to purchase the instrumentation and to prepare 
students and institutional personnel for their use.
    S. 414 will help provide these resources. S. 414 encourages 
partnerships with the private sector while avoiding creating a 
barrier to institutional progress. Therefore we want to applaud 
its concept, S. 414.
    Finally, Mr. Chairman and Members of the Subcommittee, I 
would like to close by simply saying that given the dynamics of 
technology on finance and global markets in the 21st century, 
given the demographic changes taking place in this country in 
this century, this issue is not about social engineering. It is 
not even about equality. It is about something greater. It is 
about America's future: whether we will prosper, whether we 
will be secure, and whether we will retain our world 
leadership. That is what this issue is ultimately about.
    I applaud the Subcommittee for the hearing. I applaud the 
sponsors of this legislation. I join with my colleagues in 
urging its passage, and also strong support.
    [The prepared statement of Hon. Gray follows:]

  Prepared Statement of Hon. WIlliam H. Gray III, President and CEO, 
                       United Negro College Fund

    Mr. Chairman, and Members of the Subcommittee, I am William H. 
Gray, President and Chief Executive Officer of the United Negro College 
Fund (UNCF). UNCF is America's oldest and most successful African 
American higher education assistance organization.
    I am pleased to join my colleagues--representing the other minority 
higher education associations--to present UNCF's views and 
recommendations for S. 414, ``the NTIA Digital Network Program Act.'' I 
want to thank Chairman Hollings for allowing this hearing to take 
place, and for his strong support of S. 414. Chairman Hollings is very 
familiar with the needs and challenges faced by South Carolina's eight 
HBCUs, four of which are UNCF member institutions.
    Let me also commend Chairman Wyden for calling this hearing so that 
we could have the chance to address one of the most critical issues 
affecting the education of minority students in America. I want to also 
thank our home Senator, Senator George Allen, who as Governor helped 
move Virginia into the high tech era, and who represents the State 
where UNCF's national headquarters is located.
    Finally, I want to applaud the leadership that Senators Cleland and 
Stevens have given to this important issue. We at UNCF believe that 
providing public and private sector support for the acquisition of 
technology infrastructure, faculty development, training and the 
integration of technology into the curriculum are among the most 
important challenges facing private HBCUs. We are especially indebted 
to Senator Cleland for his willingness to listen to the concerns of 
UNCF's member institutions, including those in the Atlanta University 
Center (AUC).
    While we have not yet conquered the chasm that separates the 
college aspirations and opportunities for all of America's minority 
youth from their majority counterparts--we are faced with a 
simultaneous and equally daunting challenge. The `digital divide' 
threatens to deny minority students, our professors, and our 
institutions the competitive skills they need to overcome the remaining 
vestiges imposed by race and economic segregation in America.
    The Department of Commerce's July 1999 report ``Falling Through the 
Net--A Report on the Telecommunications and Information Technology Gap 
in America'' first highlighted the economic and racial divide in the 
access of Americans to telephones, computers and the Internet. As then 
Secretary of Commerce Daley pointed out ``(E)nsuring access to the 
fundamental tools of the digital economy is one of the most significant 
investments our Nation can make.'' As important as these tools are at 
home and in our elementary and secondary schools, America's colleges 
and universities represent the last bulwark of the nation's defense 
against technological illiteracy. We can ill-afford to produce college 
graduates who enter the workforce without mastering basic computer 
skills and understanding how information technology applies to their 
work or profession.

    Let me describe the two areas that I hope the Members of this 
Committee, and the U.S. Senate as a whole, will consider as they 
deliberate this legislation.

                    THE NEED FOR ENACTMENT OF S. 414

    First, UNCF member institutions and other HBCUs enroll large 
numbers of poor students, whose parents are unable to help pay college 
costs. In fact, 50 percent of all UNCF students come from families with 
incomes less than $35,000. Almost ninety percent of all UNCF students 
receive some form of Federal financial assistance, and sixty percent of 
UNCF students are first-generation college students. It is clear, then, 
that the confluence of these demographic factors make virtually certain 
that many UNCF students will have their first exposure to computers and 
to the Internet when they arrive on the college campus.
    Second, for many institutions that enroll large numbers of 
minorities, making up the digital deficits at home and at school 
constitutes a real financial challenge. The inability of institutions 
to finance the acquisition of needed technology infrastructure creates 
another digital divide. Compared to other colleges, private black 
colleges have very small endowments and cannot fall back on sizable 
numbers of wealthy alumni. The average endowment of UNCF schools for 
the 1998-1999 academic year was $22.229 million. Larger, well-financed 
institutions have greater access to the funding necessary to purchase 
technology, than do smaller, private colleges with fewer resources.
    HBCUs, then, face a dual digital challenge--they enroll a large 
number of students who are admitted to college with the least pre-
enrollment exposure and knowledge of technology and the Internet, and 
the institutions that admit them face certain financial challenges in 
overcoming these digital deficits.
    UNCF schools illustrate the challenges we face as a nation. In 
August 2000, UNCF's testimony to the Web-based Commission, which I 
submit for the record, called attention to the plight of our students 
and member colleges:
    <bullet> Only 15 percent of the 55,000 students attending UNCF 
member colleges and universities own computers;
    <bullet> College students nationally were more than twice as likely 
to have access to a college-owned computer than their private, HBCU 
counterparts--one computer for every 2.6 students in higher education 
institutions nationally compared to one for every 6 students at UNCF 
colleges and universities;
    <bullet> Seventy-one percent of faculty nationwide owned computers 
as compared to less than one-half of UNCF faculty;
    <bullet> The number of network servers at UNCF colleges per 1,000 
students is approximately one-half that of all colleges and 
universities nationally;
    <bullet> Seventy-five percent of these servers, hubs, routers, and 
printers were obsolete or nearly obsolete and in need of replacement; 
and
    <bullet> The rural and relatively isolated areas, in which many of 
these institutions are located, place an additional Internet access 
burden on those institutions.
    Let me describe what UNCF has done to help meet this challenge.

                UNCF IS ADDRESSING THE DIGITAL CHALLENGE

    In January 2000, UNCF announced a partnership with Microsoft, IBM, 
AT&T and other major corporations and launched an $80 million 
Technology Enhancement Capital Campaign (TECC). The campaign was 
designed to strengthen the technological capacity of each of the 39 
member colleges and universities in three significant ways.
    First, TECC strengthened the technology capacity through 
modernizing each institution's technology platform and gave every 
student and faculty member access to computers. As a result of this 
campaign, all UNCF colleges and universities meet certain minimum 
technology standards, including increased network capacity and uniform 
systems that enable electronic learning among institutions. Technical 
support was given so that all wiring, equipment installation, and data 
migration and configuration of hardware--including system testing--has 
been properly accomplished. This created equity in opportunity by 
making the same technology available to students attending UNCF member 
colleges and universities as is now available to students at majority 
institutions.
    Second, on-campus training is being provided to a core group of 
campus officials who will then train others in the operation of all 
equipment. TECC also includes a faculty development component to assist 
faculty in integrating information technology into the curriculum and 
to assist faculty members in strengthening their research and 
instructional techniques using technology.
    Third, TECC is helping make technology more affordable for 
individual students and faculty. HBCU students, faculty, and staff can 
purchase computer hardware and software from major technology 
providers, such as Dell, IBM, Hewlett Packard and Microsoft, at 
discounted prices--as low as three hundred dollars--along with low-cost 
financing through UNCF's e-commerce web site, which was developed 
through a generous contribution of technical services from Electronic 
Data Services (EDS).
    I am pleased to inform the Members of this Subcommittee that UNCF's 
TECC campaign is closing the digital divide on UNCF campuses. We have 
already exceeded our $80 million TECC campaign goal! Here are a few 
examples of the campus-based results of the TECC campaign:
    <bullet> In Florida, where we have three member colleges--Bethune-
Cookman College, Edward Waters College, and Florida Memorial College--
UNCF provided $4,971,583 in technology funds. One example of the use of 
the funds is that Bethune-Cookman established a quality infrastructure 
for storage and distribution of applications and data.
    <bullet> In North Carolina, there are six member colleges and 
universities--Johnson C. Smith University, Shaw University, St. 
Augustine's College, Barber Scotia College, Bennett College and 
Livingstone College. Here we have invested $10,858,475 in technology. 
With its portion of the funds, Johnson C. Smith University developed a 
print solution and a robust e-mail system
    <bullet> In Georgia, we have six UNCF colleges and universities--
Clark Atlanta University, Interdenominational Theological Center, 
Morehouse College, Morris Brown College, Spelman College and Paine 
College. The total invested is $15,155,069. At Clark Atlanta 
University, computer lab capability and access were enhanced, with 
improved security.
    <bullet> In Virginia, there are two member institutions--St. Paul's 
College and Virginia Union University, where UNCF funded $1,983,539 in 
technology. As an example, Virginia Union University established a 
totally wireless campus and created mathematics computer labs for 
classroom teaching and accounting computer labs for teaching and 
student exercises.
    <bullet> In Mississippi, there are two UNCF institutions--Tougaloo 
College and Rust College--that received a technology investment 
totaling $2,782,911. Tougaloo College wired the campus buildings and 
upgraded desktops from outdated models for faculty, staff and computer 
labs.
    <bullet> In Texas, we have four member colleges--Paul Quinn 
College, Huston-Tillotson College, Jarvis Christian College and Wiley 
College. These institutions received from UNCF $3,967,664. With their 
share of the technology funds, Paul Quinn College provided laptops to 
all full-time faculty and network drops for faculty to use in the 
classrooms.

    In addition, all 39 UNCF campuses have benefited from upgraded 
network infrastructures and increased access to technology for 
students, faculty and staff:

    <bullet> UNCF institutions have received hardware, including 2,000 
desktop computers, almost 1,500 network printers and more than 1,200 
network servers, as well as hundreds of hubs, switches and network 
routers, courtesy of Hewlett Packard, CISCO, Lexmark, and Dell;
    <bullet> The wiring of member institution campuses is completed--
including over 3,800 network drops in learning centers and 
administrative and academic facilities and equipment installation and 
configuration; and
    <bullet> Each UNCF member institution received 96,000 current 
versions of Microsoft software, including Windows 2000, Encarta 
Reference Suite 2000, Microsoft Office Suite 2000, and Encarta Africana 
2000 courtesy of an `in-kind' gift from Microsoft.

    For the record, Mr. Chairman, I am submitting the list of these 
contributors.

    Our goal is to ensure that every student has a computer and knows 
how to use it and that every faculty member has a computer and has 
integrated technology into their curriculum. The results will be better 
prepared students ready for the technology age.
    Notwithstanding this progress to date, there is a great deal more 
to be done to eliminate the digital divide.

             THE FEDERAL ROLE IN CLOSING THE DIGITAL DIVIDE

    Technology is no longer the wave of the future--it is the way of 
the present. Every student who lacks access to current technology risks 
falling further behind. We believe S. 414, and its companion House 
bill, H.R. 1034, provide a crucial and necessary vehicle for directing 
Federal resources to the solution of an urgent problem.
    S. 414 provides direct grants to eligible institutions, or 
consortia of eligible institutions: (1) to acquire hardware and 
software; (2) to build technology infrastructure, i.e. wiring, 
platforms and networks; and (3) to train institutional personnel to use 
both the software and hardware and to plan for the future use of 
technology. Based on UNCF's TECC campaign experience--what our 
institutions need more than anything is the funding to purchase the 
instrumentation and to prepare students and institutional personnel for 
its usage. S. 414 will help provide those resources.
    S. 414 encourages partnerships with the private sector, while 
avoiding the creation of a barrier to institutional progress. UNCF has 
experienced great success in securing private sector participation in 
our TECC campaign. Major corporate donors have stepped up to the 
plate--contributing both cash and in-kind gifts. However, experience 
tells us the response has not been and will not be uniform. Therefore, 
we applaud S. 414's recognition of the need to waive the ``matching'' 
requirement for certain institutions. UNCF also commends the bill 
provisions that qualify private sector contributions made through 
organizations like UNCF to individual institutions as ``matching'' 
funds.
    Finally, we urge the Committee to ensure, to the maximum extent 
possible, the equitable distribution of appropriated funds to the range 
of eligible institutions that will participate in the program. UNCF is 
available to assist you, Mr. Chairman, and Members of the Committee as 
you proceed with consideration of the bill.
    Again, I want to thank the Subcommittee for inviting me to testify 
today, and to present the views of UNCF on this important legislation. 
I would be pleased to answer any questions you may have.

                                 ______
                                 
Testimony To The Web Based Education Commission Submitted on Behalf of 
                    United Negro College Fund (UNCF)

Contact:
    Leslie L. Atkinson Director, Government Affairs
Focus of Testimony:
    Access and equity, faculty training, teacher preparation, pedagogy.
Summary of Testimony:
    The digital divide between black and white colleges is even greater 
than the divide nationally. This may be the most significant problem 
historically black colleges and universities (HBCUs) will have to 
address this century. Campuses are confronted with the daunting task of 
giving students the skill sets to be competitive and succeed in today's 
high tech, information-based workforce--a task all the more formidable 
given the limited resources available to HBCUs. If the Web-based 
Education Commission truly aspires to ensure that all learners can take 
full advantage of the educational promise of the World Wide Web, if it 
truly wants to address the promise of the Internet for learning, it 
needs to begin with the most needy, with those who have the least 
access to computers and the Internet.

Statement
    Historically Black Colleges and Universities (HBCUs), and United 
Negro College Fund (UNCF) institutions in particular, are a stark 
reflection of the national disparities in access to technology. 
According to the findings of a 1999 Department of Commerce report, 
Falling Through the Net: Defining the Digital Divide, African American 
households are two-fifths as likely to have home Internet access as 
white households and the gap is widening. With regard to ownership of 
home computers, the gap between black and white households grew 39 
percent between 1994 and 1998. The report indicates that the technology 
gap widens with lower incomes and educational attainment. African 
American household incomes are 59 percent of the average for white 
families and African Americans are half as likely as whites to have 
completed college. Not surprisingly, African Americans are at the short 
end of the digital divide.
    Incredibly, the digital divide between black and white colleges is 
even greater than the divide nationally. Nationally, personal computer 
ownership is 42 percent of American households, a gap of 19 percent 
over the 23 percent ownership rate for African Americans. For college 
students nationally, 55 percent of students own their own computer--a 
gap of 40 percent over the 15 percent rate of UNCF students owning 
their own computer.
    This challenge is but one of many that UNCF, America's oldest and 
most successful black higher education assistance organization, has 
confronted since its founding in 1944. It may, however, be the most 
significant problem UNCF member institutions will have to address this 
century.
    Since its inception, the fundamental mission of UNCF has been to 
enhance the quality of education by providing financial assistance to 
deserving students, supplying technical assistance to UNCF 
institutions, and raising critical operating funds for member 
institutions and their students, faculty, and staff. This mission has 
broadened to include over 450 successful scholarship programs, 
internships, research and study abroad opportunities for all 
historically black colleges and universities (HBCUs), Hispanic-serving 
institutions (HSIs), Tribally controlled Colleges, and majority 
institutions. Despite its tremendous success, the organization remains 
steadfast in its commitment to enroll, nurture, and graduate students 
who often do not have the social and educational advantages of other 
college bound populations.
    Now faced with the challenge of preparing students for the globally 
competitive economy of the 21st century, UNCF campuses are confronted 
with the daunting task of giving students the skill sets to be 
competitive and succeed in today's high tech, information-based 
workforce and reducing the digital divide between HBCUs and majority 
institutions--a task all the more formidable given the limited 
resources available to these schools. Moreover, if the Nation assumes a 
position where one measures educational quality and success by 
technology skills, as well as the type of technology possessed, those 
already handicapped will be even further disadvantaged. If the Web-
based Education Commission truly aspires to ensure that all learners 
can take full advantage of the educational promise of the World Wide 
Web, if it truly wants to address the promise of the Internet for 
learning, it needs to begin with the most needy, with those who have 
the least access to computers and the Internet.
    This addresses the core issue for UNCF and the nearly 60,000 
students on UNCF campuses. While its student body consists of varied 
economic backgrounds, approximately 34 percent of all UNCF students 
come from families with incomes below $25,000 (compared with 17 percent 
of students attending 4 years colleges nationwide). Approximately 90 
percent of UNCF students require some form of financial assistance. 
Forty percent are the first in their families to attend college. The 
demographic figures alone suggest that college will be the first 
opportunity for many of UNCF students to be exposed to computers and 
the World Wide Web.
    UNCF institutions' commitment to serving these students and 
families has meant that they have operated at a relative disadvantage, 
having fewer resources than majority campuses. Compared to their 
counterparts nationally, UNCF colleges have very small endowments and 
cannot fall back on sizable numbers of wealthy alumni:
    <bullet> Average endowments per student at UNCF colleges are less 
than one-third the average for private 4-year colleges nationally.
    <bullet> Alumni giving accounts for 33 percent of total voluntary 
support at private colleges nationally, compared to only 6 percent at 
private HBCUs (despite the fact that the proportion of alumni who give 
is approximately the same at private colleges nationally and at private 
HBCUs).
    Needless to say, the need for information technology support at 
UNCF member institutions is evident. In its 1999 UNCF Technology Survey 
of all 39 member institutions, UNCF found that college students 
nationally are more than twice as likely to have access to a college-
owned computer than their private HBCU counterparts--there is a 
computer for every 2.6 students in higher education institutions 
nationally and one for every 6 students at UNCF colleges and 
universities.
    Because they come from lower family income backgrounds, students at 
UNCF institutions are far less likely to own their own computer than 
students at colleges an universities nationally--only 15 percent of 
UNCF students own their own computer, compared with 55 percent of 
college students nationally. Similarly, faculty at UNCF colleges are 
much less likely to own their own computer than faculty nationally--
only half of UNCF faculty own their own computer, compared to 71 
percent of faculty nationally. Fewer than half of UNCF faculty have 
college-owned computers at their desks.
    In addition to the lack of access to computers, the survey found 
that the technology infrastructure to support information technology 
has significant needs. The number of network servers at UNCF colleges 
per 1,000 students was determined to be approximately half the number 
for all colleges and universities. Approximately 75 percent of the 
existing network servers, hubs, routers, and printers were found to be 
obsolete or nearly obsolete and needing replacement. Fortunately, UNCF 
is taking a leadership role in addressing this critical issue through 
the implementation of an $80 million Technology Enhancement Capital 
Campaign (TECC) that was publicly announced in March 2000 and is 
expected to continue through 2001.
    Connecting to the Internet is another factor that cannot be 
overlooked. Taking into consideration the geographical location of 
these campuses (urban and rural economically depressed and/or remote 
areas), not to mention the economic status of large numbers of HBCU 
students and their families (lower income), Internet connectivity must 
also be factored in as a barrier to on-line learning. The amount of 
bandwidth available from Internet service providers impacts performance 
capabilities. Of course, greater bandwidth produces faster and better 
connections, ultimately leading to more appreciable performance. For 
HBCUs, this can mean increasing the opportunities to engage in 
collaborations with larger more research-oriented universities, and 
conducting immediate and timely business both on and off campus. As one 
can expect, the costs of providing state-of-the art Internet connection 
for schools with fewer resources can be prohibitive.
    Add to this the fact that UNCF institutions face increased demand 
for technology from higher enrollments:
    <bullet> Rising enrollments at UNCF colleges have compounded the 
need for technology improvements and expansion. Enrollments at UNCF 
colleges are at their highest level in history. Between 1987 and 1997, 
enrollments increased more than 20 percent, approximately twice the 
rate of growth for majority institutions.
    <bullet> Further, many UNCF colleges are located in rural areas 
(such as Holly Springs, MS, Hawkins, TX, Denmark, SC, Tougaloo, MS, 
Salisbury, NC, etc.) where there is limited access to learning 
resources, compounding the need to empower these institutions and their 
students with full access to technology.
    And we cannot forget the need to fully integrate technology 
throughout the curriculum and the learning experiences of students. For 
this to happen, faculty must be empowered with the latest skills so 
that they can integrate technology into the classrooms, office, 
research laboratories, and libraries. Additionally, staff has to be 
trained to administer and maintain information technology systems, as 
well as provide user support. Moreover, being technologically literate 
enables teachers to be continuous learners, staying current with 
effective teaching practices and course subject matter. This is crucial 
given that they are responsible for training the next generation of our 
nation's workforce who will be required to have these skills 
themselves.
    Looking at the workforce, it is also apparent that HBCUs have the 
strongest record among institutions of higher education nationwide in 
producing African American college graduates and professionals. With 
the current demands of the economy for more scientific and technical 
workers and teachers, and the parallel underrepresentation of African 
Americans and other minorities in these fields, this Nation has still 
not yet fully tapped into and utilized HBCUs and their human resource 
pool. Not only do HBCU graduates account for 85 percent of black 
physicians, 80 percent of black Federal judges, 75 percent of black 
lawyers, and 50 percent of black business executives, but also their 
graduates make up over 50 percent of black public school teachers, many 
of whom return to their communities to teach students who have limited 
exposure to the Internet and technology. We cannot underestimate the 
value of the development of this human capital to the overall goal of 
influencing learning.
    Recognition must also be given to HBCUs and their role as community 
learning centers. HBCUs are one of, if not the, greatest asset in their 
surrounding communities. Their very presence undergirds the communities 
in which they reside. If we do not support these institutions that play 
such a prominent role in their neighborhoods, we lose an extraordinary 
opportunity to bolster these communities and utilize the Internet as a 
means to promote greater education attainment for less fortunate 
socioeconomic groups not residing in traditional campus-based settings.
    Clearly, there is a need for a greater Federal investment in order 
to provide a minimum technology standard at low-resource institutions, 
including HBCUs. Such an investment would enable these schools to have 
greater access to distance learning and other forms of electronic 
communications. This Federal support is especially critical for private 
HBCUs, like UNCF member institutions, and other minority-serving 
institutions who do not have State funds to depend on to gain access to 
state-of-the-art technology.
    Given these circumstances, the issue for the Commission to address 
is whether HBCUs, who are disadvantaged in their ability to provide 
adequate resources and materials in the existing campus setting, can be 
expected to take this tremendous leap unassisted to provide a learning 
environment on-line. We recommend that the Commission's final report to 
the President and Congress include a specific Federal response for 
technology capacity and infrastructure development at HBCUs and other 
minority-serving institutions that will ensure equal access to level 
the playing field and close the digital divide. These recommendations 
should contain a fiscal commitment to developing and maintaining the 
technological capacity of these institutions, reducing Internet 
connection costs, as well as training faculty and staff on these 
campuses. Without such a commitment, the promise of the Internet for 
learning is just an illusion if HBCUs do not have the infrastructure or 
personnel to promote it.
    UNCF schools now face the twenty-first century as maturing 
institutions, which are seeking to find real solutions to the many 
issues facing this nation. Statistics indicate that the changing 
demographics of this Nation will require the unquestioned 
accomplishments of HBCUs, whose faculty and students mirror the face of 
this changing America. Our challenge is to continue to produce the 
caliber of professionals who are capable of meeting America's needs and 
to take on the unique hardships facing HBCUs in order to accomplish 
this goal.
    UNCF has the proven success and leadership in the education and 
training of some of this nation's most disadvantaged individuals. We 
urge the Commission to develop a strategic plan that advances 
meaningful and appropriate measures to ensure equal access to web-based 
learning opportunity for all Americans and look forward to working with 
you to achieve this important goal.

    Senator Cleland [presiding]. Thank you, Mr. Chairman, and 
thank you, Mr. Gray, and thank you for your wonderful service 
to our country, both when you were in the House and now.
    I sometimes think that I am on the wrong side of the 
digital divide when the first thing I think about when I hear 
the term ``CISCO'' is the Cisco Kid.
    We are delighted to have you here. Just a few questions, if 
I might. UNCF's testimony to the Congressional Web Based 
Education Commission stated that the digital divide between 
black and white colleges is even greater than the divide 
nationally. It went on to state that this may be the most 
significant problem historically black colleges and 
universities will have to address this century.
    That is a pretty strong statement, Mr. Gray. What do you 
believe are the ramifications of this problem in terms of the 
ability of HBCUs to recruit students and faculty and compete 
for Federal grants?
    Mr. Gray. Well, without closing the digital divide, HBCUs 
will not produce students ready for the marketplace upon 
graduation. If HBCUs cannot produce students who are ready to 
meet the 21st century's technological needs, then you can 
expect enrollment as well as faculty decline, because no one 
will want to come to a place that does not prepare them for the 
marketplace.
    And both of these points could have tragic consequences for 
the Nation, considering the fact that, even though only 15 
percent of all African Americans attend HBCUs, these HBCUs that 
enroll only 15 percent graduate nearly 30 percent of all the 
baccalaureate graduates per year. And then when you look at 
graduate school, nearly 50 percent of all the African Americans 
who are in graduate and professional schools did their 
undergraduate in an HBCU. So you are talking about having a 
very significant impact if that should happen.
    Senator Cleland. Thank you very much. Maybe the thing to 
do, if there is no objection, Senator Allen, is to hear from 
the other panelists, and then open it up for some questions.
    Dr. Flores, glad to have you today, sir.

 STATEMENT OF DR. ANTONIO FLORES, PRESIDENT AND CEO, HISPANIC 
            ASSOCIATION OF COLLEGES AND UNIVERSITIES

    Dr. Flores. Thank you, Senator. And thank you, Senator 
Allen, for joining the hearing as well.
    Senator Cleland, and other distinguished Members of this 
panel, thank for the opportunity of appearing before you on 
behalf of the Hispanic Association of Colleges and 
Universities, or HACU. I am honored to testify in support of S. 
414, the NTIA Digital Network Technology Program Act introduced 
by Senator Cleland and Senators Hollings, Stevens, Inouye and 
Breaux on February 28, 2001.
    HACU represents more than 300 colleges and universities in 
the United States and Puerto Rico, including more than 200 
Hispanic-serving institutions or HSIs. HACU member institutions 
enroll more than two-thirds of the 1.5 million Hispanics in 
higher education today, as well as countless non-Hispanics who 
enrich the diversity of the fast-growing campus communities. 
HSIs are the most important national resource for the education 
and training of Hispanics and other disadvantaged students 
across the Nation. This fact will only be magnified in the 
years ahead, as the Hispanic population continues to grow 
faster than any other ethnic community in the country and 
reaffirms its crucial role in the economic and public life of 
the Nation. HSIs need to be strengthened and expanded 
proportionate to the rapid growth of the populations they 
served, so our national economic prosperity and social well 
being are also strengthened.
    We are reminded that one of every three new workers joining 
the national workforce today is an Hispanic, and that this 
proportion will increase to one of every two new workers before 
the year 2050. The changing nature of our economy demands that 
under-served and under-represented but fast-growing populations 
be educated and trained at increasingly higher levels for the 
jobs and leadership roles of the new economy.
    Notwithstanding the recent bursting of the dot-com bubble, 
the high technology sector continues to expand at the speed of 
human creativity. Thus, information technologies, 
telecommunications, and biotechnology, among others, require 
increasing numbers of workers with very high skills and 
advanced knowledge that only a quality higher education can 
provide. For minority-serving institutions, MSIs, including 
HSIs, S. 414 offers a new and important avenue to meet 
educational and human resource needs of our high technology-
driven economy and our increasingly complex democracy.
    The digital divide is not an empty buzzword, but an 
unfortunate reality in our Nation. While others in society are 
acquiring greater access to information technology and 
connectivity to the Internet, the gap between the better 
educated and those behind them is widening each other--not only 
in qualitative, but quantifiable terms. The U.S. Department of 
Commerce series of reports ``Falling Through the Net'' and 
recently published report ``A Nation Online: How Americans Are 
Expanding Their Use of the Internet,'' document the divide 
between Hispanics and whites and Hispanics and the Nation as a 
whole. The 2000 report indicates that more than one-half of the 
U.S. households have computers, and more than four of every ten 
have Internet access, but only one-third and about two-thirds 
of every ten Hispanic households, respectively.
    The 2001 report, focusing on 18-to-24-year-olds actually in 
school or college, documents a similar pattern with persistent 
gaps of 20 percentage points in home computer ownership and 25 
points in the use of the Internet at home. This report 
highlights the importance of this bill, and the importance of 
supporting our HSIs, because the gap between Hispanics and non-
Hispanic whites lessens to 15 percentage points when one 
considers outside-home use, which for these students, 
overwhelmingly means the school or college. The 15 percent gap 
is still very large, but it is a sign of progress in the right 
direction. Similar patterns exist for ages 3 to 17 years. The 
2000 report shows substantially large gaps between non-Hispanic 
whites and Hispanics, overall.
    The latest 2001 report underlines strongly that S. 414 will 
help to bridge the widening digital divide for our youth by 
increasing their access to technology in the school setting. S. 
414 may have the greatest impact on this very age group. The 
social and economic impact of the digital divide relates to 
more than just physical access. It also involves skill in the 
use of information technology, especially in ways that help one 
learn to gather information, critically analyze data and 
generate new knowledge and understanding. It is in these 
qualitative areas where S. 414 will directly strengthen HSIs 
and other MSIs, so that they may provide a quality education 
needed for the information age of the new economy. This support 
will empower these crucial institutions to develop and offer 
strategic solutions to the digital divide.
    S. 414 presents great opportunities for the U.S. Congress 
and the President to insure that future generations of 
Hispanics and other disadvantaged populations will not remain 
stagnated at the bottom of the American educational ladder. The 
digital divide, as significant as it is, is but a manifestation 
of the persistent educational divide that is putting our Nation 
at risk. We applaud, Senator Cleland, your efforts to pass it.
    [The prepared statement of Dr. Flores follows:]

     Prepared statement of Dr. Antonio Flores, President and CEO, 
           Hispanic Association of Colleges and Universities

                                OVERVIEW

    At the beginning of 2001, official government projections showed 
that Hispanic Americans would become the nation's largest minority 
population as early as 2005. By March 2001, however, initial findings 
from the 2000 Census were released, documenting that the Hispanic 
population had undergone an unanticipated surge in growth by nearly 60 
percent in one decade. The Hispanic population suddenly had reached 
parity with the nation's African American population, and by at least 
one preliminary count, actually had exceeded parity 5 years earlier 
than expected.
    The significance of such growth outpacing standard national 
projections punctuates the new sense of urgency that now must be 
applied to addressing persistent disparities between the country's 
rapidly growing minority populations and comparatively stagnant non-
minority populations. California, the most populous state, this year 
became the first State to report no single majority population group. 
Against the backdrop of these demographic changes, the bridging of the 
well-documented digital divide must become a national priority.
    The United States has maintained its economic stability and 
international leadership by capitalizing on the technological skills 
and innovation that have made information technology a critical 
economic driver for growth in virtually every market sector. The 
digital divide threatens to dismantle rapidly this country's 
information technology advantage.
    Hispanics already represent one of every three new workers joining 
the U.S. labor force. By 2050, the U.S. Bureau of Labor Statistics 
projects that half of all new workers joining the U.S. labor force will 
be Hispanic. Failing to provide such a large part of the country's 
current and future work force with technological skills integral to the 
country's economic progress and stability threatens to cripple work 
force productivity, impede innovation, erode the taxpayer base, and 
negatively impact even national security.
    The NTIA Digital Network Technology Program Act, or S. 414, 
comprehensively addresses the widening ``digital divide.'' The Act 
targets new funds to those institutions serving the largest 
concentrations of Hispanic and other minority students from 
kindergarten through graduate school in those communities with the 
fastest-growing minority populations.

        HISPANICS AND THE DIGITAL NETWORK TECHNOLOGY PROGRAM ACT

    For the nation's youngest and still fastest-growing ``minority'' 
population, S. 414 will prove especially beneficial as a much-needed 
correction to decades of neglect in local, State and Federal spending 
and support for education and training--especially in the information 
technology sector.
    Hispanics comprise a population that historically suffers the 
lowest high school and college completion rates. As of the 2000 Census, 
only 8.5 percent of Hispanics had earned a bachelor's degree among 
young adults ages 25 to 34. This also is a population that suffers 
disproportionately high, persistent poverty.
    Hispanics comprise a population on the wrong side of the digital 
divide. In the last of the series of reports titled, ``Falling Through 
the Net,'' the U.S. Department of Commerce shows that in 2000 only 33.7 
percent of Hispanic households owned a computer, compared to 55.7 
percent for non-Hispanic whites. Only 23.6 percent of Hispanic 
households had Internet access, compared to 46.1 percent for non-
Hispanic whites. The just released report on computer and Internet 
usage, ``A Nation Online: How Americans Are Expanding Their Use of the 
Internet,'' (U.S. Department of Commerce, February, 2002) documents the 
continuing and growing divide: only 48.8 percent of Hispanics use a 
personal computer at home or elsewhere, compared to 70 percent of non-
Hispanic whites.
    The pattern persists for individual Internet use with only 31.6 
percent of Hispanics using the Internet from any location, compared to 
59.9 percent for non-Hispanic whites, nearly double the percentage. 
This latest study, when reporting on the traditional college age 
cohort, 18 to 24 year olds, shows that the funding provided to HSIs by 
S. 414 will be put to good use. The divide continues even when focusing 
on the high Internet usage group of 18-14 year olds attending school or 
college: only 49.7 percent of Hispanic students use the Internet at 
home, compared to 74.3 percent of non-Hispanic white students. However, 
the divide lessens when comparing the outside home (primarily school or 
college) Internet use of Hispanics and non-Hispanic whites, 61.1 
percent and 76.2 percent respectively. Money put to HSIs will help. 
Nevertheless, the divide clearly persists, and the need for efforts to 
bridge the gap remains.
    The Hispanic Association of Colleges and Universities represents 
more than 300 member colleges and universities serving the largest 
concentrations of Hispanic higher education students across the country 
and including Puerto Rico. These institutions include more than 200 
federally designated Hispanic-Serving Institutions, or HSIs, which are 
defined as having a full-time student population at least 25 percent 
Hispanic and a total enrollment at least 50 percent low income.
    The reach of HACU and HSIs extends to pre-collegiate programs and 
partnerships, workforce development and lifelong education initiatives, 
which impact the entire Hispanic community. Since its formation in 
December 1986 as a nonprofit 501(c)(3) association, HACU has advocated 
for increased support to the nation's HSIs because of the integral role 
they play in educating a population that will have such an enormous 
impact on the nation's future economic and social progress.
    That S. 414 specifically identifies Minority-Serving Institutions 
as eligible recipients of S. 414 funding is testament to the intent of 
this Act to reap the most benefits for each dollar invested in those 
institutions with the strongest expertise and widest reach to the 
``have-nots'' of the digital divide.
    At the same time, S. 414 specifically addresses efforts to correct 
the historic underfunding of HSIs and other Minority-Serving 
Institutions upon which the Nation will rely to narrow the information 
technology gap. For example, in the 1995-96 school year, HSIs received 
$7,300 on average per student, compared to $15,000 received by all 
other degree-granting institutions, according to the Integrated 
Postsecondary Education Data System (IPEDS) of the U.S. Department of 
Education.
    An overriding goal of HACU and HSIs is to increase the numbers of 
Hispanic college graduates with advanced skills in every discipline in 
which Hispanics now are underrepresented. S. 414 promises not only to 
narrow the technology training gap, but ultimately to increase college 
completion rates overall by providing Minority-Serving Institutions the 
tools they need to enhance pre-collegiate and on-campus student 
success.

               INFRASTRUCTURE, EQUIPMENT AND CAPABILITIES

    S. 414 will allow HSIs and other Minority-Serving Institutions to 
apply for grants, contracts or cooperative agreements to acquire 
``equipment, instrumentation, networking capability, hardware and 
software, digital network technology and infrastructure necessary to 
teach students and teachers about technology in the classroom.''
    Because of the persistent per-student funding disparities suffered 
by HSIs, these institutions--and the students, future K-12 teachers and 
larger communities served by these HSIs--clearly stand to benefit from 
S. 414 investments in infrastructure, equipment, and institutional 
capacity.
    Most HSIs are located in major, urban areas of the country with a 
comparatively higher concentration of poverty and subsequently lower 
average tax base. Thus, these HSIs cannot depend on local dollars to 
adequately address the digital divide. Moreover, State support for 
higher education has been declining on a per-student basis in almost 
every region of the country.
    Because the mission of these HSIs is to promote higher education 
access and success for a population that suffers chronically high 
poverty rates, most HSIs have declined to increase their tuition and 
fee formulas. HSIs are thus compelled to rely on the few Federal 
resources now available to them. S. 414 provides HSIs and other 
Minority-Serving Institutions a much-needed increase in Federal 
dollars.

                          FACULTY DEVELOPMENT

    S. 414 will allow HSIs and other Minority-Serving Institutions to 
seek grants, contracts or cooperative agreements to ``develop and 
provide educational services, including faculty development, to prepare 
students or faculty seeking a degree or certificate that is approved by 
the State, or a regional accrediting body recognized by the Secretary 
of Education.''
    Increasing the ranks of Hispanic and other minority teachers is of 
paramount importance, not only to higher education institutions but 
also to the nation's public schools. HSIs already award approximately 
50 percent of all teacher education degrees earned by Hispanic higher 
education students.
    However, in part because of a lack of funding for teacher education 
at HSIs, the shortage of Hispanic teachers is acute. While more than 15 
percent of the elementary and secondary education student population is 
Hispanic, only 4.3 percent of public school teachers are Hispanic, 
according to the U.S. Census Bureau Digest of Education Statistics for 
1998 and 1999. In higher education, only 2.4 percent of all full-time 
faculty members are Hispanic (IPEDS, 1997).
    Hispanics now earn master's, doctoral and professional degrees at 
the rate of 2.4 percent among the adult population--compared to 6.0 
percent for non-Hispanics. Hence, the numbers of Hispanics attaining 
advanced degrees must more than double to achieve parity. Yet, only 20 
percent of HSIs offer a master's degree. Less than 12 percent of HSIs 
offer a doctoral degree. S. 414 directly addresses the need to increase 
the institutional capacity of HSIs to produce more teachers with 
advanced degrees.

                      TECHNOLOGY IN THE CLASSROOM

    S. 414 will allow HSIs and other Minority-Serving Institutions to 
seek grants, contracts or cooperative agreements to ``provide teacher 
education, library and media specialist training and preschool and 
teacher aid certification to individuals who seek to acquire or enhance 
technology skills in order to use technology in the classroom or 
instructional process.''
    Enhancing teacher education, classroom technology use and 
instructional skills will focus on expanding the only means of 
technology access for many of the youngest of the ``have-nots'' of the 
digital divide. The latest report from the NTIA, ``A Nation Online,'' 
documents the importance schools have in providing computer access to 
Hispanic students. The study looks at three categories of use: students 
that have access to computers only at home, those that use computers 
both at home and at school, and those who use computers only at school. 
Home only use accounts for 6.7 percent of 10-17 year old Hispanic 
students, compared to 8.5 percent of non-Hispanic white 10-17 year 
olds. When one looks at ``school and home computer use,'' the category 
of use where most (71.8 percent) non-Hispanic whites fall, only 38.6 
percent of Hispanic 10-17 year olds have this dual access. Most 
tellingly, in the category of ``school only,'' 38.9 percent of Hispanic 
teens are dependent on this sole source of computing technology, 
compared to only 15.1 percent of white non-Hispanics. That the overall 
gap in total computer usage is no more than 84.2 percent for Hispanic 
and 95.4 percent for non-Hispanic 10-17 year olds is due to the 
dramatic role played by schools in providing technology access to 
Hispanic students.
    The divide for these children perniciously persists when one 
considers the driving force for technology today, the Internet. Overall 
Internet usage, both at school and at home, is only 47.8 percent for 
Hispanic 10-17 year old youngsters, compared to nearly 80 (79.7) 
percent for non-Hispanic white children. In other words, more than 
double the percentage of Hispanic children do not use the Internet at 
all compared to non-Hispanic whites, 52.2 percent and 20.3 percent, 
respectively. Clearly, money put to enhancing the technology skills of 
future and current K-12 teachers is money toward closing the persistent 
digital divide.
    The long experience and proven expertise of HSIs in addressing 
minority public school and community needs makes these institutions a 
vital partner in efforts to enhance teacher technology training, 
classroom and instructional skills. S. 414 capitalizes on the 
geographic proximity, cultural understanding and existing community 
outreach of Minority-Serving Institutions by inviting their active 
participation in new technology initiatives in the nation's public 
schools.

                        TECHNOLOGY PARTNERSHIPS

    S. 414 will allow HSIs and other Minority-Serving Institutions to 
seek grants, contracts or cooperative agreements to ``implement a joint 
project to provide education regarding technology in the classroom with 
a State or State educational agency, local education agency, community-
based organization, national nonprofit organization, or business, 
including minority business or a business located in HUB zones, as 
defined by the Small Business Administration.''
    Joint projects and partnerships to address classroom technology 
needs in a comprehensive way are a practical, effective means to meet 
the technology needs of the nation's minority communities. This 
component of S. 414 encourages inclusiveness and the establishment of a 
wide base of community support and expertise.
    HSIs, historically hampered by funding disparities, have come to 
depend on the combined strengths and added resources of such 
partnerships to address issues ranging from adult workforce development 
and lifelong learning to pre-collegiate preparatory programs.
    For example, HSIs are actively participating in new Workforce 
Investment Act initiatives in partnership with local businesses, 
community-based organizations and State agencies. Several HSIs have 
become partners in the HACU Proyecto Access program--a pre-collegiate 
summer program for middle school students designed to enhance 
technology, science and mathematics skills.
    HSIs and other Minority-Serving Institutions already have 
established the foundation for forming effective partnerships to 
address technology disparities. S. 414 provides the funding and 
infrastructure support to capitalize on the proven effectiveness of 
such partnership approaches in addressing the digital divide.

                         LEADERSHIP DEVELOPMENT

    S. 414 also will allow HSIs and other Minority-Serving Institutions 
to ``provide leadership development to administrators, board members 
and faculty of eligible institutions with institutional responsibility 
for technology education.'' Historically underfunded HSIs can readily 
benefit from this investment in support of those leaders who are 
charged with the strategic direction and supervision of efforts to 
enhance technology infrastructure, training and outreach.
    HSIs and other Minority-Serving Institutions recognize the critical 
role of leadership development in efforts to close the digital divide. 
For example, the Advanced Networking with Minority-Serving Institutions 
(AN-MSI) project includes a focus on assisting campus leadership in 
information technology training. AN-MSI is the result of a National 
Science Foundation grant to EDUCAUSE, the premier information 
technology association in higher education and now strategic partner 
with MSIs. A sub-award was made to the Education, Outreach and Training 
Partnerships for Advanced Computational Infrastructure (EOT-PACI).
    EDUCAUSE established mutually beneficial partnerships with HACU, 
the American Indian Higher Education Consortium (AIHEC), the National 
Association for Equal Opportunity in Higher Education (NAFEO) and other 
associations and councils representing Minority-Serving Institutions. 
Leadership development aspects of this ongoing project have included 
the involvement of administrators of HSIs and other Minority-Serving 
Institutions at Seminars on Academic Computing, a recent Technology 
Summit, and a Hispanic digital divide executive session for HSI 
presidents at the HACU Annual conference done collaboratively with the 
IBM Foundation.
    The inclusion of leadership development in S. 414 is another 
example of the Act's potential for success by strategically addressing 
the nation's digital divide on so many fronts--from enhancing teacher 
skills in the classroom to supporting administrative leadership 
development on the college campus.

                               CONCLUSION

    For 15 years, HACU has served as the nation's leading voice for 
those colleges and universities serving the largest concentrations of 
Hispanic higher education students. HACU also is a member of the 
Alliance for Equity in Higher Education, co-founded by the American 
Indian Higher Education Consortium and the National Association for 
Equal Opportunity in Higher Education. The Alliance represents a new, 
united front on concerns shared by all Minority-Serving Institutions--
including the effort to bridge the digital divide between minority and 
non-minority populations.
    Clearly, HSIs and other Minority-Serving Institutions have the 
expertise and the proximity and commitment to their students and 
communities to provide front-line leadership and support in the effort 
to close the information technology gap. However, these institutions 
cannot succeed without the support of Congress and its endorsement of a 
substantial investment in Federal dollars.
    S. 414 proposes a comprehensive approach to address the digital 
divide aggressively, targeting potential funding to those higher 
education institutions serving the largest concentrations of minority 
students in those communities with the fastest-growing minority 
populations. S. 414 is a strategically sound, cost-effective response 
to a challenge the Nation can no longer afford to leave unanswered.

    Senator Cleland. Well, thank you very much, Dr. Flores, and 
we are proud to have you here. I think that is some fascinating 
information you shared with us, and we look forward to getting 
into questions with you.
    Dr. Humphries, glad you are here. And welcome aboard. We 
look forward to hearing from you.

  STATEMENT OF DR. FREDERICK S. HUMPHRIES, PRESIDENT AND CEO, 
                NATIONAL ASSOCIATION FOR EQUAL 
                OPPORTUNITY IN HIGHER EDUCATION

    Dr. Humphries. Thank you very much, Senator Cleland. 
Senator Allen and Senator Cleland, I am deeply appreciative of 
the opportunity to participate in this hearing on Senate Bill 
414, the National Technology Instrumentation Challenge Act. 
This legislation seeks to amend the National Telecommunication 
and Information Administrative Organization Act and ultimately 
strengthen our Nation's digital network technology program by 
providing targeted and increased Federal support to minority-
serving institutions to help close what is commonly referred to 
as the digital divide.
    I would like to thank you, Senator Cleland, and the 
original co-sponsors for sponsoring this bill. I must 
acknowledge their vision, compassion and leadership in 
recognizing the need for Congress to take a giant step in 
closing the digital divide, and to stimulate national awareness 
and involvement in this area. This effort, including today's 
hearing, truly is an historic event. And I thank you, sir, for 
causing this.
    A bit about NAFEO. NAFEO serves as the national umbrella 
organization for a combined membership of 118 predominantly and 
historically black colleges and universities: 103 historical 
black colleges and universities, and 15 other predominantly 
black institutions. The organization takes lead responsibility 
for the development and dissemination of public policies, 
programmatic efforts, and strategic and educational materials 
that one, enhance the role of the historical black colleges and 
universities generally and two, promote African American 
students enrollment and attainment, specifically.
    NAFEO is comprised of institutions of higher education that 
represent a broad spectrum of interests, public and private, 
large and small, urban and rural, liberal arts, agricultural, 
and research. Of the HBCUs that belong to NAFEO, 46 percent are 
public and 54 percent are private. The organizations membership 
is comprised of 2-year and 4-year institutions as well as 
schools that offer advanced and professional degrees, and they 
are situated in every quarter of the country, the District of 
Columbia, and the Virgin Islands. More than 300,000 
undergraduate and 50,000 graduate students are enrolled in 
NAFEO institutions. The HBCUs represented by NAFEO are the 
largest producers of African American teachers and 
baccalaureates in science and technology. A higher percentage 
of black Ph.D. candidates from HBCUs complete their degrees 
than those from non-HBCUs, 42 percent each year, to be exact.
    We are also building our Ph.D. program to address the 
undersupply of African Americans in the science and technology 
field, as well as expanding our capacity in all professional 
degree programs.
    Despite the significance of these contributions, of 
historical black colleges and universities, and other minority-
serving institutions, the students and communities we serve are 
woefully at risk of getting stuck, of falling through the 
cracks of our Nation's digital highway. And I would like to 
come a little bit differently at this issue.
    My oral comments were planned to be very much presenting 
data on the differences between blacks and whites and Hispanics 
and whites, and the woeful inadequacy of our infrastructure.
    But I would like to say to the Subcommittee that the reason 
why we are getting so far behind in this digital divide is one 
of the unintended consequences of Federal funding where 80 of 
the institutions in our American higher education system get 70 
percent of all of the Federal dollars.
    I call to your attention that that National Science 
Foundation sponsored a particular program where the major 
research institutions were enabled to come in for grants, 
wherein they got funding from the National Science Foundation 
to enhance their broadband capabilities in the country. Perhaps 
you are all aware that Qwest has put a, what you would call a 
major trunk broadband capability across the southern United 
States, certainly through Georgia, Senator Cleland, all the way 
to Wichita Falls, which will accommodate and give rise to total 
digital communication, which has telecommunications 
capability--as well as telecommunications capability.
    There are not any historical black colleges nor any 
minority-serving institutions who have connectivity to this 
broadband capability. The absolute requirement for the kind of 
equipment and technology you need on the local campus to be 
able to connect to this broadband system is simply not within 
our reach. And so we can talk about the infrastructure which 
allows us on our campuses to connect the buildings, the 
academic facilities, the libraries, the laboratories, the 
dormitories.
    That is fundamental, basic stuff.
    And in the report that we talk of in the presentation that 
we have given you, we have presented to you data which shows 
that even at this very fundamental level, that we are woefully 
inadequate in Internet connectivity.
    And so when you start talking about the upper level of the 
information highway, when you are talking about the advanced 
technologies prevalent in the information and technology, this 
thing that you speak of in terms of an aristocracy in 
technology vis-a-vis the proletariat, which is the historical 
black colleges and other minority-serving institutions, yes, 
the gap widens and it widens because of the ability of the 
major institutions to utilize resources that the Federal 
Government gives through its commerce and technology, through 
its Department of Energy, through the DOD research programs, 
and through the National Science Foundation; that the monies 
that are garnered through these grants and contracts provide to 
the major institutions the wherewithal that we are asking for, 
just the basic stuff that you are asking for in your bill.
    So when your colleagues offer to you that you are offering 
something special to us, you need to tell them about the many 
dollars that this government, this agency, give to the major 
institutions via grants and contracts that allows them to 
expand their informational technology capabilities which we do 
not compete in and which we cannot compete in. And therefore, 
this bill represents an answer that allows these institutions 
to at least at the basic level, have infrastructure for 
technology for the thousands of students that attend our 
institutions.
    And yes, this Subcommittee should know that we educate poor 
kids. We educate kids who come from families that make a little 
bit of money. And they cannot buy all of the kind of stuff that 
is available which leads to kids having some facility and some 
capability in the information society.
    So one of the things that we in that bill want to put on 
your mind today and give to you to consider, we would like to 
suggest that some way we find to fund kids to purchase 
computers, particularly in the freshman year of college. We 
want to suggest that those students who are fully Pell 
eligible; that is, at the new level of $4,000; they are fully 
Pell eligible, meaning that they are really, really poor; that 
some way we include money that we can apply for that will 
provide these students, freshmen at our institutions, the 
ability to have a computer; that we, the institution, by 
applying for a grant from one of these programs that focus on 
our particular institution, that money is included in that 
program.
    And one of the places that we would like to suggest that 
maybe you want to work with your colleagues who fund the Title 
III, Title V programs, that we there some money allocated 
within those dollars which would, as they are appropriated to 
the institutions, which would give them the wherewithal to 
respond to those students that are entering the capability of 
providing a computer, so that if they enter college, they enter 
with the ability to have a computer and to get hooked up to the 
Internet, where we can best utilize the dollars given in this 
program of Senate Bill 414.
    I cannot, in my final comment to you, I cannot stress 
enough to you the importance of your bill, Senator Cleland. It 
is visionary thought, it is much needed thought, and it is the 
kind of program, when the Internet came and the information 
technology and the information highway and all these companies 
got going, and then all of a sudden the Nation found that it 
had a shortage of qualified people to man the new jobs that 
were being created by e-commerce and the technological-driven 
things, to me as a person who had been working in human 
resource development for a lifetime in the minority community, 
I saw this as a great opportunity for this country to help 
solve the inequality in socioeconomic status by making the 
corporate world work on the problem of taking from the roots of 
our society and training people to take these high-paying jobs 
that were created.
    We responded by HB-1 visas, and 180,000 people came into 
our country. September the 11th has kind of changed those 
things, and now it is even more important, and a wonderful 
thing, we now have the focus on developing an underdeveloped 
segment of our society, which can benefit from the Cleland 
bill, which empowers us to turn our competitive students. And 
perhaps you on this Subcommittee can suggest to your corporate 
sector friends that they must join you in helping to develop 
the curriculum capability in computer science and the equipment 
of these schools so that this segment of our population can 
come out fortified to take these jobs, and help add to the 
economic drive as the sustenance of this Nation.
    So I just think you have done a wonderful job here, Senator 
Cleland. I recommend that you do everything possible. And we 
stand ready to do everything possible that we can to help make 
this bill become a reality. It is needed and we must get it 
done.
    [The prepared statement of Dr. Humphries follows:]

 Prepared Statement of Dr. Frederick S. Humphries, President and CEO, 
     National Association for Equal Opportunity in Higher Education

                              INTRODUCTION

    Mr. Chairman and distinguished Members of the Senate Commerce, 
Science and Transportation Committee and the Subcommittee on Science, 
Technology and Space, I am Dr. Frederick S. Humphries, President and 
Chief Executive Officer of the National Association for Equal 
Opportunity in Higher Education (NAFEO). First, I want to thank you for 
the opportunity to participate in this hearing on S. 414, the National 
Technology Instrumentation Challenge Act. This legislation seeks to 
amend the National Telecommunications and Information Administration 
Organization Act and ultimately develop a digital network technology 
program by providing targeted and increased Federal support to 
Minority-Serving Institutions (MSIs) to help close the digital divide. 
Second, I would like to thank Senator Cleland and the original co-
sponsors for sponsoring this bill. Moreover, I must acknowledge their 
vision, compassion, and leadership in recognizing the need for the 
Congress to take a giant step in closing the digital divide and to 
stimulate national awareness and involvement in this area.
    This is truly an historic event. By having this hearing and 
addressing the technology and digital divide issues that affect MSIs, 
we are moving one step closer to closing the divide. As the CEO of 
NAFEO and a former college president, I believe that this hearing is an 
exemplary way to put MSIs in a leadership role--by being at the table 
to help formulate policy and assist in the decisionmaking process for 
issues that directly affect our institutions. Moreover, the ultimate 
enactment of this legislation will put MSIs in a position to better 
address national science and technology (S&T) and workforce objectives, 
including engaging those communities where the digital divide is most 
serious. I am sure that this hearing will hasten a dialog that is long 
overdue.

                               BACKGROUND

    NAFEO serves as the national umbrella organization for a combined 
membership of 118 predominately and Historically Black Colleges and 
Universities (HBCUs)--103 HBCUs and 15 other predominately Black 
Institutions. Our mission is to champion the interests of our member 
institutions through the executive, legislative and judicial branches 
of Federal and State government, and to articulate the needs for a 
system of higher education where race, ethnicity, socio-economic 
status, and previous educational attainment levels are not determinants 
of either the quantity or quality of higher education. The organization 
takes lead responsibility for the development and dissemination of 
public policies, programmatic efforts, and strategic and educational 
materials that: (1) enhance the role of HBCUs, generally, and (2) 
promote African American student enrollment and attainment, 
specifically. NAFEO is comprised of institutions of higher education 
that represent a broad spectrum of interests--public and private, large 
and small, urban and rural, liberal arts, agricultural, and research. 
Of the HBCUs that belong to NAFEO, 46 percent are public, and 54 
percent are private. The organization's membership is comprised of 2-
year and 4-year institutions, as well as schools that offer advanced 
and professional degrees, and they are situated in every quarter of the 
country, the District of Columbia, and the Virgin Islands.
    At the time of Brown vs. Topeka Board of Education and the end of 
de jure segregation in the public schools, but not the end of racially 
exclusive, whites-only systems of higher education in the South or 
nearly all-white systems of higher education in the north, HBCUs were 
producing more that 90 percent of all Black baccalaureates and more 
than 90 percent of all Blacks who went on to become doctors, lawyers, 
and PhDs. Now, HBCUs still enroll the largest concentration of both the 
well and under prepared African American students, many of whom come 
from high poverty school systems and low-income families. While HBCUs 
enroll approximately 16 percent of all African American undergraduate 
students, these institutions graduate about 30 percent of all African 
Americans who complete their baccalaureate degrees annually. HBCUs are 
the largest producers of African American teachers and baccalaureates 
in science and technology. Additionally, a higher percentage of Black 
PhD candidates from HBCUs complete their degrees than those from non-
HBCUs, 42 percent each year, to be exact. We also are building our PhD 
programs to address the undersupply of African Americans in the science 
and technology fields as well as expanding our capacities to offer 
professional degree programs.
    The enrollment and graduation rates of these institutions are most 
sensitive to even the slightest shifts in State and Federal policies 
affecting college admission, retention, and completion. Therefore, for 
the last 40 years, HBCUs have served as the barometer that gives the 
earliest and most reliable indicators of whether new educational 
policies instituted by Federal, state, or private sector policymakers 
will advance or retard the movement toward equality of educational 
opportunity. Even with all of this, the HBCU community continues to be 
under-recognized and under-funded as a national research and 
development laboratory for measuring the effects of this country's 
existing and evolving educational policies, particularly at the Federal 
level.

       S. 414 AND RECENT FINDINGS RELATED TO INTERNET TECHNOLOGY

    There are two major dimensions to the digital divide: (1) providing 
access to information technology (IT); and (2) expanding the 
application and use of information technology. S. 414 seeks to address 
both of these issues and helps to remedy the issue of the digital 
divide that exists among HBCUS and other MSIs as well as the 
communities they serve. The bill seeks to strengthen the institutional 
capacity by providing up to $2.5 million per institution for:
    1. Equipment, instrumentation, networking capability, hardware and 
software, digital network technology, and the infrastructure necessary 
to teach students and teachers about technology in the classroom;
    2. The development of educational services, including faculty 
development and student preparation;
    3. Teacher education, library and media specialist training, and 
preschool and teacher aid certification to individuals who seek to 
acquire or enhance technology skills in order to use technology in the 
classroom or instructional process;
    4. The implementation of a joint project to provide education 
regarding technology in the classroom with a State or local education 
agency, community-based organization, national non-profit organization, 
etc.; and
    5. Leadership development to administrators, board members, and 
faculty of eligible institutions with institutional responsibility for 
technology education.
    A 1999 Department of Commerce study, Falling Through the Net: 
Toward Digital Inclusion, found that although more Americans than ever 
before have Internet access, a ``digital divide'' exists among ``those 
with different levels of income and education, different racial and 
ethnic groups, old and young, single and dual-parent families, and 
those with and without disabilities.'' Other national studies show 
similar findings, that among MSIs, there exist serious areas of digital 
divide in student Internet access, high-speed connectivity and 
insufficient infrastructure.
    There is a large segment of society that is cutoff from the 
infinite possibilities of the Internet revolution, because they do not 
have computer access and/or knowledge of web capabilities. As a result, 
there is lost opportunity for this segment to secure a better 
education, better employment, communication and commercial options, as 
well as needed health care information and assistance.
    In 2000, with the support of the Department of Commerce, NAFEO 
completed a study entitled Historically Black Colleges and 
Universities: An Assessment of Networking and Connectivity (see 
appendix). Half of the HBCUs surveyed did not have computers available 
in the location most accessible to students--their dormitories. Other 
findings of this landmark study, which appear in the appendix, include 
the following:
    <bullet> Most HBCUs do not have high-speed connectivity to the 
Internet and World Wide Web. Only three percent of these colleges and 
universities indicated that financial aid was available to help their 
students, 75 percent of whom do not own their own computers, close the 
``computer ownership gap.''
    <bullet> Approximately 88 percent of HBCUs have access to T-1 lines 
from their local ISPs and operating companies and connect to their 
networks using single or multiple T-1 lines. However, a single T-1 line 
is not sufficient to provide a large campus with effective bandwidth 
for 21st century connectivity. The more bandwidth capacity an HBCU has, 
the more possibilities that institution may have for participation in 
advanced projects such as Internet2, which may be one of the key areas 
that hold back HBCUs from making the digital leap into this century.
    <bullet> Extensive connectivity to a global community appears to be 
underutilized among HBCUs. Connectivity beyond the campus borders only 
extends to regional and/or statewide networks, or in a few instances to 
the Federal Government.
    <bullet> Out of the 80 HBCUs responding to the Commerce study, only 
31 percent indicate that they network with State college systems, 13 
percent network with the K-12 school districts, 20 percent with the 
Federal Government, and 5 percent with commercial vendors.
    <bullet> Seventy-six percent of the participating schools estimate 
that fewer than 25 percent, or 1 out of every 4 HBCU students, 
personally own computers. This contrasts with the 1999 Campus Computing 
Study, which reports that among all institutions of higher education, 
49 percent, or about one out of every two students personally own their 
own desktop or notebook computers.

                        NAFEO'S LONG TERM GOALS

    Based on the findings in the HBCU Technology Assessment Study, 
NAFEO's mission is to foster a positive environment for the achievement 
of the following long-term goals mentioned in that study:
    <bullet> To strengthen the capacity of HBCUs to participate in the 
national effort to improve the Nation's technology and 
telecommunications infrastructure and research enterprise;
    <bullet> To improve the quality of education for students attending 
HBCUs, by encouraging policies and leadership that support the 
telecommunications infrastructure necessary for campus wide 
connectivity and workforce productivity; and
    <bullet> To strengthen NAFEO's capabilities and role as a national 
service organization that provides research, evaluation, and 
dissemination of information about telecommunications and technology 
infrastructure to HBCUs and minority institutions.
    HBCUs have been the trailblazers and standard bearers for equal 
opportunity and have been the beacons of light for African American 
communities for over 150 years and they provide the optimum venue to 
help this Nation remedy problems associated with the digital divide. 
Without these institutions, this Nation would not have African American 
participation in the professions, the military, the legislatures, and 
in business. Clearly, it is in the best national interest to seize the 
opportunity to more fully utilize HBCUs to address the crises of the 
digital divide in African American communities and other communities of 
color. As stated previously, the passage of S. 414 is a step in that 
direction. This legislation will offer a significant opportunity for 
those institutions serving the largest concentrations of the nation's 
minority and low-income students to keep pace with the advancing 
technologies of the 21st century.
    Additionally, passage of S. 414 will serve as a catalyst that 
promotes a technological and research trend that is so desperately 
needed at these institutions. It will go a long way in promoting the 
establishment of a technology-based curriculum that enables HBCUs to 
recruit, retain, and graduate students who are more competitive in the 
increasingly technology-based global economy and in the graduate and 
professional institutions. It will allow HBCUs to have more involvement 
in basic research to develop new technologies, which is the most 
desirable and effective method for assuring that HBCUs have the amount 
and level of technology needed for their administration, academic 
programs, student usages, and community outreach. It also will assist 
HBCUs in working with IT corporations and efforts to have them 
``mentor'' HBCUs. For instance, consistent with provisions contained in 
the measure, major companies could adopt one college and work with the 
institution in assessing and implementing long-term IT strategies. 
Ultimately, this funding will allow the institutions to access and 
increase their individual technology needs, thereby making them more 
competitive.

          UNIQUE PROVISIONS AND SPECIAL SIGNIFICANCE OF S. 414

    Clearly, the provisions of S. 414 address almost all of the 
technology deficiencies identified in the NAFEO study by providing 
grants up to $2.5 million for each eligible institution to address 
technology needs related to infrastructure, networking, faculty 
development and student preparation, teacher education and media 
specialist training, community outreach, and leadership development. 
Such aid would not only strengthen our technological capabilities, but 
also enhance our inter-institutional relationships and our community 
outreach. HBCUs and other MSIs would truly become leaders in helping to 
close the digital divide, which is widest in the communities we serve.
    We are aware that the Commerce Department alone cannot shoulder the 
responsibility for closing the digital divide, however, the enactment 
of S. 414 will make an indelible and profound contribution to national 
goals related to global competitiveness. Moreover, its breadth of 
permissible activities serves as a model that encourages and can be 
easily replicated by public and private entities that need to be 
enlisted in this monumental effort.
    There are two unique provisions that we think will broaden the 
reach of S. 414:
    1. It provides incentives for private and public contributions, and 
partnerships to address the technology needs of MSIs and to improve 
internet access and technology usage in the communities they serve. 
MSIs should be involved in the research and development of cutting edge 
technology to assure that they can secure and maintain state-of-the-art 
technology. Furthermore, they should be involved in the economic 
development of their communities around the new economy, including 
training as well as entrepreneurial development.
    2. It includes provisions for the assessment of this initiative to 
ensure that the funding needs of MSIs are met and that there is an 
equitable distribution of the funding. MSIs are diverse 
programmatically and geographically. Also, by virtue of the populations 
served, they have limited resources to stay abreast of this fast paced 
technology revolution. The role of the Department of Education in 
evaluating this project annually to determine its effectiveness in 
meeting the goals of this legislation and to determine appropriate 
levels of funding is very important. We hope, therefore, that adequate 
resources will be made available to carry out this function and to 
assure future support of this project.

                               CONCLUSION

    In conclusion, I want to assure you that NAFEO, AIHEC, and HACU are 
collaborating through the Alliance for Equity in Higher Education on 
matters affecting the future of our institutions and the communities we 
serve. The Alliance, with support from the Kellogg and Mott 
Foundations, works to build a consensus among MSIs in order to enhance 
our abilities to address common public policy issues. This year, we are 
devoting much of our attention to our technology needs, and we have 
formed an expert group made up of persons from our institutions to help 
assess our capacities and to develop strategies for addressing them. 
The Alliance, based in Washington, DC, also has submitted testimony for 
the record on behalf of its members and in support of S. 414. 
Additionally, we will be working collectively with the United Negro 
College Fund and other supporters for passage of S. 414.
    This concludes my testimony. Again, on behalf of the National 
Association for Equal Opportunity in Higher Education and its member 
institutions, I thank you for the opportunity to appear before you 
today. I would be happy to answer any questions.

    Senator Cleland. Thank you very much, Dr. Humphries. And 
that is the reason we are having the hearing today, to move 
this bill forward if at all possible. Thank you for your great 
contribution.
    Dr. Monette, welcome to the Senate here and this 
Subcommittee.

 STATEMENT OF DR. GERALD ``CARTY'' MONETTE, PRESIDENT, TURTLE 
 MOUNTAIN COMMUNITY COLLEGE; CHAIRMAN, COMMITTEE ON TECHNOLOGY 
    DEVELOPMENT, AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM

    Dr. Monette. Actually from North Dakota, Senator.
    Senator Cleland. That is what I thought. It says Turtle 
Mountain Community College. You are the President of Turtle 
Mountain Community College and the Chairman of the Committee on 
Technology Development of the American Indian Higher Education 
Consortium on Oronoco Street in Alexandria. Sorry about that.
    You came from what part of North Dakota?
    Dr. Monette. A place called Turtle Mountain. It is in north 
central North Dakota, right up on the Canadian border.
    Senator Cleland. We are glad to have you.
    Dr. Monette. Thank you.
    Thank you, Senator Cleland. And thank you too, Senator 
Allen. I also want to thank the rest of the Subcommittee for 
inviting me here to talk today. I am honored to be here as a 
spokesman for the American Indian Higher Education Consortium 
and also from my institution, which is the Turtle Mountain 
Community College located in North Dakota on the Turtle 
Mountain Band of Chippewa Indian Reservation. On behalf of the 
32 Tribal Colleges and Universities, we want to express our 
full support for S. 414.
    I also want to thank our own North Dakota Senator, Byron 
Dorgan, who was here earlier, for all the work that he does for 
Indian people and for tribal colleges. And he is not here to 
hear this, but Senator Dorgan of course has been a champion for 
many issues. And he is always willing to take the lead and 
sometimes stick his neck out for us. And we really appreciate 
that, and perhaps the message will be relayed to him.
    I have a full statement that has been prepared and has been 
presented for the record. I also have a written statement that 
I am going to refer to. It summarizes some of the main points 
of the larger statement.
    I want to make sure that I talk about three things. One of 
them I want to tell you about is tribal colleges. I think it's 
important that I take a little time to do that so that 
everybody has a little bit of understanding of who we are. 
Then, I want to discuss technology in Indian Country and 
strategies that tribal colleges are taking to bring new 
opportunities to all Indian people. And third, make a few 
comments on the legislation and some other legislation.
    First, tribal colleges are a fairly new movement in the 
country. In the mid-1990s, the Carnegie Foundation for the 
Advancement of Teaching dubbed the American Indian Tribal 
Colleges and Universities ``higher education's best kept 
secret.'' And that description has stayed with us, because it 
is fitting for a number of reasons.
    First of all, we are very small institutions and we are 
located in some of the most rural regions of the country. In 
fact, I was interested in Senator Wyden's mention of a report 
that he read; I believe it was in the newspapers; and also the 
other studies that were actually referred to. But the new data 
report that Senator Wyden had mentioned does not even include 
American Indians except as a small footnote. And the reason for 
that is because our population is so small, and our influence 
is so small, that we rarely are included in such studies.
    And what that does, the impact of us not being included in 
many of the studies and initiatives that take place results in 
us not having access to many of the opportunities that the rest 
of America enjoy. I was interested in that study and those 
comments.
    We may be young, but we are also growing very fast. The 
first tribal college was begun on the Navajo Nation in 1968. 
Since that time, we have grown to 32 institutions spread 
throughout the United States, our enrollments have increased by 
more than 1,300 percent. Most of the colleges are located in 
the North Central part of the country, but not all of them. We 
have some in the Southwest and the Northwest and in the Great 
Lakes regions of the country. All of the tribes in North Dakota 
and South Dakota have colleges, as do those in Montana. The 
Great Lakes tribes also have institutions. And we are expanding 
into other regions. There are colleges now located in Alaska.
    In only a few decades, in some cases less than 20 years, we 
have made tremendous impact on Indian Country. For example, and 
this is typical of all the institutions, Salish Kootenai 
College, located in Montana, which is in Senator Burns' State, 
also a great supporter for Indian programs and Indian people. 
In Montana, in 1976, less than 30 members of the tribe had 
earned a college degree. Well, since that time, Salish Kootenai 
College has graduated more than 400 tribal members. And that is 
a similar story throughout Indian Country.
    At Turtle Mountain in 1972 we had five individuals that had 
college degrees, and today there are hundreds of individuals 
that have college degrees. And many of those individuals come 
home. They attend our institutions, transfer to 4 year 
institutions, earn a degree and come home. That is the 
contribution I think tribal colleges are making to change the 
infrastructure of Indian reservations.
    Many of the colleges are offering bachelors' degrees today 
for the first time, graduating tribal members with 4 year 
degrees, mostly in education, but ready to expand into other 
areas, such as technology. According to one study, 75 percent 
of the tribal college graduates are employed in the local 
community or go on to another institution of higher education. 
And by comparison, American Indians who leave the reservation 
and enroll in mainstream colleges directly from high school 
have a failure rate of about 80 percent.
    Yes, we have grown fairly fast over the last three decades, 
but there are many serious challenges that we face. Most 
pressing, we remain the most poorly funded institutions of 
higher education in the country. Tribal colleges are not State 
institutions; and consequently, receive little, in most cases 
no State funding. Tribal governments that have chartered tribal 
colleges are not the small handful of wealthy gaming tribes 
located near major urban areas. Rather, our tribal governments 
are of the poorest governments and are located in the poorest 
areas of the country.
    In fact, three of the ten poorest counties in America are 
home to tribal colleges. My institution at Turtle Mountain is 
located in Rolette County, which is the 31st, I believe, 
poorest county in the country. So we represent some real rural, 
poor areas. We are trying to make change.
    The Federal Government, despite its trust responsibility 
and treaty obligations, has never fully funded our 
institutional operations, the Tribally Controlled College or 
University Assistance Act. For fiscal year 2003, the 
President's budget proposes an appropriation of slightly more 
than one-half of the authorized amount, or about $3,500 per 
full-time Indian student. Funding inequities in our operational 
support deepens problems such as the digital divide. And until 
Congress and the Administration address these shortfalls, we 
cannot cross the chasm that separates us.
    To be sure, gentlemen, this country suffers a serious 
divide. It is a division based on race, income and location. 
But to tribal colleges, information technology represents a 
tremendous digital opportunity. And we are determined to move 
forward, but barriers exist. Less than 50 percent of the homes 
on Indian reservations have a telephone, compared to nearly 95 
percent nationally. Less than 10 percent of American Indian 
homes have computers.
    For adequate Internet-based data and information sharing, 
most universities are requiring at least DS-3 connectivity. 
Only one tribal college currently has funding for high 
bandwidth connectivity, and it is not in place yet. All the 
tribal colleges have some degree of T-1 access, although most 
have only fractional T-1 access. One of our biggest problems, 
and there are many, the tribal colleges struggle to hire and 
retain technicians.
    We are determined to turn these statistics around. A few 
years ago we committed ourself to an initiative aimed at 
bringing our institutions to a circle of prosperity, a place 
where tribal traditions and new technologies are woven together 
to build stronger and more sustainable communities. To develop 
strategies for achieving our goals, the tribal colleges 
undertook a process never before attempted in Indian Country. 
We asked more than 150 individuals from all sectors of 
business, government, and our communities to help us develop, 
plan and refine a process for bringing opportunities of 
technology to Native America.
    To begin our work, we used the methodology called a 
Prosperity Game. It is a fast-paced, interactive simulation 
developed by Sandia National Laboratory from strategic war 
games and designed to help create and sustain productive change 
through strategy development and negotiation. During the three-
day Prosperity Game, an outline of a plan emerged, which has 
refined into the National Framework for Tribal College 
Technology.
    To guide this important effort, the National Framework for 
Tribal College Technology, (AIHEC), the American Indian Higher 
Education Consortium, has established a national coordinating 
office and launched a series of activities. And I am going to 
name a few.
    One of them is the AIHEC virtual library program. We 
partnered with the University of Michigan and others to build a 
tribal college virtual library that would enhance the meager 
library resources traditionally available in Indian Country. 
The library, which uses open source software, has been 
installed at more than 20 of the tribal colleges. And already 
the virtual library has made a difference in accreditation 
status of at least five tribal colleges.
    Last fall, the National Science Foundation awarded AIHEC a 
planning grant to begin to collaborate with NSF's National 
Science Mathematics, Engineering and Technology Education 
Digital Library Community, with the goal of ensuring a role for 
American Indians in the development of this national effort.
    Another initiative is with AN-MSI. For the past few years 
we have been actively involved with the Advanced Networking 
with Minority-Serving Institutions Initiative, an NSF-funded 
project managed by EDUCAUSE. The project is designed to improve 
networking architecture and Internet connectivity in remote 
areas served by MSIs. Although the funding is extremely 
limited, a number of initiatives are underway and we are 
actively leveraging our resources to create new opportunities.
    I want to mention one of these projects, because it is 
close to home. In order to provide high speed connectivity to 
remote campuses we are piloting state-of-art wideband wireless 
technology at four tribal colleges, including Turtle Mountain. 
And through this effort, the college will weave a wireless web 
of connectivity around our reservations, connecting institution 
sites, tribal offices, K-12 schools to one another, and then 
eventually, with other funding, to the Internet, to a high 
speed backbone running between the college and existing 
Internet to access points, such as our State university system.
    Of course, our long-term goals are to enable each tribal 
college to acquire and sustain a high speed broadband 
connectivity and then to build a Tribal College/University 
access grid that will weave a common web around the colleges 
and Indian Country. At the same time, we will be establishing 
collaborative relationships with people and institutions 
worldwide.
    I want to make a few comments on the legislation and some 
legislative recommendations before I close here.
    Senator Cleland. Dr. Monette, if you will just kind of 
begin to wrap it up.
    Dr. Monette. OK, very good.
    The legislation proposed by Senator Cleland would enable 
our progress to continue and we are looking at a few 
initiatives. In addition, we have what we are calling Indians 
Into Technology, and that would address the problem of 
information technology individuals on the reservations and at 
the colleges, and we are looking at a program that is similar, 
called ``Indian Into Medicine,'' that is run by the University 
of North Dakota at Grand Forks. Basically, it takes Indian 
people from the elementary, middle school, secondary, and 
college into the University, trains them to use technology and 
then allows them to return to the reservation to work with the 
tribal members.
    There are other things that we are searching for. The bill, 
S. 414, allows participation, as the other gentlemen have said 
very strongly, whether we are seeking basic connectivity or to 
upgrade existing equipment to build an access node. And 
opportunities must be available to all.
    In closing, Mr. Chairman, I want to reiterate our desire to 
work with you as builders and users of the new digital network 
technology program. We embark on new collaborations. I urge you 
to trust the tribal college leadership, allowing them the 
flexibility to design and develop meaningful and relevant 
strategies to address the unique and special needs of Indian 
communities. In so doing, we will create the kind of program 
that welcomes and even encourages participation by all segments 
of our diverse and rich Nation. And I thank you for your 
patience and information.
    [The prepared statement of Dr. Monette follows:]

 Prepared Statement of Dr. Gerald ``Carty'' Monette, President, Turtle 
     Mountain Community College; Chairman, Committee on Technology 
        Development, American Indian Higher Education Consortium

    Mr. Chairman and distinguished members of the Committee, thank you 
for inviting me to testify before your subcommittee today. My name is 
Dr. Gerald Monette. I am honored to be here as spokesperson for the 
American Indian Higher Education Consortium and as president of Turtle 
Mountain Community College, which is located in north-central North 
Dakota on the Turtle Mountain Band of Chippewa Reservation.
    On behalf of this nation's 32 Tribal Colleges and Universities 
(TCUs), I want to express our strong support for S. 414, the NTIA 
Digital Network Technology Program Act. I also want to thank the 
members of this subcommittee, in particular Senators Max Cleland, 
Conrad Burns, and Byron Dorgan, for your efforts on behalf of tribal 
colleges and all minority-serving institutions.
    For this afternoon's hearing, I have organized my testimony in 
three parts: (1) brief history of the tribal college movement; (2) 
background on technology in Indian Country and strategies the tribal 
colleges have taken to bring new technological opportunities to our 
people; and (3) legislative recommendations for the subcommittee's 
consideration.

                      THE TRIBAL COLLEGE MOVEMENT:

    In the mid-1990s, the Carnegie Foundation for the Advancement of 
Teaching dubbed American Indian Tribal Colleges and Universities 
``higher education's best kept secret.'' The title has stuck, for a 
number of reasons: We are small institutions, located in some of the 
most rural regions of this country. Turtle Mountain Community College, 
for example, is situated along the U.S.-Canada border in a beautiful 
wooded region that may have more lakes and geese than buildings and 
people.
    Tribal colleges are young institutions--ranging from two to 33 
years in age, but we are growing rapidly. Since the first tribal 
college was established on the Navajo reservation in 1968, we have 
grown to 32 institutions in the U.S, and our enrollments have increased 
by more than 1300 percent. Today, all seven tribes in Montana and all 
five tribes in North Dakota have colleges. Tribal colleges are also 
located in the southwest, the Great Lakes, and the upper Northwest. We 
are expanding in all regions, including Alaska.
    In only a few decades, we have made a tremendous impact on Indian 
Country. For example, before 1976, when Salish Kootenai College (SKC) 
was established in Senator Burns' home State of Montana, less than 30 
members of the Salish and Kootenai tribes had earned a college degree. 
Between 1976 and 1994, SKC graduated more than 400 tribal members. 
Today, Salish Kootenai College offers a number of bachelor's degree 
programs. Students around the world take SKC courses through its 
Internet-based international distance education programs.
    According to one study, 75 percent of tribal college graduates are 
employed in the local community or go on to another institution of 
higher education. By comparison, American Indians who leave the 
reservation and enroll in mainstream colleges directly from high school 
have a failure rate of about 80 percent.
The typical tribal college student is:
    <bullet> part-time, like the majority of community college 
students;
    <bullet> an Indian woman;
    <bullet> about 31 years old;
    <bullet> single with young children; and
    <bullet> often dependent on welfare or her extended family for 
support.

    Many students are in need of basic remediation. And for many, the 
next nearest college is well over 100 miles away.
    Because our colleges are located primarily on rural and remote 
Indian reservations, our student population is relatively small. 
Collectively, we serve more than 30,000 full- and part-time students. 
We offer a wide range of certificate, associate and bachelor degree 
programs, tailored to meet the needs of our local communities. Two 
tribal colleges offer graduate degrees. All of the tribal colleges are 
fully accredited--or candidates for accreditation--by national 
accrediting associations. All of the tribal colleges have articulation 
agreements with 4-year institutions to ensure a seamless transition for 
students interested in pursuing further degrees at other institutions.
    In addition to offering general academic, basic, and remedial 
education programs, an important mission for each tribal college is to 
work closely with its tribe to plan for and develop reservation-based 
economies and create sustainable social and economic programs for our 
people. Several colleges operate ``Tribal Business Information 
Centers,'' local resources for business planning and entrepenuership.
    Over the past 30 years, tribal colleges have grown tremendously, 
yet we face serious challenges. We remain the most poorly funded 
institutions of higher education in this country:
    (1) Tribal colleges are not State institutions, and consequently, 
we receive little or no State funding.
    (2) Tribal governments, though supportive of the colleges, are 
underfunded themselves. These tribes are not the small handful of 
wealthy gaming tribes located near major urban areas. Rather, they are 
some of the poorest governments in the nation. In fact, three of the 
five poorest counties in America are home to tribal colleges.
    (3) The Federal Government, despite its trust responsibility and 
treaty obligations, has, over the years, not considered funding of 
American Indian higher education a priority. For fiscal year 2003, the 
President's budget proposes an appropriation of slightly more than one-
half of the authorized amount, or about $3,500 per full-time Indian 
student.
    Through our consortium, AIHEC, we are working to address these 
challenges. AIHEC's mission, in part, is to ``nurture, advocate, and 
protect American Indian history, culture, art, language, and the legal 
and human rights of American Indian people to their own sense of 
identity and heritage. . .'' These responsibilities are carried out in 
a number of ways, including through an exciting and extensive 
technology initiative.

               BACKGROUND ON TECHNOLOGY IN INDIAN COUNTRY

    We believe that technology will help TCUs overcome current 
inequities and could hold the key to our future success. To be sure, 
this country suffers a serious divide, and it is a division based on 
race, income, and location. But to tribal colleges, information 
technology represents a tremendous ``digital opportunity.''
    Today, information technology is an integral part of teaching, 
learning, and research in higher education. Every college in the Nation 
either has or is reassessing its role in light of the implications new 
technology brings for pedagogy and research. For tribal colleges and 
other minority-serving institutions--which are generally the nation's 
poorest and most isolated institutions--the opportunities are nearly 
endless. We can--and must--participate in the development of strategies 
and technology solutions vital to ensuring that our students and 
communities are fully included in this nation's prosperity.
    Tribal colleges are determined to move forward, and we have made 
remarkable progress, but barriers still exist. Most of the colleges and 
our reservations lack basic infrastructure: reliable and high-speed 
Internet connections, adequate telephone service, appropriate numbers 
of credentialed personnel, and hardware and software that is taken for 
granted at most mainstream institutions. For example:
    <bullet> Telephones: Less than 50 percent of homes on reservations 
have telephones, compared to 95 percent nationally;
    <bullet>  Computers: Less than 10 percent of American Indian 
households have computers, compared to about 50 percent of white 
Americans, 25.5 percent of Hispanics, and 23 percent of African 
Americans;
    <bullet> Internet Access: No more than 8 percent of all American 
Indian homes have access to the Internet;
    <bullet> Web sites: Only about one in five American Indian tribal 
governments have web sites (558 federally recognized tribes exist in 
the United States);
    <bullet> TCU Connectivity: For adequate Internet-based data and 
information sharing, most universities require at least DS-3 
connectivity. Only one tribal college currently has funding for high-
band width connectivity, but it is not in place yet. All of the tribal 
colleges have some degree of T-1 access, although most have only 
fractional T-1 access.
    <bullet> Trained Technicians: Tribal colleges struggle to hire and 
retain technicians. Annual starting salaries for faculty can be as low 
as $21,000; consequently, technology staffs are paid at least two times 
below industry averages.
    <bullet> Industry Partnerships: Tribal colleges have not yet 
established the kind of mutually beneficial relationships with key 
industries that lead to economic opportunity, relevant academic and 
training programs, and ultimately, prosperity.
    Tribal colleges are determined to turn this situation around. A few 
years ago, we committed ourselves to an initiative aimed at bringing 
our institutions to a ``Circle of Prosperity,'' a place where tribal 
traditions and new technologies are woven together to build stronger 
and more sustainable communities.
    First, we agreed collectively on two goals, which are the core of 
the Circle of Prosperity initiative. These goals are:
    (1) to enable each tribal college to improve its technology 
infrastructure in a manner that fulfills its mission and objectives 
related to the needs of its students and community; and
    (2) to develop tribally and culturally centered applications of 
information technology.
    To develop the most cost-effective and locally relevant strategies 
for achieving the goals, the tribal colleges undertook a process never 
before attempted in Indian Country: we reached out to 11 major local, 
national, and international stakeholder groups and ask more than 150 
representatives to help us develop, plan, and refine a process for 
bringing the opportunities of technology to Native America. To begin 
our work, the colleges used a methodology called a ``Prosperity Game,'' 
a fast-paced, interactive simulation developed by Sandia National 
Laboratory from strategic war games and designed to help create and 
sustain productive change through strategy development and negotiation. 
During the 3-day Prosperity Game, an outline of a plan emerged. Later, 
a smaller group came together for a 2-day ``crafting circle'' event, 
which helped refine strategies and action steps and laid the groundwork 
for the ``National Framework for Tribal College Technology''.
    To guide this important effort, AIHEC has established a national 
coordinating office and launched a series of activities representing 
the initial phase of the National TCU Technology Framework. These 
activities include strategic technology planning, partnership building, 
resource generation, policy development and development of pilot 
projects among tribal colleges, Federal, state, and tribal entities, 
and the private sector. Some ongoing activities, which are all part of 
the larger national effort to develop a national framework for TCU 
technology, include:
    Distance Education: Through the Internet and other information 
technology applications, many tribal colleges are already enriching 
their curricula and supplementing limited learning resources. An 
expanding ability to network with other colleges, universities, and 
tribal institutions is enabling the colleges to share knowledge beyond 
reservation boundaries and bring to their communities technology and 
information that can be transferred to support community and economic 
development. For example, Bay Mills Community College, located in a 
refurbished fish plant in Michigan's Upper Peninsula, is using 
technology and distance learning to deliver higher education to all 11 
tribes in Michigan and to people in 17 other states, from Florida to 
Alaska.
    Virtual Library: Through our virtual library initiative--a 
partnership including AIHEC, the University of Michigan's School of 
Information, IBM, and the W.K. Kellogg Foundation--the tribal colleges 
have developed an Internet-based library designed to enhance the meager 
library resources traditionally available in Indian Country. (i.e. 
http://www.bmcc.org/vlibrary/index.html). The virtual library, which 
uses open source software, has been installed at more than 20 colleges. 
Over the next several months, all of the colleges should be on-line 
with locally controlled library web sites. These custom-tailored sites: 
(1) provide student and community access to local TCU library and 
curricula resources; and (2) interface with a much larger AIHEC virtual 
library data base of commonly available and licensed resources (i.e. 
national and international education journals)
    Already, the virtual library has made a difference in the 
accreditation status of at least five tribal colleges. Last fall, the 
National Science Foundation awarded AIHEC a planning grant to 
collaborate with NSF's National Science, Mathematics, Engineering, and 
Technology Education Digital Library community. This grant, like the 
Kellogg-funded project, will continue our partnership with the 
University of Michigan's Alliance for Community Technology 
(www.communitytechnology.org).
    AN-MSI: Through a $6 million 4-year grant from the National Science 
Foundation to EDUCAUSE, AIHEC is partnering with other MSIs and the 
extensive EDUCAUSE network on the ``Advanced Networking with Minority-
Serving Institutions'' (AN-MSI) project. (See www.anmsi.org and 
attached articles, www.syllabus.com/syllabusmagazine/
article.asp?ID=4574, and www.educause.edu/ir/library/pdf/erm0112.pdf). 
The project is designed to improve networking architecture, improve 
Internet connectivity in remote areas served by MSIs, help college 
presidents and administrators improve our knowledge of technology, 
assist colleges in strategic technology planning, and improve technical 
support through collaboration (i.e. remote technical support).
    Through AN-MSI's limited funding, we have been able to achieve 
incredible results, largely because we have worked concertedly to 
develop a strong network of technical expertise within the tribal 
college system and because we leverage this funding to the maximum 
extent possible. A number of initiatives are currently underway, but I 
will mention only one--the wireless initiative--and refer you to the 
attached articles for information on other projects.
    To provide high-speed connectivity to remote institutions and their 
satellite campuses, we are piloting state-of-the-art wide-band wireless 
technology at four tribal colleges, including Turtle Mountain Community 
College. Through this effort, the colleges will weave a wireless web of 
connectivity around our reservations, connecting institution sites, 
tribal offices, and K-12 schools to one another, and eventually, to the 
Internet through a highspeed backbone running between the college and 
existing Internet2 access points or State university systems. Our goals 
are to enable each TCU to acquire and sustain high-speed broadband 
connectivity, and then to build a TCU access grid that will weave a 
common web around all of the colleges and Indian Country. At the same 
time, we will be establishing collaborative relationships with people 
and institutions worldwide.
    NSF-TCUP: In Fiscal Year 2001, the president and Congress created a 
new $10 million program within the National Science Foundation to help 
tribal colleges develop and train an American Indian IT workforce and 
improve STEM programs. In the first year, 13 tribal colleges and two 
Alaska Native-Serving institutions received a mix of planning and 
implementation grants. We are currently in the second year of this 
program, with the expectation that a handful of institutions will 
receive funding later this year. We are very grateful for this 
significant new opportunity, and look forward to implementing and 
expanding it in the years to come.
    A number of other initiatives are underway, including private 
sector partnerships with IBM, Microsoft, and CISCO; partnerships with 
Federal agencies such as NASA and DoD; and partnerships with other MSIs 
and mainstream institutions, including an initiative to develop a web-
based Collaboratory for research and education.
    Mr. Chairman, we are making progress, and we hope to work with you 
to ensure that our progress continues. We want to work with you to 
ensure that each and every tribal college has access to the resources 
it needs to develop and use technology in a manner consistent with its 
mission and tribal community. We would like you to join our effort to 
construct the national framework for TCU technology--to build 
partnerships, create resource opportunities, and build networks between 
tribal colleges and the private sector. In short, we would like to work 
together to ensure that all tribal colleges and tribal communities 
reach the Circle of Prosperity.

                      LEGISLATIVE RECOMMENDATIONS

    Enactment and funding of the legislation proposed by Senator 
Cleland and his cosponsors would help the tribal colleges turn our 
goals into reality. In our view, this legislation represents an 
investment--a down payment--that will pay education and economic 
dividends for generations to come.
A. National TCU Technology Framework Strategies:
    The legislation appears fair and well reasoned, and we believe it 
is sufficiently broad to fit the 8-part strategy AIHEC is developing to 
achieve our goals for the national TCU technology framework. As 
outlined above, we have already begun working on some of the strategy's 
action steps, but I believe a summary of each strategy will give the 
subcommittee some issues to think about as the legislation is refined 
and modified.
    Our strategies, which we hope will fit into the final legislative 
initiative, are:
    <bullet> Infrastructure: Ensure that resources and relationships 
are in place to help develop and sustain appropriate technology-related 
infrastructure at each TCU, including connectivity, facilities, 
hardware, and software.
    <bullet> Leadership & Coordination: Facilitate the development and 
continuous evaluation of individual TCU technology strategic plans; 
establish a national TCU technology advisory board; and develop policy 
and funding strategies.
    <bullet> Partnerships: Build partnerships with industry, Federal 
agencies, other colleges and universities, K-12 schools, and 
communities to assist TCUs and their communities in improving their 
education systems, developing their economies, enriching and protecting 
their heritage, and improving quality of life.
    <bullet> Education & Human Resources: Ensure that TCUs have 
capacity to evaluate and adopt emerging technology-mediated teaching 
tools and strategies; encourage development of on-line degree programs 
offered individually and through consortia; assist in creating faculty 
development programs to ensure that instructors are competent to teach 
and use emerging technologies; increase access to online curricular 
materials; create adjunct faculty resource pools that can be shared by 
all TCUs; and assist TCUs in implementing student assessment 
strategies.
    <bullet> Research & Development: Enhance TCU research capabilities 
by encouraging linkages to national super-computing infrastructure 
initiatives (Access Grid); participating in Internet2; establishing 
local cluster computing projects; adopting low-cost Internet-based 
collaborative tools (Collaboratory); creating opportunities for 
research partnerships with non-TCU centers and laboratories and among 
TCUs; developing research projects targeting critical areas (i.e. 
health, environment, energy); and developing community-based technology 
transfer programs involving TCUs and industry.
    <bullet> Culture: Establish an advisory group of cultural experts 
from TCU communities who will assist in developing culturally 
appropriate applications for the virtual library and other initiatives; 
and establish and strengthen linkages with other technology-based 
national and international indigenous initiatives, including 
development of ongoing projects with the National Museum of the 
American Indian.
B. Specific Recommendations
    In addition to the broader strategy areas discussed above, we would 
like to briefly mention a few specific issues and ideas for your 
consideration:
    1. ``Indians into Technology'' Program: In response to a critical 
need for medical professionals from and in Native communities in the 
mid-1970s, Congress authorized funding for an innovative educational 
program at the University of North Dakota-Grand Forks (http://
www.med.und.nodak.edu/depts/inmed/). Through the ``Indians Into 
Medicine'' (INMED) program, American Indian students receive vitally 
needed educational and personal support from elementary through 
professional school. INMED includes summer sessions for students from 
elementary school through college; junior and senior high school bridge 
programs; a tribal college bridge program; summer medical school 
preparation program for college juniors and seniors and recent 
graduates; and ongoing educational and personal support programs for 
medical and graduate school students.
    In recent years, INMED has expanded to other institutions of higher 
education in Indian Country. Because of similarities in demographics 
and need, a similar comprehensive education and support program could 
significantly impact efforts to develop and maintain an American Indian 
information technology workforce. We urge the Committee to consider 
establishing and funding an ``Indians into Technology'' program within 
the Departments of Commerce or Labor.
    2. Remote Technical Support: Because the tribal colleges are small, 
underfunded and geographically remote, hiring, training, and retaining 
qualified information technology support staff is very difficult. We 
have very good people at our schools, but often, they need a little 
extra support and guidance. Targeted funding to encourage and sustain 
remote technical support, training cohort programs, and student-based 
IT technical support models such as the University of Wisconsin model 
could be very beneficial to all minority-serving institutions.
    3. Strategic IT Planning: The need for ongoing strategic planning 
is paramount to any major initiative or institution. In this area, with 
technology rapidly evolving and new opportunities becoming available 
from all sectors, strategic planning for coordination and growth is 
essential. Specifically, planning needs to be focused on the unique 
nature and mission of institutions of higher education. Possible models 
include the AIHEC/AN-MSI partnership currently underway to provide 
technical assistance to NSF-TCUP grantees. Working closely with experts 
from the tribal college and MSI communities, AIHEC and AN-MSI are 
sponsoring teams that will visit colleges to: (1) document, assess, 
and, if necessary, help improve current networking architecture; (2) 
increase awareness of technology trends and issues among college 
leadership and faculty; and (3) begin or expand the process of 
community-based IT strategic planning. Funding to expand this effort 
and ensure strategic IT planning, possibly through the Department of 
Education's Titles III and V programs for Institutional Development, or 
the National Science Foundation, could be a wise investment.
    4. Opportunity Parity: An advantage to the breadth of S. 414's 
language is that tribal colleges and other MSIs can compete for funding 
regardless of where they are on the ``technology spectrum.'' The 
language would appear to allow funding, regardless of whether the 
college is seeking basic connectivity or upgrading an existing system 
to build an access node. As new federally funded programs are 
developed, Congress should bear in mind the degree to which 
institutions vary and strive to make opportunities available to all. An 
institution should not be penalized because it currently lacks basic 
connectivity and e-mail service, but neither should an institution be 
excluded from participation because it made investments early, before 
dedicated funding existed, and now seeks upgrades or replacement for 
aging equipment. All programs must address this fundamental issue of 
``opportunity parity.''
    5. E-rate Eligibility: The federally created E-rate program has 
been tremendously successful in bringing affordable telephone and 
Internet services to the nation's K-12 schools. Just last month, the 
Bureau of Indian Affairs successfully completed connecting all of its 
schools to the Internet, and most, if not all, of these schools receive 
some level of E-rate funding. Currently, the program is not available 
to tribal colleges, despite the extensive work we do with our K-12 
schools. We respectfully request that the Congress consider expanding 
the E-rate program to include tribal colleges.
    Mr. Chairman, in closing I want to reiterate that the tribal 
colleges are committed to educating and training a new workforce, 
moving more people from welfare to work. We are committed to working 
with private industry to bring offshore jobs back home to the United 
States. We are committed to revitalizing our communities and America's 
economy through entrepreneurship. And we are committed to plowing any 
investment made by the Congress back into the education system in 
Indian Country, building a bridge of technological opportunity across 
our vast nation.
    Thank you.

    Senator Cleland. Thank you very much, Dr. Monette. We 
appreciate you being here. Now I go to some questions here.
    Mr. Gray, S. 414 specifically creates a new grant program 
which would have a designated funding stream to be used for the 
sole purpose of improving technology access and training in 
minority-serving institutions. There are those, however, who 
believe that we can make the best use of Federal dollars by 
consolidating technology programs into a single flexible State 
block grant program. Could you please compare the two 
approaches, block grant versus specific targeted grant program, 
in terms of effective use of Federal funds for technology 
programs?
    Mr. Gray. With the Federal block grant approach, what you 
are really doing is giving a large portion of money to States 
to make the decision at a State level on how to make the 
investments. Of course, that has some appeal because you can 
argue it is closer to the people and most State legislatures 
will be more responsive. But I think in terms of the UNCF 
experience that I would also ask my colleague, Dr. Humphries, 
who is head of NAFEO, to speak on this.
    I think our past history has shown that the States have not 
always treated HBCUs equitably. I cannot speak for HSIs or for 
our tribal colleges, but historically the block grant approach 
from the States has not treated HBCUs equitably, and therefore 
that is why the Federal Government starting in the 1960s 
started targeting money and has continued to do so for 
minority-serving institutions such as HBCUs.
    Senator Cleland. Dr. Humphries, any comment on that?
    Dr. Humphries. Yes, sir, I want to just tell you that I 
ditto my colleague's comment and to tell you that unequivocally 
the best form of making sure that the digital divide issues are 
addressed via the funding of this bill is direct, targeted 
grants to the individual institution. And that enjoys my 
highest recommendation.
    Senator Cleland. Thank you.
    Dr. Flores, any comment?
    Dr. Flores. On that question?
    Senator Cleland. Yes, sir.
    Dr. Flores. Yes, most definitely I endorse what my 
colleagues have expressed and it is simply the fact that when 
you disburse block grants to the States, obviously you are 
delegating authority and responsibility for the application of 
the funds within broad guidelines, and not always is it the 
case that those in greatest need will end up getting the 
support from those block grants.
    In the case of responsive institutions, if you look around 
the country where we have the largest concentrations of these 
institutions, such as California or Texas, New Mexico and so 
forth, you will find that for the most part, Hispanic-serving 
institutions do not enjoy the type of support at the State 
level that other institutions receive, and that goes for just 
about everything that has to do with institutional capacity 
building. So my sense is that these institutions will be much 
better served if the funding goes directly to them as opposed 
to leaving it to the discretion of the States.
    Senator Cleland. Thank you.
    Dr. Monette, any comment on that?
    Dr. Monette. Thank you, Senator.
    Briefly--of course, Indian people have this relationship 
with the Federal Government that was established through the 
treaty process, court decisions, legislation, Executive Orders, 
and the relationship with the Federal Government is recognized 
by the States and it is really difficult for us to get a fair 
share, I will say, of funding once it goes into the State in 
block grant form. So I would, of course, support the statements 
of the gentlemen on the panel and would elevate that a little 
bit because of the special relationship that Indian people 
have.
    Senator Cleland. Thank you all very much.
    Mr. Gray, again we will start with you. S. 414 requires any 
eligible institution to provide a matching amount equal to one-
fourth of the grant, or $500,000, whichever is less; however, 
the match requirement is waived for any institution that has an 
endowment less than $50 million.
    I am told that there are only four HBCUs, two of which are 
UNCF member institutions, that would have to come up with match 
money. Do you believe the bill's match requirement would cause 
some hardship on these four institutions?
    Mr. Gray. I think that the match requirement can be a 
hurdle, and a difficult one for many of these institutions 
because of the nature of the institutions, the constituency 
that they serve, and the fact that they do not have access to 
outside resources from wealthy alumni.
    Some HBCUs have experienced problems raising matching money 
for Federal programs. One that I would hold up for you an 
example is the Historic Preservation program of the Department 
of Interior that had a match as a component. Very well-meaning 
program, but it meant that colleges had to go out and raise 
match money in order to save historic buildings.
    I do believe, however, if you can keep the match--and if 
there needs to be a match, and I can understand the pressure 
for a match--if you can keep it a very low one, such as 25 
percent, that might be acceptable. But once you start raising 
it to 50 percent and making it a large portion, I think it 
becomes very, very difficult. There are only four historically 
black colleges and universities that I know of, and I do not 
think any of the tribal colleges have endowments that would 
even trigger the matching requirement.
    Senator Cleland. Thank you.
    Mr. Gray. In most black colleges, the average endowment is 
somewhere around about $20 million.
    Senator Cleland. Dr. Monette, the Technology Opportunities 
Program, or TOP program, is a very popular program. I am told 
that approximately 10 percent of TOP grants go to tribal 
communities. If the TOP program is eliminated, as President 
Bush has recommended in his fiscal year 2003 budget, what 
impact do you believe this would have on Native Americans' 
access to the information highway?
    Dr. Monette. Thanks for the question. It is true that the 
TOPs program has been very helpful to Indian country. There is 
also a match requirement to that program, although they work 
well with Indian people that work around that and that is one 
of the better programs.
    Some other Commerce Department grant programs require a 
match that we just cannot apply for, we cannot receive, also 
Department of Energy programs. But the TOPs program, you know, 
we get a little bit out in Indian Country and we see some hope 
and some opportunity there. And we start to develop the 
technical expertise to access that money and we get the 
infrastructure in place, and we get the people excited and get 
the community excited, and then they take it away.
    So if that program is eliminated, then it is going to have 
a tremendous effect on that is going on in Indian Country 
today. And, you know, even this year the President, I believe, 
has cut the TOPs program, I do not know the amount, maybe $12 
million or something, and that is going to have an effect on 
Indian people. And I think, you know, we are at the tail end of 
this technology growth in the world, and we are just now 
beginning to reach a point where we can access some of these 
monies and I think, you know, if program like TOPs disappear, 
then it is going to have a tremendous impact.
    Senator Cleland. Thank you very much.
    Dr. Flores, in testimony to the Congressional Web-Based 
Education Commission, the Hispanic Association of Colleges and 
Universities stated, and I quote: ``Hispanic-serving 
institutions `can make a significant impact upon the digital 
divide in the Hispanic community just like they are making upon 
the overall educational success of Hispanics. They have this 
special responsibility, but often do not have the funds to 
implement their Hispanic targeted programs.' ''
    Dr. Flores, how do you think a program like the one 
envisioned in S. 414 could actually help improve both the HSIs 
and the Hispanic community's access to technology?
    Dr. Flores. Sure. Obviously technology is a very high-cost 
item for minority-serving institutions. First the investment in 
expertise to do effective planning. Second, you need to also 
invest very heavily in hardware and software, all of the 
aspects that go with infrastructure. You, in addition, have to 
invest in faculty training and development; upgrading and 
maintenance come later. So all in all, all of this enterprise 
represents a major investment for an institution to do it right 
and because of the lack of the resources that well-endowed 
universities, large research institutions enjoy as compared to 
Hispanic-serving institutions and minority-serving 
institutions, quite frankly I believe this type of support will 
make a tremendous difference, for all the reasons I haven't 
expressed already in terms of our institution not having large 
endowments, not having wealthy alumni, not having all of those 
other things that go with acquiring more resources to include 
themselves in their capacity.
    So I believe that this would really be helpful to minority-
serving institutions for all of those reasons.
    Senator Cleland. Thank you very much, Dr. Flores.
    It has been suggested that Senator Allen and I go back and 
forth and exchange questions here. So Senator Allen, it is your 
turn, sir, if you would like to take it.
    Senator Allen. Thank you, Mr. Chairman. I want to thank 
each of these individuals for their outstanding testimony. In 
Virginia, one has a view of Virginia, and it is great to be 
here to listen to people from all over the country and 
recognize the richness and the diversity of challenges and 
opportunities we have all across our Nation.
    Each of you made outstanding remarks. I was taking notes. 
It was very inspirational. Dr. Flores and Dr. Monette, 
Congressman Gray and Dr. Humphries, I guess I have got various 
questions to you all.
    Let me follow up on Senator Cleland's question to you, Dr. 
Flores, because in listening to this, you were talking about 
endowments and whether it is an Hispanic institution or whether 
it is an historically black college, whether it is a tribal or 
an American Indian college, a lot of the endowments of 
universities are determined a great deal by the income of their 
graduates. And you will find that many, in listening to this, 
there are some colleges and universities in Virginia that are 
pretty new, some of them historically black, others, though, 
that are new and not historically black or American Indian or 
Hispanic, but nevertheless they are having the same sort of 
troubles because they do not have graduates who can contribute. 
A lot of it is the age of the university as well as the income.
    Do you see, Dr. Flores, ways that the Federal Government 
can help foster, say, partnerships between HSIs and private 
companies and non-profit organizations? If you would share with 
us those.
    Dr. Flores. Most definitely. I think the opportunity is 
very clear, that corporate America I think has understood, 
perhaps more readily sometimes than institutions of government, 
the importance of workforce development and workforce 
retraining and our high-technology-driven economy is requiring 
them to be even more on top of that matter. And therefore, they 
are much more willing to reach out. In fact, our association 
now has partnerships with a number of corporations, including 
IBM, to provide hardware and so forth and services to our 
institutions at a significantly reduced cost.
    We are entertaining all the possible activities, including 
faculty development and the labs, internships for our students 
and graduates and a host of other things, so that the models 
that are already there, and I think with some encouragement 
from the Federal Government, more corporations will go even 
deeper into this possibility of partnering with institutions 
that need to prepare larger numbers of highly qualified 
employees for the new economy.
    Non-profits, of course, are a very important part of our 
communities and they need to be part of the solution as well 
and be incorporated into partnerships of that kind.
    Senator Cleland. Senator Allen, I am told by staff that 
this bill actually authorizes and encourages partnerships 
between businesses, including minority businesses, to partner 
together for this kind of workforce development that you are 
very, very much interested in. So this bill allows and 
encourages partnership with the private sector.
    Senator Allen. That is good, because I do find that very 
important if there are any encouragements in that regard and 
not just for minority businesses, but those that may be headed 
by--you know, very big business, CISCO, and John Chambers is 
from West Virginia and Georgia, and I think very much 
appreciates the importance of education. And in listening to 
Dr. Monette and you, Dr. Flores and others, what we are talking 
about, it is a question of income, it is a question of 
location, and some of this would fit in--now granted, they are 
not minority population, but in Southwest Virginia, in the coal 
fields or Appalachia, fit many of the same demographics, maybe 
not the same racial, but the income and location, same sort of 
challenges in some of the mountain areas of Appalachia that 
have an economy based so much on coal, and coal is is not doing 
as well as it had been decades ago. So many face these 
challenges.
    And then Dr. Monette talked about medical professionals. 
Same thing, rural areas, trying to ensure that primary care 
physicians and other medical professionals go into rural areas, 
and not just go into the suburbs or the city areas. These are 
challenges faced by many.
    Dr. Humphries spoke on the H1-B visa waivers and so forth. 
And I felt the same way about that years ago. I have seen it 
all. And of course you are at Florida A&M. And as a young pup I 
remember Willy Galimore played for my father, and unfortunately 
died in a car wreck.
    But while I was Governor, one of your sterling graduates, 
who I took away from a historically black university to make 
our Deputy Secretary of Education, Will Bryant, a great man, 
and my successor made him Secretary of Education. He was at 
Virginia Union, but a good Rattler graduate from Florida A&M.
    At any rate, the H1-B visas for bringing in folks from 
other countries fits right into what Congressman Gray was 
saying. And that is, we are bringing in people to this country, 
people who are technologically proficient to help our 
businesses. You look at a quarter to a third of our population, 
that for a variety of reasons are not being motivated and not 
as a bottom line getting a good education, so that they can 
seize those opportunities and those good jobs. And that is 
exactly what you said, Congressman Gray or Chairman Gray. This 
issue is one of the future of our society, the competitiveness 
of our civilization, as well as obviously the individual 
opportunities for these youngsters to seize these 
opportunities.
    Now, do you see that there are any barriers, Dr. Humphries, 
to historically black colleges, universities, and private 
companies to work together? Are there any Federal barriers 
stopping you, or is it a question of coming up with new ways to 
invent it?
    Dr. Humphries. There aren't any barriers except the extent 
or the degree to which the broad masses of universities and 
colleges that have to be worked with. So I see that corporate 
America certainly and private sector activities can work with 
historical black colleges and universities and partner. It is 
going to be difficult for them to partner with all 118 of our 
institutions in regard to that.
    So if we are talking about a sphere of 20 institutions, 
over time I think all of them could be worked with. But time is 
not our friend. So I think that you would be asking corporate 
America a difficult proposition to say you have got to work 
with all of these institutions to bring them up to snuff, to 
help bring them up to snuff, along with our Federal program 
over the period of this bill, which is up to 2000--I think 7, 
that one was talking about in the bill.
    And so I think every avenue ought to be used to help get us 
there, and that includes partnerships with corporate America. 
But I think that it is going to be difficult. It is going to be 
a difficult proposition to say you bring all 114 up to snuff in 
terms of this thing.
    But certainly it is doable, it is desirable, and I think 
that they will. So I just think the numbers represent a 
challenge in going forward, but willingness and the lack, is 
just terribly--I think it is there, and companies will work 
with HBCUs to do that, and they will work very effectively to 
do it. But I think it is going to be a challenge for everyone 
to talk about 114 institutions--118 institutions being brought 
up to snuff over the course of time.
    Senator Allen. Putting that together with your answer, and 
back to having to bring people in from other countries, and I 
think that the folks that have been brought in on H1-B visas 
have been very helpful and productive for our country. 
Obviously, with the technology sector in a recession right now 
there is not quite the same demand as there was a few years 
ago.
    But nevertheless, when you think of it all, and I saw when 
we created a new engineering school at VCU in Richmond, in 
engineering there are so few women and so few minorities that 
are involved in some of these sciences to take advantage of 
these jobs. Now it is remarkable the number of minorities and 
women at VCU's School of Engineering. It is a new engineering 
school. It is only 4 years old or so, although in 
microelectronics it has the most advanced clean room for 
microelectronics, thanks to Motorola's grant of several million 
dollars.
    Just to show how important this is, and I do not know the 
answer, maybe Congressman Gray could answer it. What percentage 
of students at historically black colleges and universities 
graduate with science, mathematics, or computer sciences 
degrees?
    Mr. Gray. In terms of the historically black college 
community and African Americans, the vast majority of African 
Americans who get a degree in engineering or science graduate 
from HBCUs to the tune of, for instance, if you take 
engineering alone in all of its forms----
    Senator Allen. Right.
    Mr. Gray [continuing]. The top seven schools that produce 
engineers in America, six of them are historically black 
colleges. Only one is a majority institution, and that is 
Georgia Tech. And Georgia Tech is No. 1 not only because of its 
very unique recruitment program, but also because it has a 
combined program with Spellman College and Morehouse College, 
two of our schools.
    But you have Florida A&M, you have Howard University, 
Tuskegee, North Carolina, Grambling, and Prairie View. Those 
seven schools graduate over 70 percent of African Americans who 
will get an engineering degree this year. And you will find 
that kind of pattern, HBCUs mixed with some majority 
institutions.
    And when you say in terms of the total numbers, African 
Americans are probably, in terms of all engineers that are 
graduating this year, will probably be in the single digits, 
high single digits to low double digits of all of those, in 
terms of just African Americans. That is not sufficient.
    You have two issues that you have to address. One is a 
pipeline issue, and that pipeline issue starts K through 12.
    Senator Allen. Right.
    Mr. Gray. But it does not have to exist only there.
    The other issue is an issue in higher education, and that 
is institutions developing, attracting minorities to their 
engineering and their science programs. Georgia Tech has done 
an unusual job. They were not even in the top ten 15 years ago. 
Now they are number one. And they have developed special 
recruiting, mentoring, etc.
    And so you can turn those numbers around, but you have got 
to do it in two places, one, at the pipeline. But not just at 
the pipeline. You also have to change higher education in 
America, change engineering schools, change engineering 
professors who begin to believe, as Dr. Humphries used to teach 
at Florida A&M, that every kid who walks through our door, even 
though they may not have gone to the best math high school in a 
State, we can turn them into mathematicians, we can turn them 
into engineers. And guess what? In 4 years they do.
    Dr. Humphries. Well, can I just comment on that? I want to 
correct Bill just a moment on who is number one. Black History, 
when they started reporting the degrees of engineering from the 
undergraduate schools, treated the Joint College of 
Engineering, Florida A&M and FSU as a single entity. And last 
year they separated us, although we're just one engineering 
school.
    So if you look at our joint college, Florida A&M and 
Florida State, as one engineering school, we are the number one 
producer of African American engineers last year. Florida A&M 
by itself was number three.
    There were only 10 baccalaureate degrees separating Georgia 
Tech and Florida A&M, but when you added in the 25 African 
Americans who graduated from Florida State to the 143 that 
graduated from Florida A&M, you got 168, and we surpassed 
Georgia Tech. That one engineering school surpassed Georgia 
Tech's one engineering school by about 15 baccalaureate 
degrees. And we were rightfully number one, but Black History 
did not want to give us credit for that. So I just wanted to 
correct that for the record, sir, and let you know that.
    And the second point I would like to make to you, which has 
to do with the thoughts you had about the HB-1 visa, the Joint 
College of Engineering was established in 1982. It moved from 
zero baccalaureate degrees, 20 years later to being number one 
in the Nation. So it is possible, if you have the capability to 
produce the programs, that you can, in fact, make a significant 
contribution to the under-represented areas in regard to that.
    And just one piece of information for you. There are only 
about 19 historical black colleges that offer computer science 
programs, about 19 of the total. And so----
    Senator Allen. Why?
    Dr. Humphries. It is infrastructure and----
    Senator Allen. I thought I knew the answer. I wanted your 
testimony.
    Dr. Humphries. So if you would just expand this vibrant 
field, and everyone would take it with the resources to make it 
possible, it would increase the enrollment and would increase 
the technology person-power of the Nation going forward. So 
there has got to be a new emphasis on expanding the academic 
wherewithal of the historical black colleges in enabling 
programs that enable you to establish computer science 
programs, and so that is one answer.
    And I would just like to give you one example of a 
partnership between a company and a university to address this 
shortage of technology, a serious problem with hiring people to 
work on their computer technology side of their company. So 
they made an interesting proposition to Florida Union. They 
said, ``Look, we will pay for the faculty person, equip the 
laboratory, what we want you to do is teach four courses. And 
any student at your university, regardless of major, if they 
take those four courses, we will hire them in the computer part 
of our operation, and we will pay them starting salaries of 
$42,000 a year. Doesn't matter whether you are a history major, 
an agriculture major, or a pharmacy major, or a nursing major. 
If they take these four courses and make a C average, we will 
hire them.''
    And so we went into a memorandum of understanding with 
them. They paid for the faculty. They set up the laboratory. 
They put the computers in there, and we taught the four 
courses. We went out and got the enrollment for those four 
courses. And they were geared toward 25 students in each one of 
those courses, but you had to take all four of them. And it is 
one of the most highly successful responses to the lack of 
technology-driven people in our Nation.
    We did something precise, pinpointed it, and it solved the 
need for them, and that program continues until today providing 
serious people that are computer trained that can do the job in 
that company, and they make a very good salaries. They are a 
plus citizen in this Nation because of the industry pinpointing 
its needs, finding a partner, working together, getting it 
done, and doing it.
    And I think that if we take this opportunity now, knowing 
that we are going to be even stronger in this as we go forward, 
if we take this opportunity now, foster those relationships, 
foster support from the Federal Government, we make a big dent 
in improving the quality of life for a lot of minority 
students, and we will get rid of some of this inequality in 
socioeconomic status in our country, along with getting rid of 
the technology and the digital divide proposition, too. And so 
these are worthwhile activities, and we need to pursue them.
    Senator Allen. Thank you, Doctor.
    Mr. Gray. Let the record, Mr. Chairman, show that I stand 
corrected.
    Senator Allen. Well, thank you for pointing out the 
company's visionary leadership. A lot of companies complain 
about, ``Oh, we can't find the workers.'' That company actually 
went out and thought long term.
    I am also glad to see that competition in the ACC, 
listening to Georgia Tech and Florida State with their sister 
university, Florida A&M, and this competition that is just as 
fierce in academics, and in fact it is more important than 
athletics.
    Dr. Humphries. It is just that Florida State won in 
basketball.
    Senator Allen. I am not going to get into--the Senator gets 
into a lot of non-germane areas. I will not get into it. I am 
an ACC fan, liking Mr. Jefferson's University the best. But 
regardless, when you are talking about the pipeline in K 
through 12, all of your testimony has been very, very good and 
very helpful to me. And I know all who will be reading the 
testimony, and obviously, I know Senator Cleland is pleased 
with such reinforcing statements.
    I would also hope that you would be able to support the 
measure that Senator Boxer and I have introduced to encourage 
computer use, with refundable tax credits for the parents of 
children to get computers at home for their children, as well 
as Internet access, and peripherals, and other aspects of 
computers for their children, because it is important that 
early on children have that technological proficiency.
    It is good for the technology sector, but it is education, 
and there are some software programs and so forth that are 
catered directly for what that particular child needs, and go 
at the speed of the child, which is also important in 
education.
    So I want to thank each and every one of you all, 
Congressmen and doctors, for your testimony. And I relinquish 
the mike back to the Chairman.
    Senator Cleland. Thank you, Senator Allen, and thank you 
for your contributions today. Especially your questions have 
been insightful and we appreciate that very much. Panelists, 
thank you so much for being here, for traveling a far distance, 
and thank you for coming to be with us today. We will call our 
second panel.
    If the hearing can come to order, we will proceed. We have 
two of our panelists today that have to catch a plane and we 
will be mindful of that. Our panelists today, Dr. Juliet 
Garcia, President, University of Texas at Brownsville and Texas 
Southmost College; Dr. Marie V. McDemmond, President, Norfolk 
State University, in Norfolk, Virginia; Mr. George Sandoval, 
Network Administrator, Dine College, Tsalie, Arizona--thank you 
for coming all that way. And the Honorable Louis Sullivan, 
President, Morehouse School of Medicine; and Immediate Past 
President, Atlanta University Center Council of Presidents in 
Atlanta.
    Dr. Sullivan, we will call upon you first for your 
testimony. And I know you have to catch a plane, and we will go 
right to the questions thereafter.

STATEMENT OF HON. LOUIS W. SULLIVAN, MD., PRESIDENT, MOREHOUSE 
SCHOOL OF MEDICINE; IMMEDIATE PAST CHAIRMAN, ATLANTA UNIVERSITY 
                  CENTER COUNCIL OF PRESIDENTS

    Dr. Sullivan. Thank you very much, Mr. Chairman, Mr. Allen. 
It is a pleasure to have this opportunity to appear before you, 
and I thank you for your introducing bill S. 414, the National 
Telecommunications and Information Administration Digital 
Network Technology Program Act. This is a measure that would 
provide funding for technology at minority-serving 
institutions.
    I am President of the Morehouse School of Medicine and 
former U.S. Secretary of Health and Human Services from 1989 to 
1993. I appear before you today as immediate past Chairman of 
the Council of Presidents of the Atlanta University Center.
    The purpose of my testimony today is to discuss the 
technological advances made by the Atlanta University Center 
Schools, and to describe the need for funding for technology 
and telecommunications infrastructure, for networking, and for 
student access to computers.
    Founded in 1929, the Atlanta University Center is the 
Nation's oldest and largest consortium of predominantly African 
American institutions of higher learning. Its six member 
institutions are Clark Atlanta University, the 
Interdenominational Theological Center, Morris Brown College, 
Morehouse College, Morehouse School of Medicine, and Spellman 
College. These institutions share a common mission of providing 
quality education for African Americans, and other students 
from diverse backgrounds. These students are our leaders for 
tomorrow--leaders in education, law, health care, engineering, 
government, and other areas.
    Mr. Chairman, all six schools recognize the importance of 
staying abreast of rapidly evolving technology, and we are 
regularly applying new technology in our academic offerings, in 
our student living and learning environments on our respective 
campuses.
    For example, in the year 2000, Morehouse College received a 
grant from the Department of Commerce, Economic Development 
Administration for renovating and expanding a technology tower 
complex which will be used, among other things, to address the 
shortage of educated and trained personnel in the 
telecommunications industry by providing job training and 
employment for students and residents of the western community 
of Atlanta where we are located.
    Spellman College has begun installation of a campus 
pipeline. This will provide a seamless integration of 
administrative services, campus Internet offerings, web-based 
e-mail, long-distance learning resources, and a virtual campus 
community.
    Clark Atlanta University is applying technology to address 
increased student enrollment through networking and computer 
training. Clark Atlanta University's distance learning 
initiative allows students from across the country to take 
classes and participate in lectures using a two-way interactive 
telecommunications system.
    Morris Brown College has implemented a technology 
assessment program which consists of six levels of computer and 
web-based training, allowing students to become proficient in 
web-based technology.
    The Interdenominational Theological Center has received 
funding from the Lilly Endowment for its information technology 
for its theological teaching program. This program emphasizes 
faculty training for use of technology in the classroom.
    This year my own institution will open its National Center 
for Primary Care. This center at Morehouse School of Medicine 
will be a key resource in using technology to determine how to 
expand access to high quality, cost-effective health care for 
under-served populations, and how to increase the proportion of 
under-represented minorities in the health professions.
    Despite the lack of adequate funding for technological 
advancements at HBCUs, the Atlanta University Center Schools 
are making significant gains in closing the digital divide. 
With technology infrastructure and training in place, these 
schools will be able to develop network applications that can 
enhance teaching methods and educational resources, strengthen 
the quality of education, promote innovations, and increase 
their competitiveness.
    The accomplishments of the AUC schools are illustrative of 
the steps that HBCUs are taking to close the digital divide. 
And while the actions described here show progress, there 
remains a great need for more technology at HBCUs. A digital 
divide exists between HBCUs and the Nation's majority 
institutions. This divide affects the ability of minority-
serving institutions to be competitive with other institutions 
or higher learning.
    Further, the limited financial resources of African 
American students makes it difficult for them to purchase their 
own computers. According to the U.S. Department of Commerce 
report released in 2000, historically black colleges and 
universities and assessment of networking and connectivity, 
this report shows that fewer than 25 percent of HBCU students 
own their own computers, and must rely on institutional 
resources to connect to the Internet, to World Wide Web, or to 
other networks.
    This compares to 49 percent of students at other 
institutions of higher learning. This lack of modern available 
computer technology affects the ability of minority-serving 
institutions to be competitive with other institutions of 
higher learning. Access to resources for information technology 
is critical if HBCUs are to continue to prepare students to 
take an active part and contribute to our country's economic 
growth and prosperity.
    Senators Cleland, Hollings and Stevens have taken a 
significant step in narrowing the technology gap between HBCUs 
and majority institutions. We applaud them for introducing a 
measure that would authorize up to $250 million to create a 
program to provide grants to minority-serving institutions for 
technology, infrastructure, and training. This legislation 
would provide funds for the acquisition of computers, 
technology, and other instrumentation and software; two, the 
acquisition of telecommunication systems hardware; and three, 
for training of students and faculty.
    But this is just the beginning. Further studies should be 
conducted to provide a more detailed assessment of the extent 
of the digital divide, how it affects the ability of HBCUs to 
be competitive with other institutions of higher learning, and 
what steps should be taken to close this gap. Measures 
contained in S. 414 are vital to American higher education. So 
I encourage the Congress to pass this legislation. This measure 
will expand the information highway ensuring that no student is 
left behind in the use of technology in the 21st century, not 
left behind because of differences in income, education, and 
race.
    Thank you, Mr. Chairman, for this opportunity to appear 
before you today. And I would be pleased to respond to any 
questions you may have.
    [The prepared statement of Dr. Sullivan follows:]

     Prepared Statement of Hon. Louis W. Sullivan, M.D., President,
         Morehouse School of Medicine; Immediate Past Chairman,
            Atlanta University Center Council of Presidents

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to express my views on S. 414 the ``National 
Telecommunications and Information Administration (NTIA) Digital 
Network Technology Program Act'' a measure that would provide funding 
for technology at minority-serving institutions.
    I am Louis W. Sullivan, M.D., President of Morehouse School of 
Medicine and former U.S. Secretary of Health and Human Services. I 
appear before you today as immediate past President of the Council of 
Presidents of the Atlanta University Center (AUC). The purpose of my 
testimony today is to discuss the technological advances made by the 
AUC schools and to describe the need for funding for technology and 
telecommunications infrastructure, networking and student access to 
computers.

                  HISTORY OF ATLANTA UNIVERSITY CENTER

    Founded in 1929, the AUC is the nation's oldest and largest 
consortium of predominately African-American institutions of higher 
learning.
    Its six member institutions--Clark Atlanta University, 
Interdenominational Theological Center, Morris Brown College, Morehouse 
College, Morehouse School of Medicine and Spellman College--share a 
common mission of providing quality education for African-Americans and 
other students from diverse backgrounds. These students are our leaders 
for tomorrow--in education, law, health care, engineering, government 
and other areas.
    Mr. Chairman, all six schools recognize the importance of staying 
abreast of rapidly evolving technology and we are regularly applying 
new technology in our academic offerings, and our student living and 
learning environments on our respective campuses.
    For example, in the year 2000, Morehouse College received a grant 
from the Department of Commerce, Economic Development Administration 
for renovating and expanding a Technology Tower Complex which will be 
used, among other things, to address the shortage of educated and 
trained personnel in the telecommunications industry by providing job 
training and employment for students and residents of the West End 
community in Atlanta.
    Spelman College has begun installation of a ``Campus Pipeline'', 
which will provide a seamless integration of administrative services, 
campus internet offerings, web-based e-mail, long-distance learning 
resources and a virtual campus community.
    Clark Atlanta University is applying technology to address 
increased student enrollment through networking and computer training. 
Clark Atlanta University's ``Distance Learning Initiative'' allows 
students from across the country to take classes and participate in 
lectures using a two-way interactive communications system.
    Morris Brown College has implemented a Technology Assessment 
Program, which consists of six levels of computer and Web-based 
training, allowing students to become proficient in Web-based 
technology.
    The Interdenominational Theological Center has received funding 
from the Lilly Endowment for its Information Technology for the 
Theological Teaching Program. This program emphasizes faculty training 
for use of technology in the classroom.
    This year, the National Center for Primary Care will open on the 
campus of Morehouse School of Medicine. This center will be a key 
resource in using technology to determine how to expand access to high 
quality, cost-effective healthcare for underserved populations, and how 
to increase the proportion of under-represented minorities in the 
health professions.
    Despite the lack of adequate funding for technological advancements 
at HBCUs, AUC schools are making significant gains in closing the 
digital divide.
    With technology infrastructure and training in place, these schools 
will be able to develop network applications that can enhance teaching 
methods and educational resources, strengthen the quality of education, 
promote innovations and increase competitiveness.
    The accomplishments of the AUC schools are illustrative of the 
steps HBCUs are taking to close the digital divide. And while the 
actions described here show progress, there remains a high demand for 
more technology at HBCUs.

                      LACK OF TECHNOLOGY AT HBCUS

    A digital divide exists between HBCUs and majority institutions. 
This divide affects the ability of minority-serving institutions to be 
competitive with other institutions of higher learning. Further, the 
limited financial resources of African-American students makes it 
difficult for them to purchase their own computers.
    According to the U.S. Department of Commerce Report released in 
2000, Historically Black Colleges and Universities: An Assessment of 
Networking and Connectivity, fewer than 25 percent of HBCU students own 
their own computers and must rely on institutional resources to connect 
to the Internet, World Wide Web or other networks. This compares to 49 
percent of students at other institutions of higher learning.
    This lack of modern, available computer technology affects the 
ability of minority-serving institutions to be competitive with other 
institutions of higher learning in the information age.
    Access to resources for information technology is critical if HBCUs 
are to continue to prepare students to take an active part and 
contribute to the country's economic growth and prosperity.

                           PROPOSED RESPONSE

    Senators Cleland, Hollings and Stevens have taken a significant 
step in narrowing the technology gap between HBCUs and majority 
institutions. We applaud them for introducing a measure that would 
authorize up to $250 million to create a program to provide grants to 
minority-serving institutions for technology infrastructure and 
training.
    Specifically, this legislation would provide funds for: (1) the 
acquisition of computers, technology, other instrumentation and 
software; (2) the acquisition of telecommunications systems hardware; 
and (3) training for students and faculty.
    But this is just a beginning. Further studies should be conducted 
to provide a more detailed assessment of the extent of the digital 
divide, how it affects the ability of HBCUs to be competitive with 
other institutions of higher learning and what steps should be taken to 
close this gap.

                               CONCLUSION

    Measures contained in S. 414 are vital to American Higher 
Education. I encourage the Congress to pass the ``National 
Telecommunications and Information Administration Digital Network 
Program Act.'' This measure will expand the information highway, 
ensuring that no student is left behind in the use of technology in the 
21st century because of differences in income, education and race.
    Mr. Chairman, thank you for this opportunity to testify today. I 
would be pleased to respond to any questions that you might have.

    Senator Cleland. Thank you, Dr. Sullivan.
    I forgot to remind all of our panelists that we have a 
committee 5-minute rule, so if you could summarize your 
testimony in about 5 minutes, we are going to submit your full 
testimony for the record.
    If there were no objection, Senator Allen, I would like to 
just ask the good doctor a couple of questions. He has another 
appointment, and no objection?
    Senator Allen. Dr. Sullivan, you have a good, strong 
statement as far as I'm concerned. Thank you, sir.
    Senator Cleland. Dr. Sullivan, thank you very much.
    The Administration's FY-2003 budget recommends eliminating 
several technology projects, including the Technology 
Opportunities Program, known as the TOP program, the Community 
Technology Centers Program, and programs to help teachers learn 
how to use computers in the classroom.
    Just give us an indication of what impact you think the 
elimination of these initiatives would have on minorities and 
low-income communities?
    Dr. Sullivan. I believe this would be an unfortunate 
circumstance, Mr. Chairman, not only on these institutions and 
the students they train, and the faculties, but frankly it 
would be unfortunate for the country as a whole, because what 
is intended with this legislation is not only to benefit these 
institutions, but also to see that their graduates contribute 
more effectively to the Nation's economy. With us competing 
more and more in this world economy, we need to be sure that 
all of our citizens are trained to the utmost so that each of 
our citizens can contribute the maximum to our Nation. So I 
think this would be really unfortunate if we were to 
discontinue these programs.
    Senator Cleland. Thank you very much. Dr. Sullivan, I am 
well aware of the quality of education provided by the six 
outstanding institutions which comprise the Atlanta University 
Center. In your testimony you touched on some of their 
technology achievements.
    What do you see as the most pressing needs of these six 
institutions that you work with?
    Dr. Sullivan. The most pressing need is to have the ability 
to expand our technological growth. Because we have shown and 
experienced thus far with the technology that we have 
developed, enhancing the productivity in our instruction, 
having students who are more competitive in the larger 
workforce, and therefore having the ability to improve not only 
their own lives but the lives of the communities in which they 
reside.
    So clearly, funds to support the continued information 
technology capability in these institutions really is one of 
our top priorities.
    Senator Cleland. Thank you very much, and thank you for 
your service to our great Nation in so many wonderful 
capacities.
    Senator Allen.
    Senator Allen. I don't have any questions. Thank you for 
your compelling testimony.
    Senator Cleland. Thank you, Dr. Sullivan.
    Dr. Sullivan. Thank you both very much, and I very much 
appreciate your understanding. And if I may be excused, I will 
leave my colleagues.
    Senator Cleland. You may indeed.
    Dr. Juliet Garcia is with us today, and she also has a 
plane to catch and we will go right to you, Dr. Garcia.

         STATEMENT OF DR. JULIET V. GARCIA, PRESIDENT, 
                UNIVERSITY OF TEXAS-BROWNSVILLE

    Dr. Garcia. I ask for your forgiveness ahead of time, 
Senator Thank you for exiting the scene. Not to be rude, but a 
5:30 flight to the southern tip of Texas is going to be my----
    Senator Allen. Your flight is at 5:30?
    Dr. Garcia. Yes, sir.
    Senator Allen. Carry on.
    Dr. Garcia. Here goes. Good afternoon, Mr. Chairman and 
Senator Allen. I am Juliet Garcia, and I am President of The 
University of Texas at Brownsville in partnership with Texas 
Southmost College.
    Let me begin by describing our university in partnership 
with the community college. It serves over 10,000 academic 
students right on the border. As a matter of fact, we are one 
block from Mexico. And 10,000, in addition, continuing 
education and workforce training students.
    We offer everything from a certificate and associate's 
degree, which are community college traditional degrees, to 
baccalaureate and graduate degrees.
    The partnership between University of Texas at Brownsville 
and Texas Southmost College combines then the strengths of a 
community college with those of an upper-level university by 
increasing student access and eliminating the traditional 
barriers that often exist for transfer between a community 
college and a university. We are called then a community 
university. We were an experiment, one that had a great deal of 
difficulty getting going, just because of accreditation issues. 
But after 10 years the experiment has been labeled and awarded 
a success, and we now have a 99-year contract to continue the 
experiment between the community college and The University of 
Texas at Brownsville.
    Our population is unique in a variety of ways. I mentioned 
we are one block from the border. So many of our students are 
bilingual, bicultural, and we are hoping to in our training 
include biliteracy. That is, a student should be able to go to 
our university, obtain an MBA or an engineering degree, and be 
able to do that work in Monterey or in Chicago, or in some off-
country site in South America or around the world. We did not 
create the world economy now that drives industry, but we are 
certainly meaning to take advantage of it.
    We represent a region and a community that is 90 percent 
Hispanic with a median family income of $15,000. So when we are 
talking about the poorest community, our community--excuse me--
the poorest county in the State of Texas, often you hear about 
Hidalgo County, or Cameron County, or Starr County. It is not 
the way you want to be in the news, but it is the way we are 
often cited because of negative poverty statistics.
    So when I see the NTIA report that the Internet divide for 
Hispanic households was 4.3 percent wider in 2000 than it was 
in 1998, I understand that that disparity is even greater in a 
community like deep South Texas.
    Let me give you an example. We are part of the University 
of Texas System. We are not Longhorns. And not only are we not 
Longhorns like U.T. Austin, but we are different in other ways. 
There are 15 components in the University of Texas System. The 
only two components that do not receive oil and gas revenue 
benefits are the two Hispanic-serving institutions, 
predominantly Hispanic-serving institutions, U.T. Pan American, 
also in South Texas, and U.T. Brownsville.
    So let me give you an example of what that means for our 
students. Our library at UTB ranks among the bottom 10 percent 
of the libraries in the colleges in the State of Texas. This is 
not what you want to brag about as the president. In terms of 
books available per student, that means that if I were a 
student at U.T. Austin, I would have 146 books available to me, 
and only 17 books available at the Brownsville library.
    But we see digital access as a greater leveler. We have 
begun to create and make available for our students a digital 
library. Let me give you an example of what we have done. In 5 
years we have taken what was 500 print serials or access to 
serial publications, 500 in number, and expanded it to 32,000. 
That is in 5 years, and it is through digital access. These 
serials are available 24 hours a day, even though the library 
is closed. And unlike the ones in print and in the library, 
they are available to multiple users at one time, and they are 
never lost or at the bindery.
    This works if you have access then to Internet and to 
computers. So the catch is now how do we make that accessible 
to all students? Well, of course we have computer labs, but 
never enough. Half of our library now looks like a computer 
lab, because students do not have laptops, and may not benefit, 
sir, from the tax credit, even though we would love for them 
to.
    If you have $15,000 income in a family, $1,000 of that 
$15,000 is probably not going to go to a new laptop, even 
though you are going to get a tax credit. OK, well, even so, it 
would be hard for me to spend one-fifteenth of my income. And I 
say that not because it is a bad idea, because certainly an 
incentive to provide technology for any family or for any 
student is exactly what we need. But if we believe that it is 
going to target some of these students, I am afraid that we may 
not be targeting the ones that, in fact, might need it the 
most.
    So what we need to believe is that our computer labs are 
the only accessible computer for students, and if you do not 
have enough computers, right away we have cut back that access.
    And second, if you can only keep your computer lab open for 
a certain amount of time, then students after hours, after 
work, and most of our students work, do not have access to 
computers either.
    And I would like to respond to some of the issues that have 
been raised today, because we are supportive of this bill. That 
is, I am personally, and I believe that most HSIs, as Mr. 
Flores has also testified, applaud the innovative, creative, 
and really far-reaching benefits of the bill that you have 
presented.
    And so I applaud its flexibility, and I applaud the fact 
that it encourages partnerships with communities, with schools, 
with community-based or locally organized organizations, and 
certainly with private industry.
    We have a Garrett grant. As a result of that Garrett grant, 
we have 7,000 students who are gearing up to come to our 
university. We would hope that when they get there they are not 
disappointed, that they actually would have better computers 
there than they have at their own schools, or they would have 
computers that often are not in the poorer schools.
    I would like to respond to a couple of things that have 
been brought up earlier. One is a segment that tribal colleges 
are the best kept secret often left out of important studies. I 
have a different kind of analogy to make. Hispanics are never 
left out of studies. It is kind of hard to leave us out now 
that we are so many in the United States.
    But what I see in people's faces when you talk about 
Hispanics is, ``Oh my God, what are we going to do with all 
these Hispanics?'' There is a real concern. I do not think 
people are worried about looking like Hispanics. I think what 
they are worried about is the characteristics that sometimes 
Hispanics have in the population: under-educated, employed at a 
much lower level, and certainly not as productive members of 
the society as we could be.
    But imagine if we turned that around. Imagine if we said, 
``Thank goodness my State has a lot of Hispanics.'' The only 
way that would happen is if we took those Hispanics and trained 
them, and honed their skills, and gave them those 
opportunities. Not in affirmative action, but affirmative 
opportunity. If you want Hispanics to do well in Texas, or in 
Virginia, or in Georgia, or anywhere else, all they need is 
opportunity of the same kind, of equal measure to the kind the 
student does if he or she gets into U.T. Austin.
    So I would applaud the recommendations that President 
Humphries made about Pell-eligible students being targeted to 
allow students to buy personal computers. If we can figure some 
way to do that, that would reach 75 percent of the students at 
this one HSI.
    I also would point out that one of the reasons students go 
away from school, get out of school, regardless of how valuable 
working for Sears appears to be this year--and I refer not in a 
negative way--but simply when that student exits school without 
a degree, because they are offered a $42,000 paying job, think 
about it. The family is getting $15,000 a year. All of a 
sudden, I can make $42,000. You are not going to get the 
college degree. You are going to get four computer courses, 
which is fine to get you in the job market. But when 
technology-driven industry then for some reason has to cut 
workers, the first ones going to go are the ones without full-
fledged baccalaureate degrees.
    We have the same problem in our institution where we start 
students in computer instruction, computer information systems, 
and they are offered a high-paying job immediately. And they 
end up without a degree, and find themselves out of a job 2 or 
3 years from now.
    So my proposition is simply help us keep them in. Help us 
create those partnerships with Sears and others, but as 
incentives not to quit working at school while they begin 
working at Sears, a partnership that is as concurrent with your 
involvement at the university, that will lead you to a 
baccalaureate or a master's degree.
    We will provide you an internship at Sears. They have to 
work anyway; most students at HBCUs and at HSIs have to work. 
So help us find through partnerships ways to provide them the 
money they need to work, and at the same time to continue their 
education.
    Two more points. One, about the number of computer 
engineering graduates. I am not going to get into the Florida 
fight, but I do want to provide you with an analogy of 
Hispanic-serving institutions and ours is in mathematics.
    We are only 10 years old, yet in the Hispanic Outlook for 
Higher Education we were cited as the institution last year 
that produced the most Hispanic mathematics majors in the 
Nation. And you can say ``That's a wonderful job. You're doing 
great,'' but I have to say, ``Then what is everybody else 
doing?'' If I am able to do so well with only a 10-year-old 
institution, with only 10,000 academic students, what is 
everyone else--why are Hispanics not educated in mathematics at 
other institutions? My point there is that we have got a long, 
long way to go, and targeting HSIs and HBCUs and tribal 
colleges I believe is the right direction to take.
    And finally, and it has to do with potential for human 
capital. I mentioned the view of what folks think about 
Hispanics today. I offer you another view in addition to the 
one I have already mentioned, and that is of a phenomenon that 
has occurred in our community in Brownsville, and that is of 
chess.
    There is an infection that has occurred. Children starting 
out at 5 years old are playing chess and winning State and 
national tournaments. Of the five cities in the Nation that 
were most represented at the National Chess Tournament, 
Brownsville, Texas was one of those five.
    Those children were the ones that were at risk. They came 
learning English for the first time at 5 years old. Their 
parents had not gone to college; they had not gone to high 
school--graduated. They were on free lunch, and we can go 
through all the negative criteria.
    My point is that they had an opportunity. Somebody sat down 
with them and said, ``I am going to teach you how to play 
chess.'' And they had tremendous potential now to learn it. 
They already knew two languages. One more is chess. A third one 
is math. A fourth one is computer science. Once your brain gets 
complicated, having learned two languages, it can learn a third 
and fourth.
    My point simply is we have the same opportunity in 
Brownsville, or other HSIs or HBCUs, we can produce the same 
kind of product as any other institution. I thank you for your 
time, and I am sorry I talked in compressed paragraphs.
    [The prepared statement of Dr. Garcia follows:]

        Prepared Statement of Dr. Juliet V. Garcia, President, 
                    University of Texas-Brownsville

    Good afternoon, Mr. Chairman and members of the Subcommittee on 
Science, Technology and Space of the Senate Committee on Commerce, 
Science, and Transportation.
    I am Juliet Garcia, President of the University of Texas-
Brownsville. I am pleased to testify today at this hearing on the 
Digital Divide, its effect on Minority-serving Institutions and the 
Digital Network Technology Program Act.
    Let me begin by describing our University. In partnership with 
Texas Southmost College, our University serves over 10,000 students at 
its campus located in Brownsville, one block from Mexico. We offer a 
wide range of courses from certificate, associate, baccalaureate, and 
graduate degrees as well as a growing workforce training and continuing 
education program. Our mission at UTB/TSC is to provide accessible and 
affordable postsecondary education of high quality, to conduct research 
which expands knowledge and to present programs of continuing 
education, public service, and cultural value to meet the needs of the 
community. The partnership between the University and Texas Southmost 
College combines the strengths of the community college and those of an 
upper-level university by increasing student access and eliminating 
inter-institutional barriers while fulfilling the distinctive 
responsibilities of each type of institution.
    At UTB/TSC, we place excellence in learning and teaching at the 
core of our commitments. We seek to help students at all levels develop 
the skills of critical thinking, quantitative analysis, effective 
communications, and technology that will sustain lifelong learning. On 
a daily basis, we serve students who are in great need of remedial work 
in core areas and students who are promising research scientists with 
bilingual abilities.
    UTB/TSC fosters an appreciation of the unique heritage of the Lower 
Rio Grande Valley, and provides academic leadership to the 
intellectual, cultural, social and economic life of the bi-national 
urban region it serves. That region is over 90 percent Hispanic with an 
annual median family income of about $15,000 and an unemployment rate 
that approaches twice the national average.
    When I see in the National Telecommunications and Information 
Administration's report that the Internet divide for Hispanic 
households was 4.3 percent wider in 2000 than in 1998, I know that the 
Brownsville Community also faces this increasing divide.
    The library at UTB/TSC, in terms of books available per student, 
ranks among the bottom 10 percent of the colleges in the State of 
Texas. This means that at the University of Texas at Austin there are 
146 books per student as compared to 17 books per student at UTB/TSC. 
Digital access is a great leveler. We have begun to create and make 
available to our students a digital library. Our director of library 
services says that what would take a decade to build in a traditional 
print library can be done in 2 years with online access. Collections 
that at one time were available only to the wealthy schools are now 
available to smaller institutions through the Internet.
    These examples are provided because what is true for UTB/TSC 
students is reflective of our region.
    At UTB/TSC, we are fully aware of the singular importance of the 
Digital Divide and its far reaching effects on low-income and minority 
youth. We also fully embrace the imperative of better integrating 
technology into the classroom, curriculum, school administration, and 
community to improve student achievement through the development of 
21st century skills. And, we understand that one of the most effective 
ways to foster integration of technology into education at all levels 
is through well-designed partnerships that cut across the divisions 
that too often separate K-12 schools from colleges and universities and 
too often disconnect government from its community and its citizens.
    In today's knowledge-based society and economy, students require 
21st century skills. More than ever before, today's students must be 
able to find, analyze, synthesize, and apply information quickly and 
efficiently. In conjunction with the development of strong reading, 
writing, and mathematical skills, better integration of technology into 
the classroom can improve both teaching and learning, making both more 
student-centered and productive. Anyone who has witnessed, in the 
classroom setting, the introduction of low-income and minority students 
to the personal computer and wonders of the Internet can attest to how 
such an experience can instantaneously propel their interest, 
motivation, critical thinking, and expression. As a nation, our goal 
surely ought to be to make that mind-expanding experience available to 
all students as early in their educational development as possible. 
Access to technology in education--and all the benefits that flow from 
it--cannot be left to depend on one's income or race. It must be 
guaranteed for all youth.
    To fully integrate technology into our educational system and reap 
the benefits of enhanced student achievement and development of 21st 
century skills, requires a broad approach that encourages all of the 
key players--administrators, parents, community, and government--to 
integrate technology into the way we do business. Only when school 
administrators use technology to manage education efficiently, only 
when parents are informed about technology and are fully supportive of 
its key role in the education of their children, and only when the 
entire community becomes fully involved through creative partnerships 
that foster the development and sharing of technology resources can the 
benefits of technology to students in the classroom be maximized and 
made available to all students, regardless of income or race.
    Let me give you a recent example, in late January and early 
February, we had more than 10,000 fifth through eighth grade students 
come to our campus to participate in the live interactive viewing of 
scientists at work in Alaska through the JASON PROJECT, a science based 
program started by Dr. Robert Ballard. Our students used the Internet 
to submit questions to the Alaska and to complete answers to questions 
submitted by the scientists. One of our own students from San Benito 
High School, served as host with Dr. Ballard. This young lady, 
Christian Gonzalez, from the Lower Rio Grande Valley who had never even 
seen real snow, who had never even imagined being on a live telecast, 
much less being in Alaska with a world renowned scientist, had a 
tremendous experience because technology had been used to introduce her 
to the possibilities in junior high school through the JASON project.
    As a nation, our goal surely ought to be to make that kind of mind-
expanding experience available to all students as early in their 
educational development as possible. Access to technology in 
education--and all the benefits that flow from it--cannot be left to 
depend on one's income or race or happenstance of where there were born 
and reared. It must be guaranteed for all youth.
    In that regard, I applaud S. 414 for taking a broad approach to 
fostering integration of technology in education through creation of a 
flexible digital technology program. Under the proposed program, a wide 
range of colleges and universities that serve low-income black, 
Hispanic, and native American students can apply for a grant, contract 
or cooperative agreement to support a wide range of activities that can 
be designed to address the specific needs of their constituency, 
including:
    <bullet> teaching students and teachers about technology in the 
classroom;
    <bullet> creating and providing faculty development programs and 
prepare students or faculty seeking a degree or certificate;
    <bullet> providing teacher education, library and media specialist 
training, and preschool and teacher aid certification to enhance 
technology skills in the classroom or the instructional process;
    <bullet> implementing a joint project to provide technology 
education in the classroom; and
    <bullet> providing leadership development to administrators, board 
members, and faculty.
    Each of these activities is a critical piece of a broad, 
comprehensive strategy to fully integrate technology into education and 
ensure that access to such education is ensured for all low-income, 
minority students.
    I would also like to applaud the flexibility of the proposed 
grants--permitting as they would a breadth of capacity building 
expenditures: on acquisition of equipment, instrumentation, networking 
capability, hardware and software, digital network technology, and 
infrastructure.
    Finally, I applaud the bill's encouragement of the formation of 
partnerships between colleges and universities and State and local 
education agencies, community-based organizations, national non-profit 
organizations, and businesses, including minority businesses. The 
Advisory Committee on Student Financial Assistance, a congressional 
chartered panel on which I serve as Chairperson, has recommended the 
expansion of partnerships to ensure that low-income students who 
currently cannot afford college have access to high quality higher 
education and a baccalaureate degree.
    UTB/TSC has broad experience with partnerships and we have 
witnessed first-hand the power of such partnerships. Our GEAR UP grant 
from the U.S. Department of Education has enabled us to partner with 
local schools to ensure that students learn about the possibility of 
higher education as early as middle school and graduate from high 
school academically prepared to enroll in college. Over 7,000 
Brownsville area students are participating in the GEAR UP program. In 
addition, a foundation grant has enabled us to create the ENLACE 
program in which we partner with schools and community groups to 
enhance the teaching of science and support community activities that 
help students and parents understand and enjoy science.
    I believe the proposed program, supporting varied and far-reaching 
activities through partnerships would help minority-serving 
institutions make great progress in closing the Digital Divide for the 
benefit of the students they serve as well as the entire nation.

    Senator Cleland. Dr. Garcia, that is a powerful statement 
and a compelling analogy there. Thank you very much. I have no 
further questions.
    Does Senator Allen have any questions?
    Senator Allen. No. Muchas gracias and bon voyage.
    Another language in there.
    [Laughter.]
    You are supposed to get there supposedly, I will say, 2 
hours before the plane leaves. Are you flying out of Reagan 
National?
    Dr. Garcia. Yes, sir.
    Senator Allen. Well, that is good.
    [Laughter.]
    Senator Cleland. Thank you very much, Dr. Garcia, for 
coming to be with us. God bless you.
    Dr. McDemmond, we welcome you to our hearing.

 STATEMENT OF DR. MARIE V. McDEMMOND, PRESIDENT, NORFOLK STATE 
                           UNIVERSITY

    Dr. McDemmond. Well, good afternoon, Senator Cleland and 
Senator Allen, who was Governor of our great Commonwealth of 
Virginia. You really set an example of how to govern in the 
Internet age. So we want to thank you for that.
    My name is Marie McDemmond, and I am President of Norfolk 
State University, a comprehensive public institution in 
Norfolk, Virginia, and the largest of the five historically 
black colleges and universities in the Commonwealth of Virginia 
with 7,000 students. I am also proud to serve as a member of 
President Bush's National Advisory Board on Historically Black 
Colleges and Universities.
    Since Norfolk State University opened its doors in 1935, 
the university has remained steadfast in its commitment to 
provide an affordable, high-quality education to an under-
served population in its community, the State, and the Nation. 
Norfolk State's need-based students, 88 percent of our 
population are on some form of financial aid, have an average 
median family income of slightly less than $23,000 a year. We 
have worked hard to ensure that our students remain eligible 
for Federal financial aid, and with improved management over my 
5 years have lowered our default rate from 27 percent to 5.7 
percent.
    I am here today to speak in support of S. 414. This 
legislation would provide a new grant program for minority 
serving institutions across the country to help bridge the 
current inequities in computer and Internet access that is 
between those with different levels of income and education in 
this country, is greatly needed.
    This bill is needed for minority-serving institutions, 
because in time of prosperity, initiatives for equipment 
upgrades, training, and innovations and renovations at MSIs get 
only partial funding at best. And when revenues dwindle, like 
now, so do the scarce resources of capital improvement funds 
for equipment and infrastructure.
    Norfolk State University currently serves a unique mission 
in educating a significant number of African American 
professionals in the sciences and in technology. In the last 
decade Norfolk State has increased the number of students 
enrolled in its fully accredited computer science program by 
116 percent, and increased its numbers of students enrolled in 
computer technology by 32 percent.
    Norfolk State was one of the first universities in Virginia 
to offer to students in the non-technical field the Internet-
based texts and exams in our own computer laboratories on 
campus.
    In our current efforts to bridge the digital divide here in 
the ``Digital Dominion,'' Norfolk State University is 
attracting new businesses to the surrounding community so that 
they can take advantage of our location in an Enterprise 
Community, Empowerment Zone, Hub Zone and Hope VI community, 
truly a real deprived area within Norfolk, Virginia.
    We are also providing, as Senator Allen mentioned earlier, 
certification to CISCO Systems and their technologies through 
our CISCO-sponsored lab on campus, and we are partnering with 
the Small Business Administration and Empowerment 2010 in our 
fully accredited School of Business's Center for 
Entrepreneurship, the ability for minority-owned businesses to 
absorb new technologies and the new knowhows in managing 
efficiently their businesses.
    Over the next three to 5 years, through a public-private 
partnership, Norfolk State will lead an ambitious effort, a 
very aggressive effort to construct a telecommunications 
infrastructure. The Research and Innovation to Support 
Empowerment, or what we're calling our ``RISE'' Center, will 
support a complex technology development system within a 
bridging format with broad-band framework. RISE will be a self-
sustaining facility that will promote technology, computer 
services to K through 12 schools, economic development, 
business formation, research opportunities, and work force 
development.
    With sufficient funding, this center could have its own 
gigapod, could have Internet 2 access, and could really serve 
as a network among other HSIs, and particularly HBCUs and their 
respective communities, and aggregate their economic potential 
to deal with partnerships and expand minority training in the 
management of technology infrastructure.
    You know, the majority of workers in the United States 
today are skilled knowledge workers. Our most important 
businesses and industries are not just computer and electronic 
firms, but also advanced information-driven companies with an 
educated and diverse work force. A work force of people who 
prize their differences, and will succeed because of them.
    We must educate America's own for these great 
opportunities. Much of the recent growth in higher education 
has been and will continue to be among historically under-
represented populations, racial and ethnic minorities, and 
first-generation college students who bring a number of unique 
academic and co-curricular needs to our campuses.
    We need the resources to prepare these students for the 
jobs of the future. The bill you are considering to establish a 
$250 million pool of funds through the National 
Telecommunications and Information Administration's Digital 
Network Technology Program Act will fill the gap--will not fill 
the gap in this access, but it is a definite step in the right 
direction. This fund is an incentive for minority-serving 
institutions to find efficient and effective ways to educate 
our technology-proficient students.
    As the President of a historically black university, I want 
to ensure you that the students we are preparing today are 
indeed achieving with excellence, and that each one must have 
the opportunity that he or she can be the very best they can 
be.
    I want to thank you for your thoughtful consideration of 
this legislation. The education of our next generation of 
leaders has to be a team effort, and you, this Congress, are an 
integral part of that team. Thank you.
    [The prepared statement of Dr. McDemmond follows:]

       Prepared Statement of Dr. Marie V. McDemmond, President, 
                        Norfolk State University

    Good afternoon, Mr. Chairman, distinguished members of the Senate 
Subcommittee on Science, Technology and Space and other honorable 
members of the U.S. Congress. My name is Marie V. McDemmond. I am the 
President of Norfolk State University, a comprehensive public 
institution of higher education in Norfolk, Virginia, and the largest 
of the five Virginia historically black colleges and universities 
(HBCUs) with 7000 students.
    Since Norfolk State University opened its doors in 1935, the 
university has remained steadfast in its commitment to provide an 
affordable, high-quality education to an under-served population in its 
community, its State and the nation. The percentage of undergraduate 
students receiving financial aid at Norfolk State University is 88 
percent. These students have an average median family household income 
of less than $23,000. Since my arrival at Norfolk State in mid-1997, we 
have worked hard to ensure that our students remain eligible for 
Federal financial aid and, with improved management, have lowered our 
direct student loan default rate in 5 years from 27 percent to 5.7 
percent. For the last 65 years, NSU has made every effort to provide 
educational access to its culturally diverse and economically 
disadvantaged student population without placing unrealistic financial 
requirements upon them.
    We all know that access to computers and the Internet and the 
ability to use effectively these new technologies are becoming 
increasingly important for full participation in America's economic, 
political and social arenas. In recent years, even though nationwide 
access to new technology has exploded, there is still overwhelming 
evidence of an ever increasing Digital divide''--a compelling gap 
between those individuals and communities that have access to these 
tools and the training to use them, and those who do not.
    I am here today to speak in support of legislation (S. 414), 
patroned by Senator Max Cleland. This bill represents an investment in 
America's most precious resource, its people. This bill would provide a 
new, and badly needed, grant program for minority-serving institutions 
across the country and would help eliminate the current inequities in 
computer and Internet access that exist between those with different 
levels of income and education. In October of 2000, the National 
Telecommunications and Information Administration produced a report 
called ``An Assessment of Networking and Connectivity at Historically 
Black Colleges and Universities'' for the U.S. Department of Commerce, 
and, as you know, that report drew everyone's attention to the 
immediacy of the access problem in lower socio-economic communities and 
at historically black colleges and universities. Figures released in 
the last year by Access Worldwide Communications indicate that
    <bullet> Households with incomes of $75,000 and higher are more 
than 20 times more likely to have access to the Internet than those at 
the lowest income levels.
    <bullet> African American and Hispanic households are approximately 
one-third less likely to have home Internet access as other households.
    <bullet> About one-third of the U.S. population uses the Internet 
at home, while only 16.1 percent of Hispanics and 18.9 percent of 
African Americans have Internet access at home.
    <bullet> Although an increasing number of African American and 
Hispanic users are participating online, the overall divide is 
increasing as Internet utilization among the general population has 
also rapidly increased.
    Over the last several decades the financing of public higher 
education in the United States has been one of uncertainty. When it was 
good it was very good and when it was bad, negligible funds were 
available. In the case of minority-serving public institutions, our 
portion of the pie has never been quite enough. The funding needed at 
minority-serving institutions just to put the infrastructure in place 
to accommodate the new and emerging technologies is enormous. 
Investment in infrastructure is only the first step. Investment will 
also need to be made to sustain as well as to renew and refresh the 
technology necessary for a competitive education. And of course without 
the technology infrastructure and equipment, there is no means to 
train. Minority-serving institutions must play catch up, but they 
continue to fall further behind as new technologies are being developed 
faster than the speed of light.
    Minority-serving colleges and universities across the country are 
searching for funding and support from private sources that will 
compliment the dwindling funding available at the State and Federal 
levels of government. Most minority-serving institutions are just 
emerging as comprehensive colleges and universities, and Norfolk State 
is no exception. We do not have the same amount of private foundation 
resources or endowments as the larger, more established, traditionally 
white institutions (TWIs). We are working diligently to increase our 
endowments and increase our community and alumni support, but we still 
have a long way to go.
    Norfolk State University currently serves a unique mission in 
educating a significant number of African-American professionals in the 
sciences and in technology. Within the last decade, Norfolk State 
University has increased the number of students enrolled in its 
computer science programs by 116 percent (from 197 to 425) and 
increased the number of students enrolled in computer technology by 32 
percent.
    Norfolk State University was one of the first universities to offer 
its students in non-technical fields the Virginia Internet-based 
Tek.Xam technology assessment exam proctored in its on-campus computer 
laboratories. In recent years, the number of student computers in 
campus labs at NSU has jumped from 600 to over 1,400 and all students 
have e-mail accounts. Every full-time faculty member has a desktop 
computer and Internet access.
    In conjunction with the over 100 firms associated with the Virginia 
High Tech Partnership, Norfolk State is significantly increasing the 
number of minority interns and permanent hires in technology related 
fields of employment, having placed over 60 students in technology 
internships over the past three summers.
    In our current efforts to bridge the digital divide Norfolk State 
University is:
    <bullet> Working to restructure about 30 businesses to prepare them 
for the 21st century business model;
    <bullet> Providing certifications in CISCO systems technologies;
    <bullet> Partnering with the Small Business Administration and 
Empowerment 2010 to strengthen the business community's capacity to 
absorb new technology and know-how; and
    <bullet> Attracting new businesses to the surrounding community and 
formulating plans to capture the economic benefits of our location in 
an Enterprise Community, Empowerment Zone, HUB Zone and Hope VI 
Community.
    Norfolk State University must act as a catalyst to make sure the 
technology infrastructure is in place not only for its faculty and 
students but also for its surrounding community. Over the next two to 5 
years, through a public-private partnership, Norfolk State University 
will lead a large scale effort to construct a telecommunications 
infrastructure--The Research and Innovation to Support Empowerment 
(RISE) Center--that will support a complex technology development 
system within a bridging framework. RISE will be a self-sustaining 
facility that will act to spur economic development in the Enterprise 
Zone, Empowerment Zone, HUB Zone area surrounding the campus and will 
promote technology development, business formation, educational and 
research opportunities and workforce development. In the second and 
third phases of development, the RISE project includes a Science and 
Math Laboratory School for students K-6 and classrooms for distance 
learning programs. The private sector indicates that the RISE Center 
can create a network among several HBCUs and their respective 
communities and aggregate the economic potential emerging from expanded 
bandwidth and access. The facility has the potential to increase 
business partnerships and expand minority training in the management of 
technology infrastructure.
    In Virginia, our former Governor, James Gilmore, and his 
predecessor, Governor George Allen, who I am happy to say is a former 
chair and now a member of this Senate subcommittee, established a model 
in the State for governing in the Internet age. Virginia has the first 
Secretary of Technology in the nation, the first Internet policy and 
was the first State to sign the Uniform Computer Information 
Transaction Act. Last year, a Commonwealth Technology Research Fund was 
created to help enable colleges and universities to better compete for 
Federal and private research grants. As part of the Hampton Roads 
Partnership, we see our city and the Hampton Roads region accommodating 
the expansion of high technology businesses from Northern Virginia and 
elsewhere. The vision is in place, but funding will remain a critical 
issue if we are to train and educate the workforce needed in this 
decade and beyond. We are confident with his experience in the 
technology field, our current Governor of Virginia, Mark Warner, will 
continue these efforts.
    Many people think the world they know will last at least throughout 
their lifetime, if not forever. They believe that today's monumental 
changes somehow will not affect them and that the future will continue 
as the present. If you have lived in poverty and without much hope, it 
has to be paramount in your mind that there is truly a way out, a way 
to a better more productive life, and a way to use the brainpower you 
know you have. What the minority communities need to believe is that:
    <bullet> Their preschool children will have safe daycare where 
computers offer the same exploration to these 1 to 4 year olds as to 
their middle and upper class counterparts;
    <bullet> Their elementary school youngsters can surf the web to 
complete homework assignments and explore the challenging thoughts that 
present themselves while on line;
    <bullet> Their traditional age students, or older, in colleges and 
universities know how to use all of the search engines and research 
programs available on campus, regardless of the amount of their tuition 
or the size of the institution's endowments; and
    <bullet> Their senior citizens, often homebound, and others in 
their communities who are physically challenged, have computer skills 
and access to order their groceries, expand their minds or e-mail their 
children and grandchildren, no matter what their socioeconomic status 
or zip code.
    Minorities are a vital part of the first generation of a new and 
glorious millennium of growth and development for our country--a 
country that needs our full participation. Minority-serving 
institutions have a unique challenge in educating students with little 
or no preparation for the work world they are about to enter. Many of 
the simplest of tasks we take for granted in the workplace today 
(making a phone call or sending a fax) are the by-products of years and 
years of educational and cultural development. Each new generation has 
learned how to accomplish these tasks, adapted their skills and made 
their processes better and better. Today we are reorganizing and 
rebuilding business and industry and even whole national economies, and 
in that process we are also redistributing knowledge and the way we 
communicate knowledge. There is a high demand in the United States 
today for skilled, knowledgeable workers. Our most important businesses 
and industries are not just computer and electronics firms, but also 
advanced, information-driven companies with an educated and diverse 
workforce, a workforce of people who prize their diversity and will be 
successful because of it. There is a national shortage of information 
and communication technology professionals, and as minority-serving 
institutions we can educate our own to fill this gap. It is critical 
that our government takes an active role in the installation, 
development and use of information and communication technologies 
across economic as well as geographic lines so that America will have 
its own diverse trained workforce.
    Over the course of our nation's history, the view of higher 
education as a central element of our economic and social well-being 
has been widely acknowledged. Thomas Jefferson wrote of this concept 
when he said, ``I think by far the most important bill in our whole 
code is that for the diffusion of knowledge among the people. No other 
sure foundation can be devised for the preservation of freedom and 
happiness.'' Jefferson's world, two hundred years ago, was a vastly 
different place than the world today. However, our increasing 
dependence on knowledge and information today continues to recognize 
the importance of Mr. Jefferson's words and acknowledges the importance 
of colleges and universities as the generators of that knowledge and 
information.
    For more than two decades, enrollment at public colleges and 
universities has gradually risen; more than 77 percent of higher 
education is provided in public colleges and universities today. 
Projections for the coming decade show the total climbing further. Much 
of the recent growth has been among historically under-served and 
under-represented populations--racial and ethnic minorities, first 
generation college students--who bring a number of unique academic and 
co-curricular needs to our campuses. We must educate America's own to 
fill the high tech jobs of this century. The future demands that we 
have the technological resources to prepare these students.
    The Senate bill you are considering in this subcommittee to 
establish a $250 million pool of funds through the National 
Telecommunications and Information Administration Digital Network 
Technology Program Act will not fill the total gap in technology access 
between the haves and the have-nots, but it is a critical step in the 
right direction. This fund is an investment and an incentive for us all 
in providing digital opportunities for the communities and the students 
we serve.
    As the president of a public institution of higher learning and a 
historically black university, I want to ensure that the students we 
serve are ``achieving with Excellence'' and that each one has the 
opportunity to be the best he or she can possibly be. We must transform 
the digital divide that challenges us today into the digital resources 
and opportunities of tomorrow for all Americans regardless of their 
heritage or socio-economic status.
    I want to thank you for your thoughtful consideration of this 
legislation. The education of our next generation of leaders must be a 
team effort, and you are a critical part of that team.

    Senator Cleland. Thank you, Doctor. I want you to know I 
picked up that phrase, ``Digital Dominion.'' I got that.
    Senator Allen, would you like to lead the questioning?
    Senator Allen. Digital or Silicon Dominion. Dr. McDemmond 
came in at Norfolk State University and faced a lot of 
challenges when she came in. It was right at the end of my 
administration. I have a great deal of confidence in her 
ability to turn a lot of financial problems around. And it was 
no small task with the student loan default rate, and 
everything else that she has done at Norfolk State has just 
been fantastic.
    I also asked this question of the previous panel, as far as 
the number of students, and percentage of students in computer 
sciences, mathematics, and computer technology. Your record at 
Norfolk State, the Norfolk State story about increasing the 
computer sciences programs by 116 percent, and the number of 
students enrolled in computer technology increased by 32 
percent, I think was your testimony.
    Now, what caused this increase? What was it that was able 
to attract those young students?
    Dr. McDemmond. Well, giving them the opportunity. One of 
the things that we did was to accredit our computer science 
program early. So that program was a top-notch program. 
Students coming out of that program right now make around 
$60,000 at top firms throughout the United States as an 
undergraduate degree. Through the OCR agreement, we just 
received approval to have a master's in that computer science 
program. So we know that we can continue to do this.
    Having the right kind of program, Senator, making sure the 
students have the infrastructure, the actual wiring and 
capabilities. We struggle every day to make sure that our 
students have some means of computer access. Our dorms are not 
wired. So if the students go back to their rooms, they have to 
get up and go to the lab. But if they had a laptop right there 
in their dorm, there would be so much more advantage to be able 
to take full opportunity of science and technology careers.
    But I think clearly, having the programs, the quality 
programs, the quality that they need, and we speak to that at 
Norfolk State a whole lot, the whole quality of the education.
    Senator Allen. You wouldn't be one of those four 
universities that I've been asking----
    Dr. McDemmond. No, sir.
    Senator Allen. Do you know what those four are?
    Dr. McDemmond. I know Spellman, Morehouse, Clark, AU. I 
used to be Vice President of Finance at Atlanta University, so 
I do know that they had quite an endowment when I was there. 
But we only have $7 million in our endowment at Norfolk State, 
and I am working daily to increase that number. But as you can 
see, a $7 million endowment does not give us much flexible 
resources, not like Mr. Jefferson's university, sir.
    Senator Allen. Not even like Virginia Tech, as far as the 
requirement that all students have computers at Virginia Tech, 
which is not your sister university. Well, I guess to some 
extent, Virginia State is.
    But then your testimony is that Senator Cleland's bill 
would be very helpful. It is a step in the right direction. I 
am going to ask, as Senator Cleland is listening to all this 
testimony here, this bill, Norfolk State and Virginia State are 
two State historically black universities in Virginia. We have 
three independent universities or colleges: St. Paul's, 
Virginia Union, and Hampton; right?
    Dr. McDemmond. Right, there are three.
    Senator Allen. Would these grants just go to State 
colleges. Would they also be available to independent colleges 
and universities?
    Senator Cleland. That is correct, Senator.
    Senator Allen. Well, in light of the answer to that, and 
the testimony of Dr. McDemmond and others here, I would ask 
you, Senator Cleland, if you need some more support on this 
side of the aisle, I would be very proud to be a co-sponsor of 
your legislation. I think it is a step in the right direction.
    I would hope to get this measure passed this year. I think 
it is important for the future of our country.
    Senator Cleland. Thank you very much, Senator. We do need 
support from your side of the aisle, and the fact that you are 
the Ranking Member on this Subcommittee here, it would be a 
great boost to the legislation. And I thank you for that.
    And I have already asked my staff to check out my being a 
co-sponsor to your legislation, that you and Senator Boxer 
have, for a refundable tax credit for the purchase of 
computers.
    Senator Allen. Thank you.
    Senator Cleland. I might say that our Governor in Georgia 
has just put forward through the Legislature, which should pass 
it soon, a tax holiday in the spring and one in the fall, and 
to use part of that money to buy computers.
    Senator Allen. It will work. They will sell a lot more just 
over that.
    Senator Cleland. Yes, sir. The four colleges that would 
have to match would be Howard University, Hampton University, 
and two in my state, Spellman and Morehouse. Which means we 
will have to work on that section of the bill.
    [Laughter.]
    Senator Allen. No, no. We do not have to do that. The way I 
see that is that that gives them an added incentive that for 
every dollar someone gets, they get three dollars back. You can 
use those sort of matching grants as an incentive for people to 
be more generous.
    Senator Cleland. There you go. Any further questions, sir?
    Senator Allen. No, I have no further questions. If I could 
be excused?
    Senator Cleland. You may. You are excused.
    Senator Allen. Again, thank you.
    Dr. McDemmond. Thank you, Senator Allen.
    Senator Cleland. Mr. Sandoval, you have been so patient. 
Thank you for being here. Thank you for traveling all the way 
from Arizona. And we would be glad to hear your statement.

   STATEMENT OF GEORGE SANDOVAL, NETWORK ADMINISTRATOR, DINE 
                            COLLEGE

    Mr. Sandoval. Thank you for inviting me. Thank you, Senator 
Allen, and thank you, Senator Cleland. I am here representing 
Dine College, and we thank you for offering to let us testify.
    My name is George Sandoval, and I have been employed for 5 
years at the college. I serve as the Network Administrator for 
Information Services. I am also a former student of the 
college, and I am Navajo, and I have lived on the reservation 
for most of my life.
    And today I just want to discuss the current technological 
state of the college, and talk about, I guess, the digital 
divide that exists on the Navajo Reservation, including the 
college.
    The college was founded in 1968 as the first tribally 
controlled college in the United States. It has since changed 
its name to Dine College, and serves eight communities. The 
main campuses are in Tsaile, Arizona and Shiprock, New Mexico. 
The other centers are mostly just single buildings, and we have 
been trying to expand our services out to those communities.
    In recent years those centers have accounted for more than 
half the student population. Dine College focuses on preparing 
students for transfer to 4-year colleges, as well as entering 
into employment.
    While awarding mostly associate degrees, the college has 
begun a partnership with Arizona State University, and has now 
graduated several classes with bachelor's of arts degrees, and 
two students have achieved their master's degrees, and these 
are mostly in education.
    We have just begun to offer a distance learning via two-way 
video. And we are also using web applications to try to begin 
distance learning. We are just at the beginning, and we have a 
lot more to learn about it.
    Nearly 2 years ago, on April 17th, 2000, former President 
of the United States, Bill Clinton, made a historic trip to the 
Navajo Reservation and Dine College. This was an exciting time 
for me, because just the impact of having a President come to 
the reservation. His main message at this time concerned the 
digital divide and his commitment to assisting the reservation 
so that they could have the same opportunities as the rest of 
the country.
    There were two projects that we worked on at that time. One 
of them was setting up a video conference with the President 
and elementary students at Lake Valley School. We worked with 
various entities to get that going and to make it as optimal as 
possible.
    Another project that we spent a lot of time on was bringing 
the Access Grid to Dine College, and we did that via the NSF-
funded Internet 2, and with efforts from the University of New 
Mexico, Albuquerque, High Performance Computing Center, Oregon 
National Laboratory, the Indian Health Services at Shiprock, 
and the General Services Administration.
    We succeeded in providing content via the access grid to 
the University of New Mexico, Maui High Performance Computing 
Center, Boston University, Oregon National Laboratory, and the 
University of Kentucky. This was just a one-time event. And so 
about a week after the President left, all the T-1 circuits and 
the router that we borrowed were removed. However, it was a 
good experience, and it just proved that we were capable of 
doing something like that.
    In the near future at Dine College we would like to offer 
more distance learning opportunities, because just the distance 
between communities and the various centers, we find it helpful 
when we have even just two-way video and just web courses, 
where students do not have to be all at one place at one time.
    Some of the difficult problems that we face at the college 
include faculty and staff retention, just basic housing, to 
bring in staff and faculty, infrastructure. We have problems 
with electrical overloads, and just bringing in data lines. It 
is difficult to upgrade because of the older buildings. Of 
course, we need more office space and classrooms. Sometimes 
those are hard to find.
    Some of the cuts that affect students are related directly 
to athletics and student clubs, so the students get a lot of 
cuts for their programs.
    Some of our biggest strengths are Dine language programs, 
the Center for Dine Studies and the Dine Teacher Education 
Program. That partnership is with Arizona State University. And 
we are also trying to establish partnerships with Northern 
Arizona University, with their distance learning program. And 
we have also worked with the University of New Mexico High 
Performance Computing Center. And all those partnerships are 
invaluable. We have really used them.
    Some other grants that we receive have also been very 
helpful. Currently we have a Title III grant, and we are funded 
for 5 years. We also have a Youth Opportunity grant. And of 
course there is an AIHEC grant that is working with Microsoft. 
They are providing training and software for all the tribal 
colleges.
    Some of the donors were, of course the Department of 
Commerce; we received PCs from them last year, IBM, Reebok, the 
Department of Agriculture, and the International Commerce 
Institute have all donated computers to the college, and we 
have tried to give them directly to students.
    The State of Arizona recently passed a compact that will 
provide $1.75 million for 10 years. I think that is being 
challenged, and I am not really sure what's happening with 
that. But I think that is probably the first time that the 
State has funded our college.
    I would just like to conclude by saying that we are moving 
at a very fast rate by our standards, but we find that we are 
yet catching up to other schools that are more advanced, and 
thus have more opportunities. We are working hard to provide 
our students the same options that these other universities 
provide, and with your help these things can happen. And thank 
you for allowing us to testify.
    [The prepared statement of Mr. Sandoval follows:]

  Prepared Statement of George Sandoval, Network Administrator, Dine 
                                College

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, Dine College thanks 
you for the opportunity to express its view on S. 414 the ``National 
Telecommunications and Information Administration (NTIA) Digital 
Network Technology Program Act.''
    My name is George Sandoval and I work at Dine College. I have been 
employed since 1996 and now serve as the Network Administrator for 
Information Services. I am also a former student of the college. I am 
Navajo and have lived on the Navajo Reservation most of my life. Today 
I would like to discuss the current technological State of the college. 
And then I would like to describe the need for additional assistance in 
order to bridge the Digital Divide that exists between much of the 
Navajo Reservation, including Dine College, and the world.

                           DINE COLLEGE FACTS

    Navajo Community College was founded in 1968 as the first tribally 
controlled college in the United States. The college has since changed 
its name to Dine College and is located on the Navajo Reservation in 
eight communities. Main campuses are located in Tsaile, AZ and 
Shiprock, NM. Satellite centers in Arizona are at Chinle, Ganado, 
Kayenta, Tuba City and Window Rock. Crownpoint is the other center in 
New Mexico. These community centers have accounted for more than half 
the student population in recent years.
    Dine College focuses on preparing students for transfer to 4-year 
colleges as well as for entry into employment. Developmental studies 
are offered for students who need further preparation for college-level 
studies. While awarding mostly Associate Degrees the college has also 
begun a partnership with ASU and has now graduated several classes with 
Bachelor of Arts Degrees and two students have achieved their Master's 
Degrees.
    We have just begun to offer distance learning via video 
conferencing and web applications. We have much more to learn about 
distance learning in all its various forms.

                           PRESIDENTIAL VISIT

    Nearly 2 years ago, on April 17, 2000, former president of the 
United States, Bill Clinton, made a historic trip to the Navajo 
Reservation and Dine College. His visit lasted only a few hours, but 
the preparation took many days. I remember the excitement and 
anticipation as thousands of people awaited his arrival. The 
president's message during that time concerned the Digital Divide and 
his commitment to assisting those in need so that they could have the 
same opportunities as the rest of the country.
    I was lucky enough to witness firsthand as he talked to the 
students of Lake Valley School via the Internet. The Lake Valley 
School, along with the Dine College sites at Crownpoint and Window 
Rock, were the recipients of a two-way satellite system donated by 
Tachyon, Inc. Our techs, as well as techs and engineers from Tachyon 
worked long hours to ensure that the video conference transmission 
could be as optimal as possible. The work paid off as the conference 
demonstrated.
    Another project that we spent time on and that we thought was just 
as important was bringing the Access Grid to Dine College Shiprock via 
the NSF funded Internet 2. This endeavor was only possible with the 
collaborative effort of the University of New Mexico Albuquerque High 
Performance Computing Center, the Argonne National Laboratory, the 
Indian Health Services at Shiprock and the General Services 
Administration. We succeeded in providing content via the Access Grid 
to the University of New Mexico, Maui High Performance Computing 
Center, Boston University, Argonne National Laboratory, and the 
University of Kentucky. Unfortunately, the funding to sustain this 
endeavor was not available and so the six T1 circuits and router 
borrowed from the various participants were removed. The effort had 
proven that the technology is accessible.

           PLAN FOR THE FUTURE OF TECHNOLOGY AT DINE COLLEGE

    In the near future we would like to offer more Distance Learning 
opportunities via video conferencing and web courses. We also will 
continue to work with nearby Universities and College in order to share 
resources and extend accessibility to all students. We have plans to 
offer web registration and student data via the web. As you know, these 
options are, and have been, available at other colleges and 
universities.

             UNIQUE OR SPECIALIZED PROGRAMS (OUR STRENGTHS)

    Some of our biggest strengths include our Center for Dine Studies 
and our Dine Teacher Education Program. There is discussion on the 
possibility of offering these Navajo Language course via two-way video 
and other means. The partnerships that exist with Arizona State 
University, Northern Arizona University, the University of New Mexico 
High Performance Computing Center and other schools have proven 
invaluable.

                       GRANTS, DONORS, VOLUNTEERS

    We have been the recipients of various grants funded by 
governmental agencies. Some of these grants include the Navajo Learning 
Network, the American Indian Network Information Center, the 
Information Engineering Technology Program and the Visualization Lab. 
These grants have been completed and were very beneficial to Dine 
College.
    Our current grants are Title III (funded October 1, 2000 for 5 
years), the Youth Opportunity Grant (funded for 5 years), and the 
Microsoft AISTEC grant (managed by New Mexico Highlands University; 
provides training and software for Tribal Colleges).
    The American Indian Higher Education Consortium provides various 
opportunities for Tribal Colleges. They host an Information Technology 
conference annually. They have also contributed other services to the 
college including a Y2K assessment in 1999.
    We were very appreciative of donations by the following entities: 
The Dept. Of Commerce, IBM, Reebok, the Dept. of Agriculture and the 
International Commerce Institute. These entities provided our students 
with greater computer access. We were able to give more than 60 
students computers for their personal use.
    The State of Arizona will provide $1.75 million per year for 10 
years for maintenance, renewal and capital expenses. This is from 
Transaction Privilege Tax revenues.

                             OPPORTUNITIES

    There are other endeavors that we continue to pursue such as the 
partnership with the IHS Consortium. This will allow us more bandwidth 
to the Internet. Northern Arizona University has offered to relocate 
one of their underused studios to Dine College. This will include other 
benefits such as experience and expertise from NAU Net which has been 
operating two-way video conferencing in and around the reservation for 
many years.
    We are now working with the General Services Administration and 
their ANSWER contract. They will provide us with Project Management and 
other expertise to solve some of our most daunting tasks.

                                PROBLEMS

    Some of the more difficult problems that we face include Faculty 
Retention, housing (for staff and faculty), infrastructure (electrical, 
data network, have both become outdated and are difficult to upgrade, 
dorms/housing for students should be upgraded, and more office space 
and classrooms are needed). Some of the programs that are affected by 
budget cuts are directly student related such as Athletics and Student 
Clubs.
    Conclusion
    We are moving at a very fast rate at Dine College by our standards. 
In the 5 years that I have been at Dine College we have installed and 
implemented various technologies funded by various means. However we 
find that we are yet catching up to other schools that are more 
advanced technologically and thus have more opportunities. Dine College 
is working hard to provide our students the same options that many 
other universities provide. With your help and the continued hard work 
of staff and faculty, many of these advances can happen. Thank you for 
the opportunity to testify today.

    Senator Cleland. Thank you, Mr. Sandoval. What a great 
testimony and a great story. I would like to ask you a 
question, Mr. Sandoval. According to the Federal Communication 
Commission, only a little more than 18 percent of individuals 
living on the Navajo Reservation, on which Dine College is 
located, have access to telephones, 18 percent.
    How much of a help do you believe this legislation can be 
in helping to connect not just tribal colleges like Dine, but 
ultimately the communities in which they are located?
    Mr. Sandoval. I'm not sure how it can directly help, I 
guess the rural population, but I know at the college we strive 
to help the community out as much as we can. I am not exactly 
sure how they can help with getting phones to, I guess, people 
that are not involved with the college. But we try to provide 
for the community.
    Senator Cleland. Well, thank you very much, and thank you, 
Doctor, for coming. You all have added greatly to our body of 
testimony. And as we have just heard, Senator Allen is going to 
be a co-sponsor of our legislation, obviously, persuaded by Dr. 
McDemmond and others.
    I would like to thank the staff for putting this hearing 
together. The hearing is adjourned.
    [Whereupon, at 4:31 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of The Advanced Networking With Minority-Serving
        Institutions Project on S. 414, the NTIA Digital Network
                         Technology Program Act

    The Advanced Networking With Minority-Serving Institutions (``AN-
MSI'') Project strongly supports the S. 414 legislation to establish a 
digital network technology program. AN-MSI applauds the Committee and 
the sponsors of S. 414 for undertaking this very critical initiative to 
help minority-serving institutions (``MSIs'') strengthen their digital 
network technology capabilities. AN-MSI also supports the testimonies 
and recommendations of our Minority-Serving Institution partners who 
have already testified before the Senate Commerce Committee.

                            WHAT IS AN-MSI?

    The Advanced Networking With Minority-Serving Institutions Project 
is a 4-year initiative funded under a grant from the National Science 
Foundation to EDUCAUSE, an association of 1800 colleges, universities 
and companies dedicated to improving higher education through the 
intelligent use of information technology. AN-MSI assists MSIs to plan 
and deploy network systems to fulfill their educational goals and to 
use digital technologies to manage their institutions. By attaining 
network systems that meet their needs, MSIs and their students can more 
fully participate and compete in the ``information age.''
    Approximately 100 Hispanic-Serving Institutions (``HSIs''), 
Historic Black Colleges and Universities (``HBCUs'') and Tribal 
Colleges and Universities (``TCUs'') in 31 states, as well as in Puerto 
Rico and the Virgin Islands, are members of the AN-MSI consortium. 
Current partners in AN-MSI include such minority higher education 
consortiums as: the American Indian Higher Education Consortium, the 
Hispanic Association of Colleges and Universities, the National 
Association for Equal Opportunity in Higher Education, and the United 
Negro College Fund.

              WHAT TYPE OF ACTIVITIES DOES AN-MSI SUPPORT?

    AN-MSI offers a comprehensive array of technical assistance and 
services to support minority-serving institutions' efforts to develop 
state-of-the-art networks and network applications. Key principles 
guiding AN-MSI's efforts are: helping consortium institutions to plan 
and determine their own network needs; training institutions and key 
staff to train other staff and institutions; using alliances among 
higher education institutions to support their digital technology needs 
and promoting collaborations to help MSIs to support themselves; and, 
providing resources and information to help them to implement their 
advanced networking projects.
    AN-MSI services and products supporting advanced networking 
include:
    <bullet> Assessing individual campus needs and capabilities
    <bullet> Working with institutions to develop strategic plans to 
improve campus networks and Internet connectivity
    <bullet> Supporting institutions to apply network tools with which 
to teach, learn, research and collaborate
    <bullet> Assisting institutions to deploy network security and 
monitoring systems
    <bullet> Providing training for administration and maintenance of 
networks
    <bullet> Consulting on campus IT and networking system architecture 
and implementation
    <bullet> Establishing remote technical support for networks
    <bullet> Developing and mentoring student-managed technical 
services
    <bullet> Increasing the capacity of and sustaining networking 
efforts
    <bullet> Helping institutions develop funding models and plans to 
pay for networks
    <bullet> Expanding and educating faculty, students and staff on 
campus network services
    <bullet> Evaluating networking efforts

                       LESSONS LEARNED BY AN-MSI

    For over 2 years, AN-MSI has embarked on the mission of helping 
MSIs attain digital network technology equality. Minority-serving 
institutions have worked diligently with very dedicated staff to 
provide the best networking services to their students and faculty that 
their small staff and meager technology budgets can afford. There 
simply is not enough money. This is an area where the under-funding of 
minority-serving institutions clearly shows. While each minority-
serving institution has its own technology needs and issues, one of the 
profound lessons learned by the AN-MSI project serving over 100 
institutions is that so many MSIs are not fully ``network ready'' for 
their students. Campuses often lack a number of critical items: current 
technologies and capacity, the necessary staffing skills and support 
mechanisms to manage their technology systems, knowledge of their IT 
structure and capabilities, sense of their IT needs, a strategic IT 
plan, the resources to deploy a network to meet their educational and 
administrative needs, and the additional resources later to refresh 
their digital technologies.

MSIs' Capacity to Support Digital Technologies:
    Based on these realities, we recommend that the proposed NTIA 
Digital Network Technology Program be expanded to reflect a broader 
range of MSIs' technology needs. The proposed authorization language in 
Section 171 reads: ``to strengthen the capacity of eligible 
institutions to provide instruction in digital network technologies. . 
.'' Section 172(1) authorizes a range of acquisitions necessary ``to 
teach students and teachers about technology in the classroom.'' Beyond 
instruction in digital network technologies, a concerted focus needs to 
be directed at MSIs to provide instruction with digital technology; 
that is to enhance their capacity to carry out their overall teaching 
and learning mission. Without funding the institutional capacity to 
support digital network technologies, a greater MSI need will be 
overlooked. Put another way, without the basic capacity to sustain 
campus digital networks, and without teaching by example, little can be 
derived from classroom instruction on digital network technologies.

MSIs' Need for Technical Support and Collaborative Strategies:
    Given these ``resource'' challenges at Minority-Serving 
Institutions, AN-MSI has applied its limited funding to support 
innovative and cost-efficient strategies to meet their networking 
needs. AN-MSI has co-sponsored IT training and produced a campus 
network architecture guideline document for use by campus network 
technicians. AN-MSI is disseminating background information on IT 
issues; has created a website with resource information and links 
providing practical information on how to plan for campus IT 
deployment; and will be developing an inventory of effective IT 
practices deployed by other MSIs and EDUCAUSE institutions. AN-MSI has 
sponsored technical assistance site visits to MSI campuses to help them 
with their network documentation, systems assessment, IT planning, 
leadership education and involvement, technology options, and teaching 
applications. AN-MSI also supported the development of key 
collaborations with other MSIs, private sector partners and resource 
service providers to help them with their digital technology 
deployment.
    Dr. Gerald Monette, President of Turtle Mountain Community College 
and Chairman of the Technology and Infrastructure Development Committee 
of the American Indian Higher Education Consortium testified before you 
on February 27th. He recommended including provisions in S. 414 to 
support strategic IT planning. ``Specifically, planning needs to be 
focused on the unique nature and mission of institutions of higher 
education. Possible models include the AIHEC/AN-MSI partnership 
currently underway to provide technical assistance to NSF-TCUP 
grantees.''
    The strategic support and intervention developed by AN-MSI is 
essential for the success of MSIs in building their digital network 
systems and in developing new and innovative digital learning 
applications. Mr. Monette further stated: ``funding to expand this 
effort and ensure strategic IT planning, possibly through the 
Department of Education's Titles III and V programs for Institutional 
Development, or the National Science Foundation, could be a wise 
investment.'' AN-MSI concurs with AIHEC's recommendations on the vital 
importance of investing in strategic planning to support MSI digital 
deployment. To accomplish this effectively, AN-MSI recommends that 
collaborative digital technology projects supporting MSIs, be directly 
eligible to receive funding for technical services to MSIs. The Act 
strongly encourages and supports activities to implement joint projects 
regarding technology in Section 172(4). However, funding for eligible 
non-profit MSI collaborative organizations is only referenced in 
Section 3(6)(1)'s definition for HBCUs, as ``a consortium of 
institutions described in this subparagraph.'' The Act should make more 
explicit that all national non-profit MSI consortiums are eligible for 
direct funding.

A Need to Test New Services and Technologies and to Share the Knowledge
    In his testimony before the Subcommittee, Dr. Fred Humphries, 
President & CEO of the National Association for Equal Opportunity in 
Higher Education, emphasized in his recommendations: ``MSIs should be 
involved in the research and development of cutting edge technology to 
assure that they can secure and maintain state-of-the-art technology. 
Furthermore, they should be involved in the economic development of 
their communities around the new economy, including training as well as 
entrepreneurial development.'' We support Dr. Humphries' 
recommendation.
    AN-MSI, cognizant of the uniqueness of MSIs, has seeded pilot 
projects to develop digital network solutions, services and 
applications that can be used by all MSIs. AN-MSI has funded a wireless 
broadband infrastructure project to provide multi-media access to rural 
tribal colleges; a network security collaborative project with HSIs; a 
network system monitoring and reporting project with HBCUs; is 
assisting the development of a pilot project to build a collaborative 
IT human resource knowledge base among HBCUs in North Carolina; and 
funded the deployment of a cutting-edge video-conference collaborative 
curriculum on IT teaching and learning applications. Through its grant 
partner, EOT-PACI, MSIs are participating in workshops on developing 
research clusters and are involved in activities and conferences to 
learn about and to implement advanced computational research 
infrastructures and partnerships.
    Authorizing collaborative pilot projects to develop new services, 
applications and technologies for use by all MSIs will strengthen the 
bill.

Importance of Knowledge and Resource Bases
    Dr. Antonio Flores, President & CEO of the Hispanic Association of 
Colleges and Universities, emphasized in his testimony before the 
Subcommittee: ``. . . the social and economic impact of the digital 
divide relates to more than just physical access. It also involves 
skill in the use of information technology, especially in ways that 
help one to learn, gather information, critically analyze data, and 
generate new knowledge and understanding.'' AN-MSI fully concurs with 
Dr. Flores.
    A key component often overlooked in the deployment of digital 
technologies is the development of the ``human network'' and 
``knowledge-network'' that is essential to bridging the digital divide 
alluded to by Dr. Flores. AN-MSI has embraced this policy by supporting 
unique collaborations among MSIs and with private sector partners. AN-
MSI has also funded the dissemination of vital knowledge through 
training partnerships with the NSF, EDUCAUSE, the NSF-funded 
Partnership for Advanced Computational Infrastructure, Internet 2, and 
others. AN-MSI is also developing a resource base of knowledge to help 
MSIs replicate the digital deployment efforts of other MSIs and 
institutions in EDUCAUSE.
    Collaborations, training and knowledge bases should also be 
explicitly funded under S. 414. The building and use of knowledge bases 
and networks is essential to the deployment of digital network 
technologies.

                       SUMMARY OF RECOMMENDATIONS

    1. Support the use of digital technologies to teach by clarifying 
the authorization under the Act to include ``strengthen the capacity of 
eligible institutions to provide instruction in and using digital 
network technologies by providing grants to, or executing contracts or 
cooperative agreements with, those institutions to provide such 
instruction and strengthen their digital network technology capacity'' 
(Sec. 171, modifications in bold italics);
    2. Further support the use of digital technologies to teach with by 
adding in Section 172(1) support for activities to include acquiring 
``. . . digital technology, and infrastructure necessary to teach 
students and teachers about technology in the classroom or to teach 
with.'' (Modification in bold italics);
    3. Permit use of funds for digital technology strategic planning by 
the institution and by non-profit MSI collaborative organizations with 
expertise to assist campuses with their digital technology strategic 
planning or render other technical assistance to implement digital 
network technologies; (Sec. 172(2) add-in, or add Sec. 172(6) to 
activities supported);
    4. Permit use of funds to implement a joint project with other 
institutions, non-profit MSI collaborative organizations, or 
collaborative partners to provide education regarding technology in the 
classroom or technology for the institution. (Sec. 172(4), 
modifications in bold italics);
    5. Permit the use of funds to support or develop a collaborative 
resource network or data base to support the development of digital 
technology by MSIs. (Add Sec. 172(7));
    6. Permit consortiums of institutions collaborating under the Act 
or non-profit MSI collaborative associations to be eligible for funding 
to assist MSIs to develop, enhance and support digital technology 
systems, and to receive and provide training for digital network 
technologies. (Sec. 102(a)(6), add ``(G)'' to definitions of 
eligibility.)

                              CONCLUSION:

    The time is very late for minority students and institutions trying 
to compete in a new technology marketplace. Not only is digital 
technology an important subject matter to teach and to learn, it is an 
essential means of learning and teaching. AN-MSI supports the Senate's 
effort to strengthen the digital technology capacity of MSIs and stands 
ready to assist the Committee and Congress in any manner you deem 
necessary. Thank you for accepting AN-MSI's testimony.
  

                                  <all>

</pre></body></html>
